<html>
<title> - H.R. 6311, THE NON- NATIVE WILDLIFE INVASION PREVENTION ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                          H.R. 6311, THE NON-
                            NATIVE WILDLIFE
                        INVASION PREVENTION ACT

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE
                               AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, June 26, 2008

                               __________

                           Serial No. 110-80

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
43-302 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California               Steve Scalise, Louisiana
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

             SUBCOMMITTEE ON FISHERIES, WILDLIFE AND OCEANS

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Wayne T. Gilchrest, Maryland
    Samoa                            Cathy McMorris Rodgers, Washington
Neil Abercrombie, Hawaii             Tom Cole, Oklahoma
Solomon P. Ortiz, Texas              Bill Sali, Idaho
Frank Pallone, Jr., New Jersey       Robert J. Wittman, Virginia
Patrick J. Kennedy, Rhode Island     Don Young, Alaska, ex officio
Ron Kind, Wisconsin
Lois Capps, California
Nick J. Rahall, II, West Virginia, 
    ex officio


                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, June 26, 2008..........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina................................     2

Statement of Witnesses:
    Cravalho, Domingo, Jr., Inspection and Compliance Section 
      Chief, Plant Quarantine Branch, Hawaii Department of 
      Agriculture................................................    27
        Prepared statement of....................................    29
    Frazer, Gary, Assistant Director for Fisheries and Habitat 
      Conservation, Fish and Wildlife Service, U.S. Department of 
      the Interior...............................................     4
        Prepared statement of....................................     6
    Gaden, Marc, Ph.D., Legislative Liaison, Great Lakes Fishery 
      Commission.................................................    31
        Prepared statement of....................................    33
    Horne, George, Deputy Executive Director, Operations and 
      Maintenance, South Florida Water Management District.......    41
        Prepared statement of....................................    42
    Marano, Nina, D.V.M., M.P.H., Branch Chief, Geographic 
      Medicine and Health Promotion Branch, Division of Global 
      Migration and Quarantine, Centers for Disease Control and 
      Prevention, U.S. Department of Health and Human Services...    16
        Prepared statement of....................................    17
    Meyers, Marshall, Executive Vice President and General 
      Counsel, Pet Industry Joint Advisory Council...............    47
        Prepared statement of....................................    48
    Riley, Lawrence M., Wildlife Management Division Coordinator, 
      Arizona Game and Fish Department, on behalf of the 
      Association of Fish and Wildlife Agencies..................    55
        Prepared statement of....................................    56
    Williams, Lori C., Executive Director, National Invasive 
      Species Council, U.S. Department of the Interior...........    11
        Prepared statement of....................................    13

Additional materials supplied:
    Hastings, Hon. Alcee L., a Representative in Congress from 
      the State of Florida, Statement submitted for the record...    67


      H.R. 6311, THE NON-NATIVE WILDLIFE INVASION PREVENTION ACT.

                              ----------                              


                        Thursday, June 26, 2008

                     U.S. House of Representatives

             Subcommittee on Fisheries, Wildlife and Oceans

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:35 a.m. in 
Room 1334, Longworth House Office Building, Hon. Madeleine Z. 
Bordallo [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Bordallo, Brown, Wittman, and 
Klein.

STATEMENT OF THE HONORABLE MADELEINE Z. BORDALLO, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. Good morning, everyone. The legislative 
hearing by the Subcommittee on Fisheries, Wildlife and Oceans 
will come to order.
    The Subcommittee is meeting today to hear testimony on H.R. 
6311, the Nonnative Wildlife Invasion Prevention Act. Pursuant 
to Committee Rule 4[g], the Chairwoman and the Ranking Minority 
Member will make opening statements.
    The Subcommittee on Fisheries, Wildlife and Oceans meets 
this morning to hear testimony regarding my bill, H.R. 6311, 
the Nonnative Wildlife Invasion Prevention Act. Invasive 
nonnative species cause harm to the economy. They cause harm to 
human health and the health of other animal species.
    The damages from these species are estimated to be $123 
billion annually. Some of these species are introduced 
unintentionally, as is the case with Guam's brown tree snake, a 
significant problem in my territory. However, intentional 
introduction is one of the primary pathways by which invasive 
species become established.
    Currently, there is no law that requires species to be 
evaluated for risk before import. The Lacey Act allows species 
to be placed on an injurious list, which prohibits import, but 
this can occur only after the species has been initially 
imported and caused serious and widespread harm to the economy, 
to the environment, and to human and animal species' health.
    On average, however, it takes the Fish and Wildlife Service 
four years to list a species as injurious. In the meantime, the 
impacts caused by a particular species are often irreversible, 
thereby increasing taxpayers' costs to mitigate what can be 
irremediable environmental damage.
    My bill, H.R. 6311, would require species to be evaluated 
for these risks before importation. Using this approach, H.R. 
6311 proposes a ``white list'' of species approved for import. 
Other species would be prohibited until the importer can 
demonstrate that it will not cause harm.
    I am pleased to have three Subcommittee Members--Mr. 
Kildee, Mr. Abercrombie, and Mr. Kind--as original co-sponsors 
of this legislation, and I look forward to hearing from our 
witnesses today about the need for this legislation to prevent 
the import of invasive, nonnative wildlife species.
    [The prepared statement of Ms. Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
             Subcommittee on Fisheries, Wildlife and Oceans

    The Subcommittee on Fisheries, Wildlife and Oceans meets this 
morning to hear testimony regarding my bill, H.R. 6311, the Nonnative 
Wildlife Invasion Prevention Act.
    Invasive, non-native species cause harm to the economy, human 
health, and the health of other animal species. The damages from these 
species are estimated to be $123 billion annually. Some of these 
species are introduced unintentionally, as is the case with Guam's 
brown tree snake, a significant problem in my territory. However, 
intentional introduction is one of the primary pathways by which 
invasive species become established.
    Currently, there is no law that requires species to be evaluated 
for risk before import. The Lacey Act allows species to be placed on an 
``injurious list'', but this can occur only after they have caused 
serious and widespread harm to the economy, environment, and to human 
and animal species' health.
    On average, however, it takes the Fish and Wildlife Service four 
years to list a species as injurious. In the meantime, the impacts 
caused by a particular species are often irreversible, thereby 
increasing taxpayers' costs to mitigate what can be irremediable 
environmental damage.
    My bill, H.R. 6311, would require species to be evaluated for these 
risks before importation. Using this approach, H.R. 6311 proposes a 
``white list'' of species approved for import. This places the burden 
of proof on the importer to demonstrate that the species will not cause 
harm to the environment or to society.
    I am pleased to have three Subcommittee Members, Mr. Kildee, Mr. 
Abercrombie, and Mr. Kind, as original co-sponsors of this legislation 
and I look forward to hearing from our witnesses today about the need 
for this legislation to prevent the import of invasive, non-native 
wildlife species.
                                 ______
                                 
    Ms. Bordallo. And now, as Chairwoman, I recognize Mr. 
Brown, the Ranking Republican Member, from South Carolina, for 
any statement he may have.

       STATEMENT OF THE HONORABLE HENRY E. BROWN, JR., A 
  REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Brown. Thank you, Madam Chair, and welcome, witnesses. 
Today, we will hear testimony on the recently introduced bill 
to address the growing problem of nonnative wildlife species 
that are being legally and illegally imported to the United 
States.
    According to the Director of the U.S. Fish and Wildlife 
Service, invasive species are the number one environmental 
threat to this country. They are permanently changing the 
landscape of millions of acres, and they are partially 
responsible for nearly half of all species listed under the 
Endangered Species Act.
    As a nation that loves exotic pets, the United States has 
become the destination of choice for over 2,000 nonnative 
species that are sold in the wild animal trade. Of these 
species, one of the most popular has become the Burmese python, 
an extraordinary snake that can grow 20 feet long, weigh 150 
pounds, and eat a full-grown alligator for lunch. That is a 
stretch, but that is what I have here.
    According to the Fish and Wildlife Service, since 2000, 
more than one million pythons have been imported into the 
United States for commercial sale. Nearly half of those imports 
arrive at the Miami International Airport, and many were listed 
on the manifests of commercial airlines as snakes on the plane.
    Regrettably, owners of these snakes have released their 
pets when they became too large or too expensive to keep. They 
are now living comfortably in the Florida Everglades, where 
they are consuming much of the native wildlife and further 
impairing at least five endangered species.
    In response to this crisis, the State of Florida has 
petitioned to have the Burmese python listed as injurious under 
the Lacey Act. This would be a relatively easy decision, as of 
now, two years later, there has been no listing, and the 
exploding population of pythons continues to destroy the 
Everglades, which taxpayers have spent billions to restore.
    It is, therefore, understandable that there is a growing 
frustration with the Lacey Act. Sadly, to become listed as 
injurious is a long and difficult process. There is no mandated 
deadline to make a determination and no insurance that species, 
like the Burmese python, bighead carp, or swamp eel will ever 
be listed.
    I understand the purpose of H.R. 6311 is to prevent the 
introduction and establishment of nonnative wildlife species 
into the United States. This is a noble goal, and I look 
forward to hearing testimony on how this legislation will 
assist in the ongoing battle against what has been described as 
the ``greatest environmental problem facing this country, 
unwanted foreign wildlife invaders.''
    Thank you, Madam Chair. I yield back.
    Ms. Bordallo. I thank the Ranking Member for a very 
positive statement and invite you to be a co-sponsor of this 
bill.
    Our witnesses on the panel this morning; I welcome all of 
you. We have Mr. Gary Frazer, Assistant Director for Fisheries 
and Habitat Conservation at the U.S. Fish and Wildlife Service; 
we have Ms. Lori Williams, Executive Director of the National 
Invasive Species Council at the Department of the Interior; and 
Nina Marano, Chief of the Geographic Medicine and Health 
Promotion Branch, Division of Global Migration and Quarantine, 
Centers for Disease Control and Prevention.
    I want to thank you and welcome all of you to our hearing 
this morning. I will note that, for all of the witnesses, that 
the timing lights on the table will indicate when your time has 
concluded, and we would appreciate your cooperation in 
complying with the limits that have been set, as we have many 
witnesses to hear from today.
    So be assured, though, that your full statement will be 
entered into the official record.
    Now, at this time, I would like to invite the first 
witness, Mr. Frazer, to testify for five minutes.

STATEMENT OF GARY FRAZER, ASSISTANT DIRECTOR FOR FISHERIES AND 
     HABITAT CONSERVATION, FISH AND WILDLIFE SERVICE, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Frazer. Chairwoman Bordallo and Members of the 
Subcommittee, I am Gary Frazer, Assistant Director for 
Fisheries and Habitat Conservation, at the U.S. Fish and 
Wildlife Service. I also serve as co-chair of the Aquatic 
Nuisance Species Task Force.
    Thank you for this opportunity to testify on the effects of 
invasive species and H.R. 6311, the Nonnative Wildlife Invasion 
Prevention Act, which would establish a framework for assessing 
the risk of nonnative wildlife species proposed for 
importation.
    The Fish and Wildlife Service greatly appreciates the 
Subcommittee's leadership and support in the fight against 
invasive wildlife. Today, my testimony will focus on the 
threats posed by invasive species and what the Service is doing 
to address that challenge.
    While we acknowledge that there may be benefits to be 
gained from the approach proposed in H.R. 6311, because the 
bill was recently introduced, we have not yet had time to fully 
evaluate its impacts. However, as noted below, the Service 
recognizes the importance, and supports the general intent, of 
developing a cost-effective and scientifically credible 
screening mechanism for nonnative invasive species.
    There is no question that the introduction and 
establishment of invasive species has harmed native species and 
ecosystems. We have only to look at a history of introductions, 
from the sea lamprey to the zebra mussel to tamarisks, to 
understand the broad scope of the problem.
    The United States continues to see a number of nonnative, 
potentially invasive, species crossing our borders through 
various pathways. With the global nature of our economy and 
transportation systems, we expect this trend to continue.
    Invasive species are among the primary factors negatively 
affecting native fish and wildlife populations in the United 
States, and, without question, are one of the most significant 
natural resource management challenges facing the Service.
    For example, as you are aware, the brown tree snake is a 
major threat to the biodiversity of the Pacific region. Since 
arriving in Guam in the 1940s or 1950s, brown tree snakes have 
spread across the entire island and have caused, or been a 
major factor, in the extrication of most of Guam's native 
terrestrial vertebrates, including fruit bats, lizards, and 
nine of the 13 native forest bird species. Brown tree snakes 
also cause millions of dollars in damage to Guam's 
infrastructure and economy.
    Aquatic invasive species are impacting America's sport and 
commercial fisheries, as well as their associated local 
economies. In the Great Lakes region, the sea lamprey has been 
extremely destructive to economically important sport fish, 
including lake trout, salmon, rainbow trout, and walleye.
    In the West, a nonnative parasite causes whirling disease 
in wild trout and salmon populations. It is estimated that some 
streams have lost 90 percent of their trout due to whirling 
disease.
    Zebra and quagga mussels impact both the natural 
environment and human infrastructure. Both mussel species are 
easily spread unintentionally by recreational boaters and 
annually cause an estimated $30 million in damage to water-
delivery systems in the Great Lakes.
    In early 2007, quagga mussels were discovered in Lake Mead 
National Recreation Area. They have since been found in 
Arizona, California, and Nevada, including our Willow Beach 
National Fish Hatchery and all 242 miles of the Colorado River 
Aqueduct.
    Many of the Service's programs support the management and 
prevention of nonnative species. We work with many partners, 
including all of those at the witness table today, to address 
nonnative species issues. My written statement details a number 
of these efforts, but, in the interest of time, I will 
highlight just a few.
    The Nonindigenous Aquatic Nuisance Prevention and Control 
Act of 1990 [NANPCA] established the Service's Aquatic Invasive 
Species program, as well as the Aquatic Nuisance Species Task 
Force, which is co-chaired by the Service and NOAA.
    Our Aquatic Invasive Species program coordinates 
prevention, control, and management actions on invasive species 
that span geography and jurisdictional boundaries. Our program 
staff work with Service field stations, Federal and state 
agencies, nongovernmental groups, and private landowners to 
conduct the surveillance, implement projects, and inform the 
public about invasive species issues.
    The Service's Aquatic Invasive Species program also 
administers our only regulatory tool regarding invasive 
species, the Injurious Wildlife provisions of the Lacey Act. 
The Service's Office of Law Enforcement has wildlife inspectors 
stationed at 38 staff locations, where they work to detect and 
deter illegal trade in protected species and prevent the 
introduction of injurious wildlife.
    The Service's fisheries program works with the Great Lakes 
Fishery Commission to implement the successful Sea Lamprey 
program on the Great Lakes.
    They also work extensively to prevent the introduction and 
spread of Asian carp into the Great Lakes and other waterways.
    Education and outreach efforts are critical elements to the 
success of invasive species prevention and control. The Service 
and the Aquatic Nuisance Species Task Force developed the 
``Stop Aquatic Hitchhikers!'' public awareness campaign, which 
targets aquatic recreational users and promotes voluntary 
guidelines to ensure that aquatic nuisance species are not 
unintentionally spread through recreational activities.
    The Service primarily focuses on preventing the 
introduction and spread of invasive species because we have 
limited tools for long-term management and control of invasive 
species once they have become established. Preventing new 
introductions is the primary focus of the Service and is the 
most effective strategy to protect our nation's wildlife and 
habitats.
    In that regard, Madam Chair, the Service greatly 
appreciates your interest and that of the Subcommittee in 
establishing a more effective means to control the introduction 
of nonnative invasive wildlife into the U.S. The Service 
recognizes the need for a new approach for managing the risk 
for importing potentially invasive, nonnative wildlife.
    The Service supports the intent of H.R. 6311 to develop a 
risk-assessment process with scientifically credible procedures 
that will be transparent and efficient so that wildlife 
importers can obtain timely decisions and make investment 
decisions accordingly. The Service does, however, have some 
concerns with the bill, including its relationship to existing 
authority and the cost and feasibility of implementation.
    We would like to work with the Subcommittee to address 
these issues.
    Thank you, Madam Chair, for the opportunity to testify 
before the Subcommittee on this issue and for your support in 
preventing harm to the nation's fish and wildlife resources 
from invasive species.
    [The prepared statement of Mr. Frazer follows:]

Statement of Gary Frazer, Assistant Director for Fisheries and Habitat 
    Conservation, U.S. Fish and Wildlife Service, Department of the 
                                Interior

Introduction
    Chairwoman Bordallo and Members of the Subcommittee, I am Gary 
Frazer, Assistant Director for Fisheries and Habitat Conservation of 
the U.S. Fish and Wildlife Service (Service). I also serve as co-chair 
of the Aquatic Nuisance Species Task Force (ANS Task Force). Thank you 
for this opportunity to testify on the effects of invasive species and 
H.R. 6311, the Nonnative Wildlife Invasion Prevention Act, legislation 
that would provide for the assessment of the risk of nonnative wildlife 
species proposed for importation.
    The Service appreciates the Subcommittee's leadership and support 
in the fight against invasive plants and animals. Today, my testimony 
will focus on the threats posed by invasive species, what the Service 
is doing to address that challenge. While we acknowledge that there may 
be benefits to be gained from the approach proposed in H.R. 6311, 
because the bill was recently introduced we have not yet had time to 
fully evaluate its impacts, including the cost and feasibility of 
monitoring the vast volume of international trade, or consult with 
other affected agencies. However, as noted below, the Service 
recognizes the importance, and supports the general intent, of 
developing a cost-effective screening mechanism for nonnative invasive 
species.
Risks and Threats of Invasive Species
    There is no question that the introduction and establishment of 
invasive species have significantly impacted the health of our native 
species and ecosystems. We have only to look at a history of 
introductions, from the sea lamprey to the zebra mussel to tamarisk, to 
understand the broad scope of the problem. The United States continues 
to see a number of nonnative, potentially invasive species crossing our 
borders through various pathways. With the global nature of our economy 
and transportation systems, we expect this trend to continue. Invasive 
species are among the primary factors that have led to the decline of 
native fish and wildlife populations in the United States and, without 
question, are one of the most significant natural resource management 
challenges facing the Service.
    It is difficult to estimate the full extent of the environmental 
damage from nonnative invasive species. However, we know that over 400 
of the 1,352 species that the Service protects under the Endangered 
Species Act are considered to be at risk primarily due to competition 
with, or predation by, invasive species.
    Invasive species can also change the functions of ecosystems. For 
example, along the Rio Grande in New Mexico and Texas, salt cedar and 
giant cane, two invasive plants, are reducing stream flows, increasing 
water loss through transpiration, and degrading habitat value for 
native wildlife in this unique riparian ecosystem.
    The brown tree snake is a major threat to the biodiversity of the 
Pacific region. A native of Indonesia, New Guinea, the Solomon Islands, 
and Australia, the brown tree snake arrived on Guam sometime during the 
1940s-1950s as stowaways. The snakes have since spread across the 
entire island and have caused or been a major factor in the extirpation 
of most of Guam's native terrestrial vertebrates, including fruit bats, 
lizards, and nine of thirteen native forest bird species. Insect 
species that are no longer naturally controlled by native birds and 
lizards reduce fruit and vegetable production and their uncontrolled 
numbers require greater reliance on pesticides. Brown tree snakes also 
cause millions of dollars in damage to Guam's infrastructure and 
economy by climbing power poles and causing power outages.
    The Service is also concerned about the impact of aquatic invasive 
species to America's sport and commercial fisheries. In the Great Lakes 
region, the sea lamprey was accidentally introduced in the early 20th 
century as a result of the construction of shipping canals. This 
parasitic fish has been extremely destructive to economically important 
sport fish, including lake trout, salmon, rainbow trout, and walleye. 
During its life cycle, a single sea lamprey can kill 40 or more pounds 
of fish, and under certain conditions, only one in seven fish attacked 
by a sea lamprey will survive. Before sea lampreys invaded the Great 
Lakes, about 15 million pounds of lake trout were harvested in lakes 
Huron and Superior annually. However, by the early 1960s, sea lampreys 
and other factors reduced the catch to 300,000 pounds <SUP>1</SUP>.
---------------------------------------------------------------------------
    \1\ http://www.glfc.org/pubs/FACT_3.pdf
    Scott, W. B., and E. J. Crossman. 1973. Freshwater Fishes of 
Canada. Fisheries Research Board of Canada, Bulletin 184. Ottawa. 966 
pp. as referenced at: http://nas.er.usgs.gov/queries/
FactSheet.asp?speciesID=836
---------------------------------------------------------------------------
    Bighead carp, black carp, silver carp, and largescale silver carp, 
collectively referred to as Asian carps, are nonnative invasive species 
that pose an additional threat to recreational and commercial 
fisheries. Bighead, silver and largescale silver carp are planktivores 
(or plankton eaters) that consume large quantities of food, grow to 
large size, and compete with native species for food and habitat. 
Silver carp jump several feet out of the water when boats travel past, 
and have been known to cause injuries to people and damage equipment as 
a result of collisions with these extremely large fish. In their native 
waters, black carp feed on mollusks (snails and mussels) that are 
similar to those found in many American rivers, especially those in the 
southeastern United States. Adult black carp have powerful teeth that 
can crush large mollusks, including those from populations of native 
species that are declining, threatened, or endangered.
    Our nation's trout and salmon fishery, which provides recreation 
for over 7.8 million Americans annually, is also at risk from a 
nonnative invasive parasite which causes whirling disease. Brought to 
the United States from Europe in the 19500's, this microscopic parasite 
attacks the head and spinal cartilage of the infected fish and causes a 
disease named for the swimming behavior that results. In the western 
United States, it is estimated that some streams have lost 90 percent 
of their trout due to whirling disease. This threat to recreational 
fishing has significant implications for the economy, as trout fishing 
is a cornerstone of tourism in many states in the west. For example, 
trout fishing has been estimated to generate $222 million annually in 
recreational expenditures in Montana alone <SUP>2</SUP>.
---------------------------------------------------------------------------
    \2\ http://findarticles.com/p/articles/mi_qa3951/is_200207/
ai_n9146540
---------------------------------------------------------------------------
    Zebra and quagga mussels are invasive mollusks that impact both the 
natural environment and human infrastructure. The mussels impact native 
species through competition and biofouling, the undesirable 
accumulation of microorganisms in very high numbers. The mussels impact 
civic operations and development by clogging pipes in municipal and 
industrial raw-water systems and blocking water intakes for 
hydroelectric development and other industry. Both mussel species are 
easily spread unintentionally by recreational boaters and annually 
cause an estimated $30 million in damage to water delivery systems in 
the Great Lakes. In early 2007, quagga mussels were discovered in the 
Lake Mead National Recreation Area. They have since been found in 
Arizona, California, Nevada, and all 242 miles of the Colorado River 
Aqueduct. In January 2008, the first populations of zebra mussels were 
found in the San Justo Reservoir in California and Lake Pueblo in 
Colorado.
    Invasive species are also one of the most significant threats to 
the National Wildlife Refuge System (NWRS), where they can destroy 
habitat, displace wildlife, and significantly alter ecosystems on 
refuges. Presently, about 2.4 million acres of National Wildlife Refuge 
(Refuge) lands are infested with invasive plants. There are at least 
4,471 invasive animal populations recorded on Refuge lands. Although 
the NWRS is committed to controlling and eradicating these invaders, 
the Service has only been able to treat an average of 14 percent of the 
acres infested with invasive plants on an annual basis between Fiscal 
Years 2004 and 2007.
    In Florida, the old world climbing fern, Lygodium, represents a 
greater threat than any other exotic plant to south Florida's natural 
areas, including the Everglades. If left unmanaged, it is predicted to 
overtake the five currently most invasive plants (melaleuca, Brazilian 
pepper, Australian pine, hydrilla, and water hyacinth) in combined 
coverage in south Florida by 2014. At the Arthur R. Marshall 
Loxahatchee National Wildlife Refuge, Lygodium currently infests over 
70 percent of the refuge and occurs in varying densities within all 
habitat types found on the refuge. Especially vulnerable are tree 
islands, a unique and extremely rare habitat of the greater Everglades 
system which provides important refugia for nesting wading birds and 
terrestrial wildlife.
Meeting the Challenge of Invasive Species
    The Service has a broad array of programs that substantially 
supports the management and prevention of invasive species.
    The Nonindigenous Aquatic Nuisance Prevention and Control Act of 
1990 (NANPCA), reauthorized by the National Invasive Species Act of 
1996, established the Service's Aquatic Invasive Species (AIS) Program 
as well as the ANS Task Force, an interagency Federal Advisory 
Committee Act (FACA) group with 10 federal and 12 Ex-officio members, 
which is co-chaired by the Service and the National Oceanic and 
Atmospheric Administration (NOAA). The ANS Task Force encourages 
Federal and State agencies to establish partnerships that will augment 
work with partners to enhance our collective efforts to address aquatic 
nuisance species issues. The ANS Task Force relies on the expertise of 
its six Regional Panels to identify regional ANS priorities; coordinate 
ANS program activities in each region; make recommendations to the ANS 
Task Force; and provide advice to public and private interests 
concerning appropriate methods of ANS prevention and control.
    The Service's AIS Program was established to help coordinate 
prevention, control, and management action on invasive species that 
span geographic and jurisdictional boundaries. This program supports an 
AIS Coordinator in each of the Service's eight regions who work closely 
with Service field stations, state invasive species coordinators, 
nongovernmental groups, private landowners and many others in their 
day-to-day activities. This dedicated network also organizes 
cooperative surveillance efforts with other Federal, State, and local 
agencies, universities, and public interest groups to track the 
distribution of aquatic invasive species, and conducts a variety of 
outreach activities to inform the public about the definition, biology, 
and impacts of aquatic invasive species and what they can do to help 
prevent their spread. These Regional Coordinators are in tune with both 
the national priorities of the ANS Task Force and the various emerging 
regional priorities. This unique position allows the coordinators to 
play a critical role in bridging the gap between national and regional 
aquatic invasive species issues and translating the national priorities 
of the ANS Task Force into on-the-ground projects.
    The Service's AIS program also administers the Service's only 
regulatory tool regarding invasive species, the injurious wildlife 
provisions of the Lacey Act. Under Title 18 of the Lacey Act, the 
Secretary of the Interior is authorized to prohibit the importation and 
interstate transportation of species designated as injurious. Species 
listed as injurious may not be imported or transported across State 
boundaries by any means without a permit issued by the Service. Permits 
may be granted for zoological, educational, medical, or scientific 
purposes. Regulation of intrastate transport or possession is the 
responsibility of each State, except for those species covered under a 
Service permit issued by our Division of Management Authority.
    The Office of Law Enforcement's (OLE) wildlife inspection program 
forms the nation's frontline defense at ports of entry by interdicting 
injurious species. Wildlife inspectors are stationed at 38 major U.S. 
airports, ocean ports, and border crossings, where they monitor imports 
and exports to ensure compliance with U.S. laws and regulations. 
Wildlife inspectors focus on detecting and deterring illegal trade in 
protected species and preventing the introduction of injurious 
wildlife.
    As part of OLE's efforts to prevent such introductions of injurious 
wildlife, Service special agents investigate illegal interstate 
commerce of injurious species (including internet sales) and assist 
State counterparts with the enforcement of both Federal injurious 
species prohibitions and State laws that ban the introduction, 
possession, and sale of State-listed injurious wildlife.
    The Service is also using partnerships to minimize new 
introductions and prevent the spread of invasive species. The long-
standing partnerships formed under the 100th Meridian Initiative seek 
to prevent or slow the spread of invasive species transported through 
recreational vehicles, particularly zebra and quagga mussels. Now that 
quagga mussels have become established in the lower Colorado River, the 
need for coordinated prevention efforts is even greater in order to 
keep these invasive species out of the Rio Grande, Columbia, and other 
western river systems.
    Since 1956, the governments of the United States and Canada, 
working jointly through the Great Lakes Fishery Commission, have 
implemented a successful sea lamprey control program on the Great 
Lakes. The Service's Fisheries Program has two Sea Lamprey Management 
Offices located in Marquette and Ludington, Michigan. Jointly funded by 
the Service and the Great Lakes Fishery Commission, these offices 
employ approximately 110 staff to implement an integrated sea lamprey 
control program within United States portion of the Great Lakes. Sea 
lamprey abundance has been reduced by 90 percent as a result of the 
integrated control program. Congress appropriates more than $10.0 
million annually through the State Department for sea lamprey 
management and research.
    For the past 10 years, the Service's Fisheries Program has worked 
extensively to prevent the introduction and spread of Asian carp. We 
have supported a feasibility study on barrier options to prevent the 
introduction of these large fish into the Great Lakes; led the Asian 
Carp Working Group of the ANS Task Force which completed the National 
Management Plan for Asian carps; assisted in creating a Rapid Response 
Plan for Asian carp in New York canals; funded research on the use of 
pheromones as a deterrent to carp spread and research on native fish 
alternatives to the use of black carp in aquaculture; and conducted 
monitoring for early detection and rapid response. Black, silver and 
largescale silver carp were listed as injurious wildlife under the 
Lacey Act in 2007. Additionally, the evaluative injurious wildlife 
process for bighead carp is currently underway.
    The Service also assists in coordinating prevention and control 
efforts for brown tree snakes in Guam and Hawaii and contributes to 
preventing their introduction into the continental United States 
through the North American Brown Tree Snake Control Team. Actions that 
are being implemented include: intercept snakes using canine detection; 
hand capture of snakes; trapping; fumigate cargo containers; use of 
barriers, including chemical repellents, to exclude snakes from 
critical areas, reduce movements between habitat patches, and contain 
snakes if they are introduced to new areas; inhibit reproduction; 
monitor snake populations and dispersal events to provide guidance to 
other control efforts; and produce and disseminate public educational 
materials.
    The Service's Partners for Fish and Wildlife Program provides 
technical and financial assistance to private landowners and Tribes to 
restore and protect habitat, including invasive species management and 
the reintroduction of native plants. In 2007, the Partners for Fish and 
Wildlife Program was a cooperator in 438 habitat improvement projects 
that involved control of invasive species on approximately 80,000 
acres. The Rowe Riverine Restoration Project, located along the central 
Platte River in Nebraska, is restoring a section of the river that is 
critical habitat for whooping cranes and one of the few remaining 
successful piping plover nest locations in the State. The project will 
enable the removal of invasive phragmites and Russian olive, two 
invasive plant species, from 26 acres of floodplain habitat; restoring 
5,300 linear feet of wetland sloughs and backwaters by removing 
sediment deposits and invasive aquatic plant species; and re-seeding 80 
acres of restored floodplain to a high diversity mixture of over 100 
species of native grasses and forbs.
    The Service's Coastal Program assists communities in conserving 
coastal resources and forms partnerships to conduct on-the-ground 
restoration, including invasive species control activities in coastal 
areas. In 2007, the Coastal Program cooperated in 78 habitat 
improvement projects that involved control of invasive species on 
approximately 12,000 acres of coastal habitat.
    The NWRS invasive species program focuses on early detection and 
rapid response by engaging Friends groups and volunteers in the fight 
against invasive species. Over a period of three years, 2,750 
volunteers contributed more than 49,000 hours to the treatment, 
inventory, and restoration of over 211,000 acres of refuge land through 
its invasives and volunteers competitive grants program. Additionally, 
five Invasive Species Strike Teams are working to control and manage 
invasive species in key geographic locations, including the Everglades, 
the Lower Colorado River, the Columbia-Yellowstone-Missouri River 
basins, North Dakota, and the Hawaiian and Pacific Islands.
    The Migratory Bird Program has as its mission the conservation of 
migratory birds and their habitats. Invasive species adversely affect 
bird populations directly via competition or predation and indirectly 
by degrading habitat. Seabirds, typically evolved to nest on isolated 
islands and headlands, are particularly vulnerable to invasive species. 
Research has shown that removal of invasive species, particularly 
exotic predators, can affect an immediate increase in seabird colony 
productivity. Thus, developing and implementing projects to control or 
eradicate nonnative species from the fragile island ecosystems used by 
breeding seabirds is a priority. The Migratory Bird Program also 
partnered with other organizations to remove depredating nonnative 
invasive species, such as rats, from seabird nesting islands.
    The Service is also utilizing an innovative management tool known 
as Hazard Analysis and Critical Control Points (HACCP). HACCP is a 
step-by-step approach used to identify risks and prevent biological 
contamination or the unintended spread of nonnative species, similar to 
the way quality control procedures prevent contamination in food 
production. The Service has been implementing HACCP plans at our 
National Fish Hatcheries and providing technical assistance to the 
aquaculture industry and others in the development of HACCP plans.
    Education and outreach efforts continue to be critical elements to 
the success of invasive species prevention and control. The Service and 
the ANS Task Force have been working for many years on educational 
outreach programs aimed at preventing additional introductions and 
controlling the spread of invasive species. The Stop Aquatic 
Hitchhikers! Public Awareness Campaign targets aquatic recreation users 
and promotes voluntary guidelines to ensure that aquatic nuisance 
species are not unintentionally spread through recreational activities. 
Currently 670 formal campaign partners are promoting the prevention 
message through Stop Aquatic Hitchhikers!.
    To promote prevention of introductions through other high-risk 
pathways, the Service, the Pet Industry Joint Advisory Council (PIJAC), 
and NOAA Sea Grant created the Habitattitude<SUP>TM</SUP> Initiative. 
This campaign encourages aquarium hobbyists and water gardeners to be 
responsible caretakers of their plants and pets as well as to be good 
environmental stewards. The Service, the pet industry, and other 
partners are using Habitattitude<SUP>TM</SUP> to protect native species 
and their habitats by ensuring that pets are well cared for or that 
hobbyists find alternatives to releasing unwanted plants and pets into 
the environment, thereby preventing the introduction of potentially 
invasive species. The Service is working with PIJAC to expand the 
Habitattitude<SUP>TM</SUP> Initiative to include reptiles and 
amphibians.
Need for a New Approach
    As the old proverb goes, ``an ounce of prevention is worth a pound 
of cure.'' The proverb resonates particularly well when addressing 
invasive species. Preventing new introductions is the primary focus of 
the Service and is the most effective strategy to protect our Nation's 
wildlife and habitats.
    The Service primarily focuses on preventing the introduction or 
spread of invasive species because we have limited tools for long-term 
management and control of invasive species, particularly aquatic 
invasive species, once they become established. Long-term control is 
costly, and established populations may spread to new areas, thus 
increasing the costs. Even though there is progress in the development 
of management and control tools, we need to continue to work with our 
partners to improve current tools while developing new ones.
    Injurious wildlife evaluations under the Lacey Act require a 
significant amount of time to process. The time period to complete an 
evaluation depends upon the availability of biological and economic 
data and the complexity of the analyses required to comply with the 
Lacey Act as well as analyses that are required under the National 
Environmental Policy Act, the Small Business Regulatory Enforcement 
Fairness Act, and other applicable regulatory process requirements. For 
many of the species evaluations, biological information must be 
gathered, and often translated into English, before an evaluation can 
be initiated. The Service continues to utilize the injurious wildlife 
provisions to prevent the introduction or further spread of species 
that are harmful to wildlife, wildlife resources, or humans, but it has 
not proven to be a nimble, timely, and cost-effective tool for 
addressing importation and transport of potentially invasive species.
    The Service recognizes the potential value of a new approach for 
managing the risk of importing potentially invasive nonnative wildlife. 
Having the opportunity to evaluate nonnative species that are proposed 
for importation could be an invaluable tool to ensure that we are more 
proactive in preventing the introduction of harmful invasive species.
    The Service supports the intent of H.R. 6311 to develop a risk 
assessment process with scientifically credible procedures that will be 
transparent and efficient so that wildlife importers can obtain timely 
decisions and make investment decisions accordingly. The Service does, 
however, have some concerns with the bill, including concerns related 
to duplication of existing authority, the cost and feasibility of 
implementation, possible overlap with other agencies, and the 
implications for international trade. We would like to work with the 
Subcommittee to address these issues.
Conclusion
    To summarize, the Service greatly appreciates the interest of 
Chairwoman Bordallo, the cosponsors of H.R. 6311, and the Subcommittee 
in combating invasive species. The Service supports the general intent 
of H.R. 6311, to develop a scientifically sound and more proactive 
approach to prevent the continued introduction and establishment of 
harmful nonnative wildlife species into the United States.
    Thank you, Madam Chairwoman, for the opportunity to testify before 
the Subcommittee on this issue, and for your support in preventing harm 
to the Nation's fish and wildlife resources from invasive species. The 
Service, in cooperation with other Federal, State, Tribal, and local 
agencies, and other partners, remains committed to addressing this 
significant threat to our natural resources, and we look forward to 
working with you as we continue our efforts in this regard.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Frazer, for 
highlighting the Service's support of this legislation.
    There are a few people standing in the back, and I always 
like to invite them to come up to the lower dais here. There 
are chairs around the table right in front of me, so if you 
would like to sit to witness this hearing, please do so. It is 
much more comfortable than standing up. Thank you.
    Ms. Williams, it is now a pleasure for me to welcome you 
before the Subcommittee, and you are now recognized to testify 
for five minutes. Thank you.

   STATEMENT OF LORI WILLIAMS, EXECUTIVE DIRECTOR, NATIONAL 
   INVASIVE SPECIES COUNCIL, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Williams. Madam Chairwoman and Members of the 
Subcommittee, thank you for this opportunity to testify on H.R. 
6311, the Nonnative Wildlife Invasion Prevention Act, and to 
address the intentional introduction of nonnative wildlife into 
the United States.
    The National Invasive Species Council, for which I am 
Executive Director, considers this an important ecological, 
economic, and health issue and thanks the Subcommittee for its 
work.
    To coin a phrase and introduce our topic today, you could 
say that there is trouble in paradise. Some of the most 
beautiful resort communities in our nation have been invaded.
    On the resort island of Boca Grande, Florida, the large, 
spiny tailed iguana lizards munch on ornamental plants, invade 
attics in homes, and dine on eggs of threatened and endangered 
turtles. Further south, in the Florida Keys, an all-out effort 
is underway to eradicate the Gambian pouched rat known to be a 
vector of the monkeypox virus that infects humans as well as 
animals.
    We will hear later about the Nile monitor lizard, and we 
have already heard about the Burmese python. I have a good 
picture to share with you later about a python attempting to 
eat an alligator.
    Closer to home, many know the story of the northern 
snakehead fish that was eradicated from Crawford Pond in 
Maryland, only to turn up later in the Potomac. Experts 
theorize that it was likely someone decided to release the 
snakehead rather than have it for dinner.
    You will hear today that these problems created by invasive 
nonnative animals are not limited to one, or even several, 
geographical areas. You will hear stories from the Great Lakes 
to Hawaii and beyond. Media stories increasingly document the 
harm caused by what we at NISC like to call ``charismatic 
megafauna.'' But what is really going on, and what are the 
sources of these invasions, and how can we stop them, more 
importantly?
    An invasive species, under our executive order, is a 
species that is both nonnative or alien to the Nation or region 
and whose introduction causes, or is likely to cause, harm to 
the economy, environment, and, in some cases, animal, plant, or 
human health. Invasive species may be plants, animals, insects, 
or aquatic organisms.
    In recognition of the scope and complexity of this problem, 
Executive Order 13112 was issued establishing the Council to 
provide coordination, planning, and leadership for Federal 
invasive species programs.
    NISC is co-chaired by the Secretaries of the Interior, 
Commerce, and Agriculture and includes an additional 10 
departments and agencies, including the witnesses at this 
table.
    The order also called for the establishment of the Invasive 
Species Advisory Committee. This diverse, nonFederal group of 
experts and stakeholders has provided recommendations to NISC 
and is an invaluable part of our process.
    Invasive species, as you have said, Madam Chairwoman, have 
been introduced in a variety of ways. Many species are 
introduced unintentionally, including the infamous brown tree 
snake. They move as unknown stowaways and hitchhikers when 
people and their products are transported by air, water, and 
over land.
    The executive order calls for a broad and comprehensive 
approach to invasive species. No one tool in our toolbox can 
solve all of these problems. But, first, the order called on 
NISC to prepare a National Invasive Species Management Plan. 
The first version of that plan was completed in 2001. Both the 
order and the plan stress the importance of prevention and 
early detection and rapid response as the most cost-efficient 
and effective strategies to deal with invasive species.
    As many have said, once an invasive species becomes 
established and spreads, eradication may be extremely costly 
and sometimes impossible.
    Risk-based screening is one of the most important tools 
available to curb intentional introductions of invasive 
species. In this regard, Section 5[b] of the order requires the 
first management plan to include a science-based process to 
evaluate risks associated with nonnative species introductions.
    The 2001 plan called for the development of this risk-based 
screening process for intentionally introduced species in a 
series of steps or phases, recognizing the complexity. There 
has been progress working on invasive species screening 
processes. Primarily, this is by the USDA Animal Plant Health 
Inspection Service [APHIS], which has outlined an approach to 
screen for plants for planting or horticultural plants. APHIS 
has extensive legal authority, under the Plant Protection Act, 
which enables this process.
    NISC has made less progress in the area of invasive animals 
and their pathogens. One issue is that agencies lack broad 
authority over the importation of nonnative species unless, as 
you heard from Gary, they are specifically listed under the 
Injurious Wildlife Protection Act.
    The chance of preventing establishment of invasive species 
would be enhanced if nonnative species could be evaluated for 
invasiveness before they are introduced into the United States. 
Such a prevention tool would help to close the barn door before 
the horses are out.
    H.R. 6311 is the first bill NISC is aware of that calls for 
the screening of nonnative wildlife before importation. As Gary 
said, the bill was very recently introduced, and I cannot take 
a specific position, but I would like to very briefly outline 
some of the key elements that NISC has found a risk-based 
screening process needs to include and suggest that H.R. 6311 
is a good starting point on many of these elements:
    [1] One: Defining a clear purpose to prevent the 
introduction of invasive nonnative wildlife species that 
clearly targets those that are the most harmful;
    [2] that the process is based on scientific findings and 
risk analysis;
    [3] that it is flexible so that the implementing agency can 
adjust the process to reflect new information and technologies;
    [4] that it provides emergency authority to temporarily 
restrict a species of concern, which H.R. 6311 does, and that 
it establishes a robust consultation process with stakeholders, 
as we have found is critical.
    Finally, and maybe most challengingly, it provides 
sufficient support for the design and implementation of a fully 
functioning screening process. This is something that I think 
we will need to work on further.
    NISC thanks the Subcommittee for its work on this critical 
issue and stands ready to work with the Subcommittee on this 
important legislative matter. Thank you.
    [The prepared statement of Ms. Williams follows:]

          Statement of Lori C. Williams, Executive Director, 
                   National Invasive Species Council

    Madam Chairwoman and Members of the Subcommittee, thank you for the 
opportunity to testify on H.R. 6311, the Nonnative Wildlife Invasion 
Prevention Act, and to address the intentional introduction of 
nonnative wildlife (both terrestrial and aquatic) into the United 
States (US). The National Invasive Species Council (NISC) considers 
this an important ecological, economic, and health issue.
    To coin a phrase and introduce our topic today, you could say that 
``there is trouble in paradise.'' Some of the most beautiful resort 
communities in our nation have been invaded. On the resort island of 
Boca Grande, Florida, the black spiny-tailed iguanas (weighing up to 10 
pounds) munch on ornamental plants, invade attics and homes, and dine 
on the eggs of threatened and endangered turtles. Further south in the 
Florida Keys an all-out effort is underway to eradicate the Gambian 
pouched rat--known to be a vector of the monkeypox virus that infects 
humans as well as animals. Nile monitor lizards roam the canals of Cape 
Coral, Florida and the Sanibel Island National Wildlife Refuge. These 
aggressive, carnivorous lizards can grow to 7 feet long and are known 
to be wide-ranging. Closer to home many know the story of the Northern 
snakehead fish that was eradicated from Crawford Pond in Maryland, only 
to turn up later in the Potomac. Experts believe it was likely that 
someone decided to release the snakehead rather than have it for 
dinner.
    The problems created by these animals are not limited to one or 
even several geographical areas. The Nutria--a furry, plant-eating 
rodent has become established and spread in Louisiana, Maryland, North 
Carolina and many other states. Hawaii has been invaded by giant 
African snails which are serious plant pests that can be a vector for 
human disease. A number of species of introduced fish (including 
intentionally introduced species) are harming the Great Lakes. Media 
stories increasingly document the harm caused by what we at NISC call 
``charismatic nega-fauna''. But, what is really going on and what are 
the sources of these invasions?
    An invasive species is a species that is both non-native (or alien) 
to a nation or region and whose introduction causes or is likely to 
cause harm to the economy, the environment or (in some cases) animal, 
plant or human heath. Invasive species may be plants, animals, insects, 
aquatic organisms, or pathogens. In recognition of the scope and 
complexity of the problem, Executive Order 13112 (Order) was issued, 
establishing the National Invasive Species Council (NISC) to provide 
coordination, planning and leadership for federal invasive species 
programs. NISC is co-chaired by the Secretaries of the Interior, 
Commerce and Agriculture and includes an additional 10 departments and 
agencies. NISC is directed to adopt a comprehensive approach to the 
invasive species problem and to work with the States and other key 
stakeholders. The Order also called for the establishment of the 
Invasive Species Advisory Committee (ISAC). ISAC is a group of 
nonfederal experts and stakeholders representing diverse viewpoints and 
tasked with making recommendations and providing input to NISC on 
invasive species issues.
    Invasive species have been introduced in a variety of ways. Many 
invasive species are introduced unintentionally--moving as unknown 
stowaways and ``hitchhikers'' when people and their products are 
transported by air, water, or over land. Examples include the imported 
fire ant, the Asian long-horned beetle, and the infamous brown 
treesnake that drove most of Guam's native birds to extinction. Others 
have intentionally been introduced for beneficial purposes, that later 
turn out to be harmful, such as the nutria--introduced in the early 
20th century for the fur trade.
    It is very important to distinguish between nonnative species and 
invasive species. Invasive species are those non-native species that 
are, or are likely, to be harmful. Non-native wildlife (including 
aquatic) is introduced for a variety of purposes including agriculture, 
aquaculture, the pet trade, live food, display animals, and for sport 
hunting and fishing. Many non-native species that have been introduced 
into the U.S. have proven to be beneficial and others cause no known 
harm. For example, most U.S. food crops and domesticated animals are 
non-native as are pheasant and brown trout. The vast majority of non-
native species do not possess the adaptations to establish and 
reproduce meaning that only a small percentage of introduced species 
have proven to be harmful and thus considered invasive.
    The Order calls for a broad and comprehensive approach to dealing 
with invasive species, as no one single approach will solve the 
problem. As mandated by the Order, NISC completed the first National 
Invasive Species Management Plan in 2001 (2001 Plan). Both the Order 
and the Plan stress the importance of prevention and early detection 
and rapid response as the most cost-efficient and effective strategies 
to deal with invasive species. Once an invasive species becomes 
established and spreads, eradication may be very costly and in some 
cases impossible. Prevention is particularly critical in aquatic 
ecosystems where eradication and control options are more limited. 
Early detection and rapid response can be an effective backup where 
prevention fails. However, it is a relatively new concept in many areas 
and may not yet be sufficiently robust to stop the spread of newly 
established species.
    Risk-based screening is one of the most important tools available 
to curb intentional introductions of invasive species. In this regard, 
Section 5(b) of the Order requires that the first Plan include ``...a 
science-based process to evaluate risks associated with (non-native 
species) introductions.'' The 2001 Plan called for the development of a 
risk-based screening process for intentionally introduced species in a 
series of steps or phases, including screening for nonnative land 
animals and nonnative aquatic organisms. It called for separate 
consideration and evaluation of newly introduced species and those 
species currently moving in trade in the US.
    The NISC Prevention Committee--which is jointly hosted by the 
Aquatic Invasive Species Task Force (ANSTF)--has made progress 
regarding the development of a phased screening process. The USDA 
Animal Plant Health Inspection Service (APHIS) has issued a Notice of 
Proposed Rulemaking which outlines an approach to screening plants for 
planting under the authority of the Plant Protection Act, which 
provides APHIS with extensive legal authority to address invasive plant 
pests, including to set import regulations that help keep exotic pests 
and diseases out of the United States. When necessary, APHIS officials 
can also respond swiftly to detections of invasive plant pests that 
threaten U.S. agriculture or, in the case of forest pests, the 
environment.
    NISC has made less progress in the area of invasive animals and 
their pathogens (including aquatic species) that fall outside of the 
traditional agricultural coverage provided by APHIS/Veterinary Services 
within USDA. One issue is that agencies lack broad authority over the 
importation of nonnative species, unless they are specifically listed 
under the Injurious Wildlife Provisions of the Lacey Act. The Lacey Act 
(18 U.S.C. 42) is administered by Interior's U.S. Fish and Wildlife 
Service and prohibits importation into the United States of certain 
categories of animal species determined to be ``injurious to human 
beings, to the interests of agriculture, horticulture, forestry, or to 
wildlife or the wildlife resources of the United States.'' The statute 
does not apply to all animals. Thus far, 17 species and families have 
been listed under the Lacey Act. Assistant Director Gary Frazer will 
provide the Subcommittee with more specific information about these 
issues later in the hearing.
    The chances of preventing establishment of invasive species would 
be enhanced if non-native species could be evaluated for invasiveness 
before they are introduced in the United States. Such a prevention tool 
would help to ``close the barn door before the horses are out'' by 
requiring that the risk of the species be evaluated for potential 
invasiveness before importation is allowed. All of this must be done in 
a timely manner that does not unfairly restrict trade or duplicate 
roles of other agencies. Such screening systems do exist. For example, 
the U.S. screens fruits and vegetables prior to importation in order to 
protect U.S. crops from plant pests.
    Currently, there is limited invasive species coverage under 
international treaties and standards that address trade in nonnative 
wildlife and their pathogens. Several nations, including Australia and 
New Zealand, have systems in place for screening nonnative wildlife. 
Such a screening system must be tailored to a specific nation and its 
legal system in order to be effective. I note that H.R. 6311 calls for 
the screening of nonnative wildlife before importation. Since this bill 
was introduced very recently, I cannot take a position with respect to 
this legislation nor can I comment on the specific details of the bill 
on behalf of the 13 NISC members. I would, however, like to offer some 
of the elements that NISC believes should be included in any risk-based 
screening process. These elements would include, but not be limited to:
    1.  Defining a clear purpose to prevent the introduction of 
invasive nonnative wildlife species that clearly targets harmful non-
native species.
    2.  Establishing a species list in a manner that is cost effective 
and not overly burdensome.
    3.  Establishing a process based on scientific findings and risk 
analysis.
    4.  Providing flexibility so that the implementing agency can 
adjust the process to reflect new information and technologies, as 
appropriate.
    5.  Establishing a mechanism to adjust or change the status of any 
listed species declared either invasive or benign, based on new 
information, but in a manner not overly burdensome to the implementing 
agency or commerce.
    6.  Providing emergency authority to temporarily restrict a species 
of concern while seeking additional supporting data.
    7.  Establishing a consultation process with stakeholders and an 
opportunity for stakeholders to submit data to assist the process.
    8.  Providing sufficient support for the design and implementation 
of a fully functional screening process.
    Obviously, any regulatory authority developed should be consistent 
with both the statute that it implements as well as the 
administration's basic regulatory principles.
    NISC and ISAC and their members have actively pursued a number of 
non-regulatory approaches to the prevention of intentional 
introductions that have the potential to become invasive species. These 
are also critically important and would complement a national screening 
process. Both regulatory and non-regulatory approaches may be needed to 
address the prevention issue. No one approach will be a silver bullet 
and thus a variety of approaches are needed. For example, 
Habitattitud<SUP>TM</SUP> is a fairly recent, but very successful, 
effort to educate pet owners not to release their pets into the wild. 
Later today you will hear from Marshall Meyers of the Pet Industry 
Joint Advisory Council and a former member of ISAC, who is an expert on 
this initiative. Efforts to establish best management practices, 
educate stakeholders and reduce the risk that species will be released 
into the wild where they might become established are all critical 
efforts that we can build on to reduce the spread of invasive animals. 
NISC is also working to develop early detection and rapid response 
systems that would work with state and local programs to back-up 
prevention efforts.
    NISC thanks the Subcommittee for its work on this critical issue, 
and stands ready to work with the Subcommittee to explore the potential 
to add cost-effective tools, including prevention tools, to the tool 
box to address invasive wildlife species that harm our environment, 
economy and health.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Ms. Williams.
    If the staff would please get the illustrations that she 
spoke of, we would look at them while we are up here.
    Thank you. Thank you very much, Ms. Williams, for your 
helpful comments, and now I would like to recognize Dr. Marano. 
I am looking forward to hearing from you, so please begin.

    STATEMENT OF NINA MARANO, D.V.M., M.P.H., BRANCH CHIEF, 
 GEOGRAPHIC MEDICINE AND HEALTH PROMOTION BRANCH, DIVISION OF 
 GLOBAL MIGRATION AND QUARANTINE, CENTERS FOR DISEASE CONTROL 
  AND PREVENTION, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Marano. Good morning, Chairwoman Bordallo, Ranking 
Member Brown, and other distinguished Members of the 
Subcommittee. I am Dr. Nina Marano, Chief of the Geographic 
Medicine and Health Promotion Branch at the Centers for Disease 
Control and Prevention.
    I am pleased to be here today to discuss CDC's activities 
and concerns about public health risks associated with the 
importation and movement of animals.
    Why do we have a global trade in animals? Animals are 
legally imported into the U.S. for multiple reasons. They are 
used for exhibitions at zoos, for scientific, education, 
research, and conservation programs, as food and products, and, 
in the case of companion animals, for tourism and immigration.
    Increasingly, however, animals are being imported for a 
thriving commercial pet trade. In many cases, the animals that 
are imported and traded are nonnative species and/or animals 
not traditionally kept as pets. These animals can represent a 
significant risk to human health.
    In 2003, monkeypox was introduced to the U.S. when a 
shipment of African giant Gambian rats was sold to dealers, one 
of whom housed the rats with prairie dogs intended for the pet 
trade in a U.S. distribution facility. The prairie dogs 
subsequently became ill and transmitted the infection to 50 
people, including prairie dog owners and veterinary staff 
caring for the ill animals.
    In the last several years, the U.S. has also experienced 
outbreaks of West Nile virus, SARs, and highly pathogenic avian 
influenza, all emerging diseases associated with global 
movement of animals and vectors.
    CDC's agency-wide response to SARS involved 865 staff 
members working over a period of 133 days, and, for monkeypox, 
it involved 215 staff members working over a period of 65 days.
    CDC responds to these public health threats through 
surveillance, regulation, science, and education. We currently 
utilize our regulatory responsibility to control the 
importation of nonhuman primates [monkeys], dogs and cats, 
small turtles, African rodents, civets, and birds from certain 
countries.
    Nonhuman primates are imported to the U.S. for vital 
medical research. It is imperative that these animals be 
healthy to prevent diseases, such as tuberculosis, Herpes 
virus, and Ebola virus exposures in people and to ensure that 
quality of the research.
    Our Nonhuman Primate Importer Registration program has 
successfully prevented outbreaks of infectious diseases in 
nonhuman primate research colonies, thus greatly reducing the 
likelihood of human exposures.
    The U.S. monkeypox outbreak illustrates the serious public 
health threat resulting from introduction of nonindigenous 
pathogens from exotic animals and the risks to public health 
associated with keeping wild animals as pets.
    In response to the monkeypox outbreak, CDC and FDA issued a 
joint order prohibiting the importation of African rodents and 
restricting interstate movement of African rodents and prairie 
dogs, thus preventing further human exposures.
    We also partner with industry to educate the public about 
zoonotic disease risks at the point of purchase in pet stores 
and CDC's ``Healthy Pets, Healthy People'' Web site is one of 
the most popular Web sites for pet lovers, physicians, and 
veterinarians seeking to counsel their patients and clients.
    However, we continue to face many challenges. During the 
monkeypox outbreak, CDC investigators could not locate many 
potentially infected animals because no accurate records were 
available to trace their movement. Many shipments of animals 
imported for the pet trade also include different species 
commingled, or kept in close proximity, in confined spaces, 
conditions ideal for disease transmission.
    For most species, there is no screening for the presence of 
diseases infectious to humans prior to shipment and no holding 
or testing is required on their entry into the United States. 
This creates an opportunity for the widespread exposure of 
humans to pathogens these animals could be carrying.
    High mortality rates among some imported animals, such as 
rodents, are common, and U.S. statutes and regulations do not 
require importers to determine whether the animal's death is 
from a pathogen that could adversely affect humans.
    In July 2007, CDC published an advance notice of proposed 
rulemaking to begin the process of revising its animal 
importation regulations, soliciting public comment and feedback 
on the issue of animal importation to determine the need for 
further rulemaking. More than 800 comments to the ANPRM were 
received, and CDC is currently reviewing these comments to 
inform new rulemaking.
    Thus, CDC welcomes the opportunity to participate in the 
development of broader prevention strategies, including risk-
based, proactive approaches, to prevent the importation of 
animals and vectors that pose a public health risk.
    In conclusion, there are a number of serious, yet 
preventable, risks to public health, and we look forward to 
working collaboratively with the U.S. Fish and Wildlife Service 
and other agencies to explore new strategies for their 
prevention.
    Thank you for the opportunity to testify today, and I am 
happy to take any questions.
    [The prepared statement of Dr. Marano follows:]

  Statement of Nina Marano, D.V.M., M.P.H., Branch Chief, Geographic 
Medicine and Health Promotion Branch, Division of Global Migration and 
Quarantine, Centers for Disease Control and Prevention, U.S. Department 
                      of Health and Human Services

Introduction
    Good morning Chairwoman Bordallo, Ranking Member Brown, and other 
Distinguished Members of the Subcommittee. I am Dr. Nina Marano, Chief 
of the Geographic Medicine and Health Promotion Branch in the Division 
of Global Migration and Quarantine at the Centers for Disease Control 
and Prevention (CDC), Department of Health and Human Services (HHS). I 
am pleased to be here today to talk to you about HHS/CDC's public 
health activities related to the importation and movement of animals.
    Under Section 361 of the Public Health Service Act (42 U.S.C. 264), 
HHS/CDC oversees regulations to prevent the introduction, transmission, 
and spread of communicable diseases from foreign countries into the 
United States. As part of these responsibilities, HHS/CDC currently 
regulates the importation of certain animals with known linkages to 
zoonotic diseases and also regulates the importation of etiologic 
agents, hosts, and vectors <SUP>1</SUP> known to cause or contribute to 
the spread of zoonotic diseases. Zoonotic diseases, or zoonoses, are 
diseases that are transmissible from animals to people. In addition to 
well known zoonotic diseases such as rabies, many other known and 
emerging diseases have been increasingly linked to animal sources.
---------------------------------------------------------------------------
    \1\ Etiologic agents are micro-organisms that cause disease. Hosts 
are defined as an animal or plant that harbors or nourishes another 
organism (parasite). A vector is carrier that transfers an infective 
agent from one host to another.
---------------------------------------------------------------------------
    Today, I would like to 1) describe why HHS/CDC regulates specific 
animal importation and movement; 2) provide examples of recent zoonotic 
threats to public health; 3) share HHS/CDC's concerns with potential 
transmission of disease to humans from other animal species; and 4) 
describe HHS/CDC's recent regulatory activities in this area. These 
issues illustrate why CDC welcomes the opportunity to work with other 
agencies to explore broader prevention strategies to reduce the risk of 
infectious diseases to humans from animals and vectors.
    CDC works closely with other federal partners, including: USDA/
APHIS in the intersection of human health, animal health and animal 
welfare; HHS/FDA in the interstate movement of animal species that 
represent a risk to public health; and DHS/CBP along with DofI/FWS 
which serve as the eyes and ears for CDC at U.S. ports of entry in 
detecting transported animals and animal products that represent a 
human public health threat.
Why HHS/CDC Regulates Animal Importation and Movement
    HHS/CDC currently regulates the importation of nonhuman primates 
(monkeys), dogs and cats, small turtles, African rodents, civets, and 
birds from certain countries to prevent the entry of zoonotic diseases 
into the United States. These animal species have been linked to 
transmission of certain diseases to humans. Nonhuman primates, 
particularly those recently captured in the wild, may have infectious 
agents in their blood or other body tissues that can cause severe or 
fatal disease in humans. Persons working in temporary and long-term 
animal holding facilities and individuals involved in transporting 
animals (e.g., cargo handlers and inspectors) are especially at risk 
for infection. Examples of these serious pathogens include viruses 
(e.g., Ebola virus, hepatitis virus, and herpes B virus), tuberculosis, 
and parasites. Some monkeys imported into the United States have been 
found to be infected with a virus that is in the same family of viruses 
that causes Ebola, a hemorrhagic fever. While Herpes B virus naturally 
infects and causes only mild or no illness in macaque monkeys, the 
infection is usually fatal in humans. Fatal cases of herpes B virus 
disease in humans have been caused by animal bites, scratches, or 
mucous membrane contact with infected materials. Nonhuman primates, 
especially macaques, are highly susceptible to tuberculosis, and most 
are imported from areas of the world with a high prevalence of 
tuberculosis in humans and animals. Nonhuman primates may also be a 
source of yellow fever virus, which may be transmitted to humans by 
mosquitoes that have previously fed on an infected nonhuman primate. 
Transmission of yellow fever to persons working in nonhuman-primate 
research has also occurred.
    Because nonhuman primates imported into the United States from 
foreign countries often have an uncertain health history and may 
potentially carry diseases infectious to humans, quarantine 
requirements were established to reduce this infectious disease risk. 
Since 1975, CDC, through 42 CFR 71.53, has prohibited the importation 
of nonhuman primates except for scientific, educational, or exhibition 
purposes. Under this regulation, importers are required to register 
with CDC and to renew their registration every 2 years. Imported 
nonhuman primates are required to be held in quarantine for a minimum 
of 31 days following U.S. entry. This regulation also requires 
registered importers to maintain records on imported nonhuman primates 
and to immediately report illness suspected of being infectious to 
humans. Imported nonhuman primates and their offspring may not be 
maintained as pets.
    Additional requirements for importers of nonhuman primates were 
developed and implemented in response to specific public health 
threats. In January 1990, CDC published interim guidelines for handling 
nonhuman primates during transit and quarantine in response to 
identification of Ebola virus (Reston strain) in nonhuman primates 
imported from the Philippines. In April 1990, confirmation of 
asymptomatic Ebola virus infection in four caretakers of nonhuman 
primates along with serologic findings suggested that cynomolgus, 
African green, and rhesus monkeys posed a risk for human filovirus 
infection. As a result, CDC placed additional restrictions and permit 
requirements for importers wishing to import these species.
    HHS/CDC restricts the importation of dogs primarily to prevent the 
entry of rabies. Rabies virus causes fatal disease in humans and 
animals, especially dogs. In the United States, widespread mandatory 
vaccination of dogs has eliminated canine strains of rabies, and 
dramatically reduced the number of human cases in this country. 
However, canine strains of rabies remain a serious health threat in 
many other countries, and preventing the entry of infected animals into 
the United States is an important public health priority. HHS/CDC 
requires rabies vaccination for dogs entering the United States. Dogs 
that do not have current vaccination prior to importation must be 
vaccinated and confined for 30 days to enable the animal's immune 
system to respond to the vaccine and build protection against the 
rabies virus.
    Under 42 C.F.R. 71.54, HHS/CDC also regulates the importation of 
etiologic agents, hosts, and vectors to prevent human disease. Under 
this regulation, a person may not import into the United States, nor 
distribute after importation, any etiologic agent or any arthropod 
<SUP>2</SUP> or other animal host or vector of human disease, or any 
exotic living arthropod or other animal capable of being a host or 
vector of human disease unless accompanied by a CDC-issued permit. As 
an example, all live bats require an import permit from CDC or the U.S. 
Department of Interior, Fish and Wildlife Services. Live bats may not 
be imported as pets because they are known to carry a number of 
pathogens including rabies that can be transmitted to people. 
Similarly, any living insect or other arthropod that is known or 
suspected to contain an etiologic agent (infectious to humans) requires 
a CDC import permit; snail species capable of transmitting a human 
pathogen require a permit as well. HHS/CDC also implemented regulations 
regarding importation of small turtles in 1975 after these animals were 
found to frequently transmit salmonella to humans, particularly young 
children.
---------------------------------------------------------------------------
    \2\ Arthropods are a group of animals that includes insects, 
spiders, and crustaceans.
---------------------------------------------------------------------------
Recent Zoonotic Threats
    Today's highly globalized world has given infectious agents ready 
access to new populations and areas. Moreover, the increasing overlap 
between human and animal environments has served to facilitate 
transmission of zoonotic infections. A notable example is the 2003 
outbreak of severe acute respiratory syndrome (SARS), a newly 
recognized human disease that spread worldwide, causing more than 8,000 
cases and 770 deaths. The causative agent, SARS coronavirus, was found 
in civets, a carnivorous mammal sold for food in marketplaces in China. 
HHS/CDC issued an order to ban the importation of civets because of 
concerns that these animals were involved in the transmission of SARS 
to humans. The emergence of SARS is an example of how a previously 
unrecognized zoonotic disease can spread rapidly, with devastating 
consequences. In addition to its tremendous public health impact, the 
disease had profound economic consequences. Worldwide, the economic 
impact of SARS was estimated at $30-$50 billion.
    Another recent zoonotic threat is highly pathogenic avian influenza 
(HPAI) H5N1. Since 2003, HPAI H5N1 has become established as a threat 
to both human and animal health throughout the world. Although bird 
populations in several countries have been affected, cases among humans 
have been less frequent, with no evidence of sustained human-to-human 
transmission. Live birds used for consumption, live birds used as pets, 
and bird products (including eggs) imported into the United States from 
countries with HPAI H5N1 could pose a risk for human or avian 
infection. In 2004, HHS/CDC issued orders to ban the importation of 
birds and bird products from specific countries with HPAI H5N1; these 
orders mirror similar regulatory actions taken by USDA/APHIS to prevent 
the importation of birds with avian influenza H5N1.
    I would like to describe in more detail an outbreak of human 
monkeypox that occurred in the United States in May and June of 2003. 
These cases represented the first outbreak of monkeypox in North 
America and clearly show why HHS/CDC continues to be concerned about 
the importation of wild animals into the United States.
    Monkeypox is a sporadic, zoonotic, viral disease that occurs 
primarily in the rain forest countries in central and western Africa. 
The illness was first noted in a monkey in 1958, but serologic evidence 
of monkeypox infection has been found in other animals in Africa, 
including some species of primates and rodents. African rodents are 
considered to be the most likely natural host of the monkeypox virus. 
In humans, monkeypox is marked by skin rashes that are similar to those 
seen in smallpox; other signs and symptoms include fever, chills and/or 
sweats, headache, backache, swelling of the lymph nodes, sore throat, 
cough, and shortness of breath. A person develops signs and symptoms of 
the illness about 12 days after becoming infected. In Africa, the death 
rate from monkeypox for humans ranges from 1%-10%, although higher 
mortality rates have been seen.
    In 2003, an outbreak of monkeypox in Midwestern United States 
caused nearly 50 probable or confirmed cases of the disease. Public 
health investigations revealed that the patients had become infected 
primarily as a result of contact with pet prairie dogs that had 
contracted monkeypox from imported diseased African rodents. These 
rodents had been included in a shipment of more than 800 small mammals, 
including rodents, imported from Ghana by a Texas animal distributor in 
April 2003. Laboratory testing confirmed the presence of monkeypox 
virus in six rodent species <SUP>3</SUP> from the shipment. Rodents 
from the original shipment were traced to animal distributors in six 
states, including one distributor in Illinois who also sold prairie 
dogs. In early May 2003, this Illinois distributor sold some prairie 
dogs and one rodent from the Ghana shipment to another animal 
distributor in Wisconsin. It was at this time that several of the 
prairie dogs appeared to be ill, and several of the animals died. By 
late May, the first human cases were reported in Wisconsin (including 
the Wisconsin animal distributor). Other human cases were later 
reported in Kansas, Missouri, Illinois, Indiana, and Ohio.
---------------------------------------------------------------------------
    \3\ The six rodent species are: Tree Squirrels, Rope Squirrels, 
Dormice, Gambian Giant Pouched Rats, Brush-tail Porcupine, and Striped 
Mice.
---------------------------------------------------------------------------
    Most patients in the outbreak had direct or close contact with 
prairie dogs. For example, 28 children at an Indiana day care center 
were exposed to two prairie dogs that later became ill and died. Twelve 
of these exposed children reported handling or petting the prairie 
dogs, and seven of these children later became ill with symptoms that 
were consistent with monkeypox infection. In Wisconsin, more than half 
of the human monkeypox cases occurred through occupational exposure to 
infected prairie dogs, with veterinary staff being at greater risk of 
acquiring monkeypox than pet store employees. The human cases in the 
United States included children as young as 3 years old. Nineteen 
people were hospitalized, although some were hospitalized primarily for 
isolation purposes. The initial signs or symptoms seen in some patients 
included skin lesions or fever with drenching sweats and severe chills. 
Two children suffered serious clinical illnesses. One child had severe 
encephalitis that improved during a 14-day hospital stay. Another child 
had pox lesions on many parts of her body, including lesions inside her 
mouth and throat which created difficulty in breathing and swallowing. 
At least five patients (three adults and two children) developed fevers 
and severe rashes, and one adult patient had symptoms for about five 
months.
    In June 2003, HHS/CDC and HHS/FDA issued a joint order <SUP>4</SUP> 
prohibiting, until further notice, the transportation or offering for 
transportation in interstate commerce, or the sale, offering for sale, 
or offering for any other type of commercial or public distribution, 
including release into the environment of prairie dogs and six 
implicated species of African rodents. In addition, HHS/CDC implemented 
an immediate embargo on the importation of all rodents from Africa. 
These emergency orders were superseded in November 2003 when the two 
agencies issued an interim final rule creating two complementary 
regulations restricting the domestic trade of prairie dogs and the six 
implicated rodent species and importation of all rodents of African 
origin. This rule was intended to prevent the further introduction, 
establishment, and spread of the monkeypox virus in the United States.
---------------------------------------------------------------------------
    \4\ HHS/CDC has regulatory responsibility for the importation of 
these animals to the U.S. HHS/FDA has regulatory responsibility over 
the interstate transportation of these animals within the U.S.
---------------------------------------------------------------------------
    The U.S. monkeypox outbreak illustrates the serious public health 
threat resulting from introduction of non-indigenous pathogens from 
exotic species of animals and the risks associated with the exotic 
species interacting with U.S. animals, including pets. keeping wild 
animals as pets. During the monkeypox outbreak, HHS/CDC investigators 
could not locate many potentially infected animals because no accurate 
records were available to trace their movements. The importation of 
these types of animals poses a health risk because most shipments 
involve a high volume of animals, most of which are wild. Many 
shipments also include different species co-mingled or kept in close 
proximity in confined spaces, conditions ideal for disease 
transmission. For most species, there is no screening for the presence 
of diseases infectious to humans prior to shipment, with no holding or 
testing required upon their entry into the United States. This creates 
an opportunity for the widespread exposure of humans to the pathogens 
that these animals could be carrying. High mortality rates among some 
imported animals, such as rodents, are common. Imported animals shipped 
over long distances in uncontrolled environments are more likely to 
suffer ill affects. In addition, current U.S. statutes and regulations 
do not require importers to determine whether the animal's death is 
from a pathogen that could adversely affect humans.
HHS/CDC Concerns about Disease Transmission from Other Animal Species
    Although HHS/CDC already regulates importation of some animal 
species, numerous other species present concerns. HHS/CDC recently 
analyzed data from the U.S. Fish and Wildlife's Law Enforcement 
Management Information System (LEMIS) to assess the impact of the 
African rodent ban on the importation of rodents to the United States. 
The LEMIS database records the entry of wildlife species to the United 
States. HHS/CDC analysis showed that, since 2003, the ban has 
effectively limited legal importation of African rodents. The illegal 
trade of such rodents and other prohibited animals is difficult to 
quantify and difficult to prevent. CDC partners with industry to 
educate the public about zoonotic disease risks at the point of 
purchase in pet stores, and CDC's ``Healthy Pets Healthy People'' 
website is one of the most popular websites for pet lovers, physicians 
and veterinarians seeking to counsel their clients. CDC also 
participates with USDA and FWS to enhance surveillance of animal 
contraband imported from known high-risk origins.
    However, the commercial pet market has found a new niche in rodents 
from other parts of the world, as the number of rodents from Asia, 
Europe, and South America has increased by 223%. Rodents harbor 
Hantaviruses, which have caused more than 100,000 hospitalized cases of 
hemorrhagic fevers in Europe and Asia. Rodents are also associated with 
rickettsial diseases such as Scrub typhus and murine typhus, which 
cause hundreds of thousands of cases annually. Rodents have several 
traits that make them good hosts for zoonotic diseases. They reproduce 
rapidly and, unlike other species of wild mammals, can be found in our 
gardens, storage buildings and our homes.
    HHS/CDC is also concerned about other animals, such as shrews. 
There is some new evidence that Hantaviruses are associated with 
shrews, although it is not clear whether these shrew-associated 
hantaviruses are human pathogens. While humans rarely have contact with 
shrews, this could change if shrews begin to be imported as pets.
    In May 2006, HHS/CDC hosted a public meeting on the subject of 
infectious disease threats associated with the growing importation and 
trade of exotic animals. Stakeholders, including the National 
Association of State Public Health Veterinarians, the Wildlife 
Conservation Society, and the American Veterinary Medical Association, 
submitted a variety of positions and views for the public meeting. Of 
the 22 statements received, 7 indicated a measure of support for 
increased restrictions on the importation and sale of exotic species, 
while 15 expressed support for alternatives to regulatory or legal 
restrictions, or opposition to possible restrictions.
Animal Importation: Current Activities and Future Challenges
    HHS/CDC's current approach to controlling zoonotic disease threats 
has involved issuing emergency orders or rules prohibiting importation 
of implicated animals. These actions are usually taken after an 
outbreak occurs, rather than proactively preventing outbreaks from 
animals well documented in the literature to harbor pathogens that can 
directly or indirectly effect humans, regardless of geography. This 
approach cannot fully prevent the introduction of zoonotic diseases, 
and HHS/CDC would welcome the opportunity to participate in the 
development of broader prevention strategies--in concert with other 
federal agencies--including risk-based, proactive approaches to 
preventing the importation of animals and vectors that pose a public 
health risk.
    In July 2007, HHS/CDC published an Advance Notice of Proposed 
Rulemaking (ANPRM) to begin the process of revising our animal 
importation regulation, soliciting public comment and feedback on the 
issue of animal importation to determine the need for further 
rulemaking. More than 800 comments to the ANPRM were received, and HHS/
CDC is currently reviewing these comments to assist in new rulemaking.
    In conclusion, there are a number of serious yet preventable risks 
to public health, and we welcome the opportunity to work 
collaboratively to explore new strategies for their prevention.
    Thank you for the opportunity to testify today. I am happy to take 
any questions you may have.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Marano, for your 
testimony and thoughtful statement, and, at this time, I would 
like to welcome another of my colleagues, from the State of 
Virginia, Mr. Wittman, who has joined us.
    We are now going to recognize Members for any questions 
that they may have, and I will begin with myself. I have a 
couple of questions for Mr. Frazer.
    Would a risk-assessment process similar to the one in this 
bill be more effective and efficient, and what are the key 
factors in making the system work efficiently?
    Mr. Frazer. We have not thoroughly analyzed the bill, but, 
on our initial reading, it appears to provide us the latitude 
to construct a risk-assessment process that could be more 
timely, more nimble, and provide us the opportunity to address 
the need for evaluating the potential risks of species, more so 
than we have under the current injurious wildlife listing 
process under the Lacey Act.
    So we see this as providing the basic framework for us to 
develop a process that is, in fact, more responsive and for us 
to be able to handle the volume of work in a more nimble 
fashion.
    Ms. Bordallo. Would it be better to structure H.R. 6311 to 
replace the existing injurious wildlife provisions of the Lacey 
Act?
    Mr. Frazer. We would like to work with the Subcommittee on 
that. It does not seem to us to be a wise path, to keep both 
authorities in place, that this would, in fact, serve the 
function of evaluating and preventing the introduction of 
injurious wildlife, and that, if we could build a structure 
here, we would want to have that replaced, the existing 
injurious wildlife provisions so we did not have that standing 
and would still have to carry out those responsibilities.
    We would have to have a transition process, obviously, so 
we did not have any gap in authority, and controls over 
introductions, but that would be something we would like to 
work with you on.
    Ms. Bordallo. Mr. Frazer, is three years a reasonable 
amount of time to develop an initial approved list and 
regulations for a risk-assessment process?
    Mr. Frazer. It is clearly going to be a rigorous schedule. 
We would have to have additional staff and resources to be able 
to manage that. It would have to be through a rulemaking 
process, a lot of public participation and involvement with 
stakeholders, and such, but, on initial read, it is something 
that would be doable if we had the resources to do so. It would 
be an aggressive schedule, certainly.
    Ms. Bordallo. Good. Ms. Williams, when can NISC tell us 
their position on the bill?
    Ms. Williams. The bill has just been introduced, and the 
National Invasive Species Council will work with all of our 
agencies. It is 13 departments and agencies. So we will be 
looking at this bill, working with Gary and all of the 
agencies, and get you a position as quickly as possible.
    Ms. Bordallo. As quickly as possible, good. As you 
mentioned, the 2001 National Invasive Species Management Plan 
emphasizes not only prevention but establishment of a risk-
based screening process. Would H.R. 6311 give the needed 
statutory authority to implement this process?
    Ms. Williams. I believe so.
    Ms. Bordallo. And then I have one question here for Dr. 
Marano. Does the CDC have the authority to regulate species of 
wildlife that are likely, but not demonstrated, vectors for 
zoonotic diseases?
    Dr. Marano. We have the authority, under the CDC Director, 
to be able to prevent the introduction of a person, thing, 
animal, or vector that represents a proximate threat to human 
health. In the past, we have done this in responsive mode when 
it became apparent that rodents were a vector for monkeypox. We 
have to look forward to looking at other species, perhaps of 
rodents, that also represent threats that are coming from other 
parts of the world than Africa. So my answer would be yes.
    Ms. Bordallo. All right. One final question I have for you. 
When the CDC issued its final monkeypox regulation to the 
Federal Register in 2003, it stated: ``We, the CDC, believe 
that the introduction of monkeypox into the United States shows 
that we need to develop measures to prevent or minimize the 
likelihood of other zoonotic disease introductions or 
outbreaks.''
    Would, then, H.R. 6311 help achieve this by including 
consideration of human and animal health in its risk-screening 
process?
    Dr. Marano. I believe that it would, and I think my 
concluding statement, my last paragraph, tried to emphasize 
that this is a very important opportunity for us to be at the 
table with Fish and Wildlife, to be the human health 
consultant, the human health partner. Many of the invasive 
species activities do focus on harmful environmental species. 
So I think this is a remarkable opportunity for CDC to be a 
full member at the table to help give human health input to the 
decisions.
    Ms. Bordallo. Thank you. Thank you very much.
    Now, I would like to recognize the Ranking Member of the 
Subcommittee, Mr. Brown from South Carolina, for any questions 
that he may have.
    Mr. Brown. Thank you, Madam Chair.
    Mr. Frazer, I guess my first question would be to you, and, 
of course, I would encourage other members of the panel to join 
in if they have some input.
    How many species are currently listed on the Fish and 
Wildlife Service's injurious species list under the Lacey Act 
of 1981?
    Mr. Frazer. We have 19 entities that are listed under 
injurious wildlife. Some of the entities comprise many 
different species. We list a whole family or its listed genus, 
so I cannot give you a specific number of species, but 18 
separate entities are listed.
    An example of what I am talking about: fruit bats. We have 
60 different species listed within a particular genus of fruit 
bat that are on that injurious wildlife list.
    Mr. Brown. Do we have any capture method for eradicating 
the species once they are identified as injurious?
    Mr. Frazer. Once an injurious species is established in the 
wild, control is difficult, more difficult for aquatic species 
than terrestrial ones. The ability to control species depends 
upon the individual characteristics of the ecosystem.
    For instance, there are some effective control techniques 
that have been developed for brown tree snakes, but the 
challenges of having 100-percent eradication are very great 
when we are dealing with dense vegetation and tree-dwelling 
species. So the effectiveness is a function of the ecology of 
any individual species ad where they live.
    Mr. Brown. I am sorry. Go ahead.
    Ms. Williams. I just had one more point on that. One of the 
things, as a backup to prevention, that the council has been 
very interested in working with other agencies on is early 
detection and rapid response.
    If you can find these species early enough, or recognize 
that they are a problem early enough, eradication is often 
possible through a variety of methods. But once, as Gary has 
said, they have spread, it becomes very costly, at a minimum, 
if not impossible. But early detection and rapid response is an 
important technique, if prevention has failed, but you have the 
information.
    Mr. Brown. Once we identified them as injurious, I guess, 
do we restrict, then, the import of those species into the 
United States?
    Mr. Frazer. Importation into the U.S., as well as transport 
across state lines, is then prohibited, and that would be one 
aspect, Chairman Bordallo. If there were to be revisions to 
6311 to have it replace the Lacey Act injurious wildlife 
provisions, one of the aspects that we would want to have 
replaced is also to expand the reach, then, to control the 
transport across state lines because that is an important 
element of containment of an invasive species that may be in 
the U.S. already, but we are wanting to contain within the area 
where it is as opposed to spreading elsewhere.
    Mr. Brown. I am not sure where the brown snake came from, 
but did it have a natural predator before it got to Guam?
    Mr. Frazer. It was native to Australia, the southeast 
specific, and I do not know whether it had predators, but when 
it got to Guam, it found a very suitable place to live and 
thrive and an environment in which there is a great variety of 
prey species upon which it could readily grow and feed.
    Mr. Brown. How about the Burmese python? Wherever it is 
coming from, does it have a natural predator there that could 
kind of control the population? How does that work?
    Mr. Frazer. I do not know whether they have any predators 
that control there the spread. I would be happy to get back 
with you on that.
    Mr. Brown. Apparently, they are thriving pretty well down 
in Florida.
    Mr. Frazer. They seem to be finding it a suitable habitat, 
yes.
    Mr. Brown. And to qualify that statement, I do not think it 
was a full-grown alligator because I think that the writer did 
not understand that those alligators can grow to 12 to 14 feet 
long. There are some smaller, but I think you said, Ms. 
Williams, you have a copy of a picture.
    Ms. Williams. I will be e-mailing you a picture, but you 
probably are very familiar with alligators.
    Mr. Brown. I am very familiar with alligators.
    Ms. Williams. OK.
    Mr. Brown. Thank you, Madam Chair.
    Ms. Bordallo. I thank the Ranking Member.
    I just wanted to make a few comments on the brown tree 
snakes for our audience out there. They are nocturnal, and, to 
my knowledge, they are not a poisonous snake. I know that Mr. 
Frazer must have the population on hand, but rather than speak 
about how many we have, because that may ruin our tourism, we 
will just keep that between us, and I want to thank Mr. Brown 
for his questions about the brown tree snake.
    I would like now to recognize my colleague from Virginia, 
Mr. Wittman, for any questions he may have.
    Mr. Wittman. Thank you, Madam Chairman.
    Mr. Frazer, I want to try to parse out, in my mind, how the 
injurious definition may be implemented under this act. You 
know, now, in the Chesapeake Bay, we have a number of nonnative 
introductions, not purposeful, obviously, things like the zebra 
mussel, the rapa whelk, the Chinese mitten crab, the snakehead 
fish.
    There has also been an effort to look at nonnative species 
to replenish our decimated oysters in the bay. As we all know, 
Crassostrea ariakensis is one of the oysters under 
consideration--it has undergone a tremendous amount of study--
in looking at recovering the oyster populations there.
    Can you tell us how this act would affect a situation where 
we are looking at the introduction of a nonnative species, such 
as ariakensis, through study versus those nonintended 
introductions? Can you tell me how this act would distinguish 
between those and, especially, how ``injurious'' would be 
defined?
    Mr. Frazer. The fundamental issue, I think, that you are 
raising is the distinction between a nonnative species and an 
injurious nonnative species. There are many nonnative species 
that are in the U.S. that are used in agriculture, sport 
fisheries, or other reasons that do not rise to the level of 
being injurious or that do not have the potential to be 
invasive. They are able to be managed.
    As we read the bill, again, the focus of this framework 
that it would establish would be on the potential for harm to 
the environment, the economy, or health. So that injurious 
nature, as well as being a nonnative, would be the primary 
factor for determining whether this would be something that 
would be prohibited or restricted in trade.
    Mr. Wittman. Would you anticipate that this act would, in 
any way, prevent the introduction of Crassostrea ariakensis 
into the Chesapeake Bay?
    Mr. Frazer. That would be premature. I do not know the 
nature of that particular species. It would be a function of 
what its risk to the overall ecosystem might be. Clearly, there 
are benefits of having oysters in the Chesapeake Bay. I do not 
know how that particular species would be considered in that 
context. I have not heard of it referred to in the context of 
an injurious species.
    Mr. Wittman. OK. I know there has been a lot of study, and 
I do know that this act does allow for folks to petition that 
that species be considered injurious. I just wanted to 
understand what level the evaluation would have to rise to 
because I know there has been an awful a lot of work put into 
ariakensis in the bay and an awful lot of consideration about 
that particular introduction and especially how it may affect 
the return of the oyster portion of our seafood industry.
    So I want to be clear that there would be nothing in here 
that, obviously, if the science steers us in that direction for 
the introduction of that nonnative species, that there would be 
nothing here that would prevent that. I think that is important 
for our Chesapeake Bay in a variety of different ways, both 
economically, environmentally, again, with the science bearing 
it out, making sure that it does not have, obviously, as you 
said, under the current definition of ``injurious,'' negative 
impacts on the bay. So I just wanted to make sure that that was 
clear.
    I know a lot of people in Virginia are looking at that as a 
way to reestablish that resource there, and I wanted to make 
sure that this did not do anything to impede that.
    Can you tell me, has U.S. Fish and Wildlife Service 
implemented any of the Aquatic Nuisance Species Task Force 
recommendations, things like the Federal permit system for 
first-time imports and expediting the Lacey Act processes?
    Mr. Frazer. We certainly are active in implementing a 
number of the management plans and priorities of the Aquatic 
Nuisance Species Task Force. I am not familiar with the two 
specific issues that you raised, and I would be happy to 
respond to you in writing about those.
    Mr. Wittman. That would be great, if you could do that.
    Ms. Williams, could you maybe comment on that?
    Ms. Williams. You might be referring to the 1994 ANSTF 
report that looked at intentional introductions and made a 
series of recommendations, and those are similar to what we see 
in the management plan. I think they were fairly general in 
nature and looked at expediting the Lacey Act and coming up 
with a screening process that was phased in step by step, and 
that is very similar to what was in the 2001 management plan, 
if I am understanding correctly.
    Mr. Wittman. That is what I am referring to. Have all of 
those been implemented, or are they in the process of being 
implemented? Can you tell us, timeframe-wise, where they are?
    Ms. Williams. I think it would be good to get back to the 
record on that, but, as I said in my testimony, given the 
resources that have been put into the program and some of the 
complications and the lack of legal authority, it has been more 
difficult to make progress on providing for setting up a 
screening process because the way we have interpreted it, the 
authority is really not there under the current law.
    Mr. Wittman. Can you give us an idea? You say that there is 
some lack of resources there. Can you give us an idea about 
what the magnitude of that lack of resources might be, Mr. 
Frazer?
    Mr. Frazer. We clearly have the potential for evaluating a 
large number of potentially injurious species under the current 
Lacey Act authority. Right now, we have six groups that are 
basically in our queue for evaluating. It could be more.
    So we have not ever attempted to define the universe and 
compare our existing resources to the need, nor have we been 
able, with the limited amount of time we have had thus far, 
been able to actually cost out what would be needed to 
effectively staff and manage the risk-assessment process 
envisioned under 6311.
    Mr. Wittman. Thank you. Just to put into context those 
questions, and the reason I asked them, is I am concerned about 
the level of effort. We see, just in the Chesapeake Bay, the 
frightening increase in the number of nonnative species that 
are coming into the bay, and certainly there has been a lot of 
discussion about what we can do, whether it is ballast water, 
those sorts of things.
    If we are really going to get our arms around this today, 
in this world economy with all kinds of potential for these 
nonnative introductions, we really want to understand the 
resources that it will take for us to, at least, either slow 
down or, hopefully, stop those right now.
    I think we all watch our water bodies, and as we have those 
nonnative introductions, they have the capacity to overwhelm 
the existing ecosystem, and I think we are all concerned about 
that when we are fighting right now to try to get the existing 
ecosystems to proliferate.
    So that is just the basis behind my questions, and if you 
all could get that information to me, I would be very 
interested in it.
    Ms. Bordallo. I would like to thank the gentleman from 
Virginia, Mr. Wittman, and to also thank the panelists for 
being with us this morning, and, at this time, I would like to 
recognize the second panel of witnesses. I would also like to 
ask those standing in the back to please come forward and take 
the seats in the lower dais here.
    [Pause.]
    Ms. Bordallo. The Chair would like to announce that there 
will be three votes, starting between eleven-thirty and eleven-
forty-five, so if we stay within the five-minute limit, I think 
we can hear all of our panelists present their testimony.
    I would like to recognize those on the second panel. 
Domingo Cravalho, Jr., the Inspection and Compliance Section 
Chief, Plant Quarantine Branch, Hawaii Department of 
Agriculture, aloha----
    Mr. Cravalho. Aloha.
    Ms. Bordallo.--Marc Gaden, Legislative Liaison, Great Lakes 
Fishery Commission; Mr. George Horne, Deputy Executive 
Director, Operations and Maintenance Resources, South Florida 
Water Management District; Marshall Meyers, Executive Vice 
President and General Counsel, Pet Industry Joint Advisory 
Council; and Mr. Lawrence M. Riley, Division Coordinator, 
Wildlife Management Division, Arizona Game and Fish Department.
    Again, I would just remind you about the five-minute time 
schedule that we have here, and your full testimony will be 
entered into the official record.
    I now recognize Mr. Cravalho to testify for five minutes. I 
thank you for traveling all the way from the State of Hawaii. 
Please begin.

 STATEMENT OF DOMINGO CRAVALHO, JR., INSPECTION AND COMPLIANCE 
 SECTION CHIEF, PLANT QUARANTINE BRANCH, HAWAII DEPARTMENT OF 
                          AGRICULTURE

    Mr. Cravalho. Aloha kako, Chairperson Bordallo, Members of 
the Committee. My name is Domingo Cravalho, and I represent the 
Hawaii Department of Agriculture today. Thank you for the 
opportunity to provide testimony on H.R. 6311, the Nonnative 
Wildlife Invasion Prevention Act.
    The Hawaii Department of Agriculture strongly supports this 
bill. The impact of the high rate of nonnative introductions 
has already been felt in the State of Hawaii. Of all of the 
birds and plants known to have gone extinct in the United 
States, over 72 percent are from Hawaii, yet there is much more 
to be lost. The native plants and animals of Hawaii are among 
the most endangered in the world.
    Stopping the influx of new, detrimental, nonnative species 
and containing their spread is essential to Hawaii's, and the 
nation's, future well-being. The present problem is severe, and 
the future is uncertain. Only legislation such as this measure 
will begin to address the continued loss of our nations natural 
resources.
    Hawaii state laws and regulations governing the entry of 
plant and animal species are intended to protect our 
agriculture, our environment, including native biota, and 
public health. As the ``first line of defense,'' approximately 
five to six million dollars in state money is spent on 
prevention efforts in Hawaii. For over 50 years, our department 
has had in place a risk-based system, such as the one 
envisioned in this bill, to allow safe introductions to 
continue and to prevent detrimental introductions from entering 
the state.
    As authorized by Hawaii Revised Statutes, Chapter 150A, the 
Board of Agriculture maintains the following three lists of 
animals.
    First, there is a list of conditionally approved animals 
that require a permit for import into the state, and these 
species are normally used for resale efforts for the pet trade, 
for seafood for consumption, and for animals that can be used 
for propagation.
    The second list is a list of restricted animals that 
require a permit for both import into the state and possession. 
The restricted list is further divided into a restricted list, 
Part A, which allows for research by universities and 
government agencies, for exhibition in municipal zoos and 
government-affiliated aquariums, as well as for medical and 
scientific research, as determined by the Board. Part B of the 
restricted list is allowed for commercial and private use, 
including research, zoological parks, and aquaculture 
production.
    The last list is a list of prohibited animals that are 
prohibited entry into the state.
    As you and I well know, these three lists would not be able 
to contain every list of animals currently in the world. As 
such, anything that is not on any of these lists are concerned 
prohibited until such time as it is reviewed and considered for 
future placement on one of these lists.
    Throughout the listing process that we currently employ, it 
is an open and transparent listing process. There is 
established an Advisory Committee on Plants and Animals that is 
comprised of representatives from the following: the Department 
of Agriculture, the Department of Land and Natural Resources, 
members from the Department of Health, and Office of 
Environmental Control, as well as five other members with 
expertise in plants, animals, or microorganisms who are versed 
with modern ecological principles and the protection of natural 
resources.
    The State of Hawaii's importation process provides a 
manageable, risk-based system for the import of nondomestic 
animals into the state. It is science based, with the various 
advisory committees' review and recommendations to the Board of 
Agriculture, as well as the public hearing process that informs 
the general public of the import process that protects Hawaii 
from invasive species.
    Much has been written about the tragic loss of Hawaiian 
biota, which is unequaled in any other region of the United 
States. While nothing can be done about the 70 percent of 
endemic species that have already gone extinct, measures such 
as H.R. 6311 can bolster hope that we can protect those 
remaining.
    As such, prevention of new, nonnative wildlife 
introductions and management of existing invasions require 
immediate attention. The establishment of a manageable, risk-
based system and the establishment of allowable and prohibited 
lists of animals and for the import of nonnative wildlife and 
improved integration of Federal and state policies and programs 
would provide long-term protection of our natural resources 
that would benefit both the Nation and our individual states.
    Thank you for the opportunity to testify on this important 
measure.
    [The prepared statement of Mr. Cravalho follows:]

     Statement of Domingo Cravalho, Jr., Inspection and Compliance 
            Section Chief, Hawaii Department of Agriculture

    Chairperson Bordallo and Members of the Subcommittee:
    Thank you for the opportunity to provide testimony on H.R. 6311.
    The purpose of this bill is to prevent the introduction and 
establishment of non-native wildlife species that negatively impact the 
economy, environment, or human or animal species' health. The Hawaii 
Department of Agriculture strongly supports this bill.
    The impact of the high rate of non-native introductions has already 
been felt in the State of Hawaii. Of all the birds and plants known to 
have gone extinct in the United States, over 72% are from Hawaii. Yet, 
there is much more to be lost. The native plants and animals of Hawaii 
are among the most endangered in the world. Hawaii has 282 listed 
threatened and endangered species including 150 species with fewer than 
50 living. And of these, 11 species have fewer than 5 left on earth.
    Stopping the influx of new detrimental non-native species and 
containing their spread is essential to Hawaii's and the Nation's 
future well-being. The present problem is severe and the future is 
uncertain. Only legislation, such as this measure, will begin to 
address the continued loss of our Nation's natural resources.
    State laws and regulations governing the entry of new plant and 
animal species are intended to protect agriculture, environment, 
including native biota, and public health. As the ``first line of 
defense,'' approximately $5-6 million in state money is spent on 
prevention efforts. For over fifty years, our Department has had in 
place a risk-based system, such as the one envisioned in this bill, to 
allow safe introductions to continue and to prevent detrimental 
introductions from entering the State.
    Chapter 150A, Hawaii Revised Statutes (HRS), short titled as the 
``Hawaii Plant Quarantine Law'' provides the authorities for the Hawaii 
Department of Agriculture to regulate the importation of plants, non-
domestic animals and microorganisms that are allowed entry into the 
State of Hawaii. For the purposes of the Non-Native Wildlife Invasion 
Prevention Act (H.R. 6311), this discussion will cover only the 
authorities that govern non-domestic animals. The term, ``animal'' as 
used under section 150A-2, HRS, is defined as follows:
        ``Animal'' means any invertebrate and vertebrate species of the 
        animal kingdom including but not limited to mammal, bird, fish, 
        reptile, mollusk, crustacean, insect, mite, and nematode, other 
        than common domestic animal such as dog and cat.
    As provided for under section 150A-6.2, HRS, the Board of 
Agriculture (Board) pursuant to rules maintains one of the following 
three lists of animals:
    <bullet>  A list of conditionally approved animals that require a 
permit for import into the State;
    <bullet>  A list of restricted animals that require a permit for 
both import into the State and possession; and
    <bullet>  A list of prohibited animals that are prohibited entry 
into the State.
    Any animal that is not on any of these lists is considered 
prohibited until the Board reviews and determines the future placement 
of the unlisted animal on any of these lists maintained by the Board. 
However, there are provisions that allow the importation and possession 
of unlisted species for the following:
    <bullet>  A special permit on a case-by-case basis for unlisted 
animals may be allowed for importation and possession for the purposes 
of remediating medical emergencies or agricultural or ecological 
disasters, or conducting medical or scientific research in a manner 
that the animal will not be detrimental to agriculture, the 
environment, or humans; and
    <bullet>  A short-term special permit on a case-by-case basis not 
to exceed 90 days may be allowed for the importation and possession of 
an unlisted animal for the purpose of filming, performance, or 
exhibition.
The above-mentioned special permits are contingent upon the importer 
being able to meet certain permit and/or bonding requirements as 
determined by the Board.
    Section 150A-6.5, HRS, provides for exceptions in regards to 
prohibited animals in that no person shall possess, propagate, sell, 
transfer, or harbor any animal included on the list of prohibited 
animals that is maintained by the Board, except for as follows:
    <bullet>  The animal was initially permitted entry and later 
prohibited entry into the State; or
    <bullet>  The animal was continually prohibited but unlawfully 
introduced and is currently established in the State; and
    <bullet>  The animal is not significantly harmful to agriculture, 
horticulture, or animal or public health, and the environment.
However, the Board may permit possession of an individual animal under 
the circumstances described with the registration of the animal with 
the department while still prohibiting the species from importation, 
propagation, transfer, and sale.
    Section 150A-10, HRS, provides for the establishment of an advisory 
committee on plants and animals that is comprised of representatives 
from the following:
    <bullet>  Department of Agriculture
    <bullet>  Department of Land and Natural Resources
    <bullet>  Office of Environmental Control
    <bullet>  Department of Health
    <bullet>  Five other members with expertise in plants, animals or 
microorganisms who are versed with modern ecological principles and the 
protection of natural resources
    The committee's purpose is to assist and advise the Board in 
developing or revising laws and regulations to carry out the purposes 
of this chapter and to advise in problems relating to the introduction, 
confinement, or release of animals. In addition, this particular 
section authorizes the Chairperson of the Board to create ad hoc or 
permanent advisory subcommittees, as needed.
    Pursuant to the rulemaking requirements under State law, Chapter 4-
71, Hawaii Administrative Rules (HAR) aptly named ``Non-Domestic 
Animals Import Rules'', provides for implementing the requirements of 
Chapter 150A, HRS, by restricting or prohibiting the import of certain 
non-domestic animals that are detrimental to the agricultural, 
horticultural, and aquacultural industries, natural resources and 
environment of the State of Hawaii. Animal species that are found on 
the List of Prohibited Animals under section 4-71-6, HAR, are not 
permitted entry into the State. As such, no person shall introduce into 
Hawaii any animal from the prohibited animal list.
    As provided for under section 4-71-6.5, HAR, the importation into 
Hawaii of allowable species shall be by permit for those animals that 
are found on the List of Conditionally Approved Animals or the List of 
Restricted Animals. Animals found on the conditionally approved list 
are allowed for individual possession, businesses, or institutions, and 
may be re-sold, propagated, or transported in the State; however, 
liberation is strictly prohibited.
    Animals on the restricted lists are further divided into a Part A 
and Part B section. The List of Restricted Animals (Part A) are for 
species that are allowed for both import into the State and possession 
for research by universities or government agencies, exhibition in 
municipal zoos or government-affiliated aquariums, for other 
institutions for medical or scientific purposes as determined by the 
Board. Animals on the List of Restricted Animals (Part B) are for 
species that are allowed for both import into the State and possession 
for private and commercial use, including research, zoological parks, 
or aquaculture production. There are also added provisions that animals 
in the order Primates shall not be allowed for import or possession for 
private or commercial use other than for purposes described in Part A 
or for primate sanctuaries, as determined by the Board.
    Since the various lists found under chapter 4-71, HAR, do not 
include all species that are known to exist, unlisted species are 
considered prohibited until the Board's review and future placement on 
one of the allowable lists. To list an animal, a permit application 
must be submitted to the Board and must include the following:
    <bullet>  Name and address of shipper and importer
    <bullet>  Approximate number and kind (common and scientific name) 
of animal
    <bullet>  Purpose or object of importation
    <bullet>  Safeguard facilities location and description
    <bullet>  Method of disposition
    <bullet>  Abstract of the animal, including biology and ecology 
requirements
    The application will go through a three-tiered review process. An 
advisory subcommittee of technical consultants will review the 
information that is provided by the applicant and provide a 
recommendation and comments on the request. The information will be 
compiled by the department and then reviewed by the Advisory Committee 
on Plants and Animals, who will meet at a noticed public meeting where 
public comment and testimony are welcomed. The Advisory Committee will 
then make a recommendation for approval or disapproval on the request 
and the matter would be forwarded to the Board for review and 
determination. The Board's action to preliminarily review the species 
for future placement on a list has no legal effect and this procedure 
is solely for administrative ease in preparation for amendments to the 
various lists. At some future date, the proposed amendments will be 
brought to the Board for preliminary approval to go to public hearings. 
A species is listed in the rules only after following chapter 91, HRS, 
rulemaking procedures, which entail the public hearing process, board 
adoption, and governor's approval. Once a species is listed, the Board 
will then establish conditions for entry into the State upon 
application for an import permit.
    The State of Hawaii's importation process provides a manageable 
risk-based system for the import of non-domestic animals into the 
State, which is science-based with the various advisory committees' 
review and recommendations to the Board as well as the public hearing 
process that informs the general public of the import process that 
protects Hawaii from invasive species.
    Much has been written about the tragic loss of Hawaiian biota, 
which is unequaled in any other region of the United States. While 
nothing can be done about the 70% of the endemic land birds and land 
snail species that have already gone extinct, measures such as H.R. 
6311 can bolster hope that we can protect those remaining. Hawaii is 
home to one-third of the Nation's federally listed endangered species. 
As such, prevention of new non-native wildlife introductions and 
management of existing invasions require immediate attention.
    The establishment of a manageable risk-based system for the import 
of non-native wildlife and improved integration of Federal and State 
policies and programs would provide long-term protection of our natural 
resources that would benefit both the Nation and the States.
    Thank you for the opportunity to testify on this important measure.
                                 ______
                                 
    Ms. Bordallo. Mahalo, Mr. Cravalho, for your insights on 
this legislation from your Hawaii perspective.
    Now, I would like to recognize Dr. Gaden. Welcome, and you 
may proceed with your statement.

  STATEMENT OF MARC GADEN, Ph.D., LEGISLATIVE LIAISON, GREAT 
                    LAKES FISHERY COMMISSION

    Mr. Gaden. Thank you very much, Madam Chair, and I 
appreciate the opportunity to testify before this Subcommittee. 
I am Marc Gaden. I am the legislative liaison for the Great 
Lakes Fishery Commission, and I am also an adjunct assistant 
professor at Michigan State University.
    The Great Lakes Fishery Commission is an organization set 
up by treaty between the United States and Canada. We have the 
responsibility to take measures to improve and perpetuate the 
Great Lakes fishery resources.
    The fishery commission also knows quite well the havoc 
invasive species wreak on ecosystems. The fishery commission is 
responsible for controlling the noxious sea lamprey, which laid 
waste to the fishery after it invaded the Upper Great Lakes in 
the 1920s.
    The Great Lakes are tremendously valuable and worth 
protecting. Annually, the fishery alone is worth more than $7 
billion and has enormous cultural value to the diverse peoples 
who live and fish in the region.
    Invasive species are one of the biggest threats to the 
Great Lakes as more than 180 nonnative species are present. 
Many are destructive, costing the region billions of dollars, 
and, with globalization and vibrant trade, more species have 
more opportunities than ever to invade the waters of the United 
States.
    For example, the U.S. Fish and Wildlife Service reports 
that an average of more than 200 million fish and tens of 
millions of reptiles, amphibians, birds, and mammals are 
imported into the U.S. annually.
    Unfortunately, we have not learned the lessons that 
experience has taught. Ninety years after the sea lamprey 
invasion, more than $300 million have been spent to control 
this one species. Canals, many unused and useless, continue to 
be pathways for invaders. Ship ballasts, which brought the 
notorious zebra mussel 25 years ago and brought many other 
invaders, remains the primary invasive species vector, yet 
ballast legislation has been pending for years.
    Despite high-profile invaders, like snakeheads, the Asian 
swamp eel, Asian carp, which entered through the live trade, a 
meaningful process still does not exist to assess the risks of 
organisms prior to importation.
    These problems illustrate a lack of a comprehensive policy 
to deal with invasive species. Your bill, H.R. 6311, by 
addressing the live trade, fills a major gap in that policy 
void.
    The Great Lakes Fishery Commission supports your 
legislation.
    Species and trade need to be valued because we have no 
evaluation process in place now, so, without review, we are 
just taking chances. Also, it is appropriate to be circumspect 
about handling live species because species have a history of 
escaping and invading, and it is always a good idea to be 
deliberate in our actions.
    Moreover, it is appropriate to be cautious because species 
often surprise us. They take hold in places where we sometimes 
do not expect, and they cause unexpected damage.
    Finally, if we do not take the time to evaluate 
importations, we are putting our native species, species which 
millions of people rely on for income, food, recreation, and a 
healthy environment, at risk, flippantly and permanently.
    This legislation has many strong points, which are outlined 
in my written statement. Let me touch upon four.
    First, the bill calls upon the Secretary of Interior to 
establish a process to evaluate all nonnative wildlife proposed 
for importation into the U.S. before the organisms are 
imported. This keeps out the harmful invaders before they 
spread, at which point it is often too late to do anything 
about the problem.
    Second, the bill establishes solid criteria for the 
secretary to consider in evaluating the organisms, including 
demonstrating that the organism not be harmful. The factors for 
consideration, as presented in Section 3-B, are the factors 
that should be considered, as they relate to scientific 
realities. It is, indeed, correct to evaluate whether the 
species is likely to cause harm, whether it is well-suited to 
ecosystems in the United States, whether it is likely to 
spread, and whether pathogens are likely to accompany the 
importation.
    This is an appropriate list of factors and, when applied, 
should be protective.
    Third, the bill establishes approved and unapproved lists 
for species and says that only organisms on the approved list 
can be imported. This is a much better approach than the 
current system, which essentially says a species is OK unless 
it is on the unapproved list.
    Currently, the problem is, not every species is assessed, 
and the process to list a species as injurious, which is 
through the Lacey Act, is reactive and cumbersome.
    Fourth, the bill establishes a Federal risk-assessment 
process to evaluate importations, yet still acknowledges the 
major role states can, and should, play in protecting the 
waters of the United States.
    This bill is solid and addresses the problem appropriately. 
That said, the fishery commission has a few issues with the 
bill, as written. Those issues are outlined in detail in my 
written statement, and I ask the Subcommittee to consider them.
    Let me conclude with a word about Canada, as meaningful 
invasive species action must occur in both countries. Like the 
current situation in the United States, Canada does not assess 
the risk of all importations. However, legislation is pending 
before the House of Commons that would grant such authority to 
the Federal government. The pending legislation in Canada, 
thus, is in the same spirit as your bill, and it is the 
commission's expectation that the legislation in both countries 
will inspire a coordinated approach. We also hope there will be 
coordination with Mexico.
    Madam Chair, thank you again for inviting me to testify 
before this Subcommittee, and I wish you success in getting 
this legislation passed. Thank you.
    [The prepared statement of Mr. Gaden follows:]

           Statement of Dr. Marc Gaden, Legislative Liaison, 
                     Great Lakes Fishery Commission

INTRODUCTION: THE INVASIVE SPECIES THREAT
    Madam Chair, thank you for inviting me to appear before this 
subcommittee to discuss H.R. 6311, the Non-Native Wildlife Invasion 
Prevention Act. With the introduction of the Non-native Wildlife 
Invasion Prevention Act, we have a real opportunity to take a major 
step toward preventing the introduction and spread of harmful 
organisms.
    My name is Marc Gaden. I am the Legislative Liaison for the Great 
Lakes Fishery Commission. I am also an Adjunct Assistant Professor at 
Michigan State University, Department of Fisheries and Wildlife.
    The Great Lakes are an extremely valuable and unique resource for 
both the United States and Canada. The Great Lakes' commercial, sport, 
and tribal fisheries alone are valued at more than $7 billion annually. 
The lakes provide drinking water for millions of people and are a rich 
tourist draw. A healthy, vibrant Great Lakes ecosystem is immeasurable 
in economic terms alone.
    Despite the importance of the Great Lakes to the region, the lakes 
face tremendous threats ranging from pollution to habitat destruction 
to loss of species diversity. One particularly troubling problem is the 
influx of invasive species. The Great Lakes are constantly bombarded by 
new species from all over the world. Ballast water is a major vector 
and is the subject of legislation (the Coast Guard Reauthorization Act) 
recently passed by the House. Canals and waterways are another vector 
and much attention has been given in recent years to the construction 
of an electrical dispersal barrier on the Chicago Sanitary and Ship 
Canal, an artificial connection between the Great Lakes and the 
Mississippi River system. Recreational activities, aquaculture, and the 
trade of live organisms (for the live seafood industry, pet trade, 
ornamental gardens, food, etc.) are other vectors.
    Today, the lakes harbor more than 185 non-native species (Lodge 
2007; Mills et al. 1993; Ricciardi 2001; Sturtevant et al. 2008), many 
of which entered the lakes accidentally. The rate of introduction into 
the Great Lakes has not slowed in recent years, even with the welcomed 
institution of some invasive species control measures (e.g., ballast 
water exchange requirements starting as early as 1989); some estimate 
that a new invader enters the system every 9-12 months. Many in the 
scientific community also believe that the Great Lakes contain many 
more invasive species than have been discovered, as a coordinated, 
basinwide program to monitor new nonindigenous species does not exist 
(IAGLR 2008; Sturtevant et al. 2008). While much of the focus has been 
on large or prominent organisms, microorganisms and pathogens are also 
an increasing concern (particularly with the emergence of the VHS 
virus). The Great Lakes, essentially, are a welcoming, open door for 
invaders.
    According to the International Association for Great Lakes 
Research, fortunately, only a small portion of the exotic species that 
enter the lakes become established, and only a small portion of those 
(up to 15%) prove to be invasive and harmful (IAGLR 2008). However, 
lest one find's those odds reassuring, the small percentage that is 
harmful has cost the region dearly. Damage is difficult to quantify, 
but sources put the cumulative economic costs since 1900 in the 
hundreds of billions of dollars. The ecological costs, of course, are 
immeasurable. According to the Great Lakes Commission, just six of the 
70 known harmful invasive species have caused more than $1.6 billion in 
damages (Glassner-Shwayder 2007).
    With globalization, more species have more opportunities than ever 
to invade the United States and the Great Lakes. Worldwide, shipping is 
vibrant and trade across continents is growing. The Saint Lawrence 
Seaway, for instance, is a direct pathway for foreign ships into the 
U.S. heartland. Those ships have been responsible for more than 1/3 of 
the Great Lakes invaders (Mills et al. 1993; Sturtevant et al. 2008). 
Also, the U.S. Fish and Wildlife Service reports that an average of 
more than 200 million fish, and tens of millions of reptiles and 
amphibians, birds, and mammals are imported into the United States 
annually. Fish for the pet trade are often collected in exotic 
locations throughout the world or reared in aquaculture facilities 
(Livengood and Chapman 2007), facilities which are prone to flooding, 
enabling escapement.
    Invasive species are not a local or even a regional problem--they 
are a national and a global problem. Invasive species have a tendency 
to spread from region to region, so species introduced in one part of 
the country have enormous potential to move to other parts of the 
country. Eurasian Dreissenid mussels, for instance, entered the Great 
Lakes through ballast water from oceanic ships in the 1980s and have 
now spread throughout much of the United States. Asian carp, which are 
discussed below, escaped from aquaculture in the Deep South and are 
threatening the Great Lakes. Snakeheads were imported for the aquarium 
trade and for food fish and are now present in the northeast, the east, 
and the Mississippi River system. Specimens have also been found in 
Alabama, California, Florida, Kentucky, Texas, Washington, and Lake 
Michigan. Finally, it is estimated that more than 150 invaders 
nationwide are attributed to the aquarium trade (Padilla and Williams 
2004) and their introduction into United States' waters anywhere raises 
the possibility of spread to other ecosystems. Solutions must be large 
in scope and based on the assumption that invaders do what they do 
best: invade.

LESSONS FROM THE SEA LAMPREY
    The Great Lakes Fishery Commission, the organization for which I 
work, was established in 1955 by the Canadian and U.S. Convention on 
Great Lakes Fisheries, partially as a response to one of the most 
noxious invaders to enter the Great Lakes system: the sea lamprey. Sea 
lampreys are primitive fishes resembling large snakes and are native to 
the Atlantic Ocean. They invaded the Great Lakes through shipping 
canals in the early 1900s. Sea lampreys are fish parasites and not 
having predators in the Great Lakes, were able to wreak unimaginable 
damage on the ecosystem and cause significant economic harm to the 
fishers of the region. The commission's control program has been 
successful, reducing sea lamprey populations by 90% in most areas of 
the Great Lakes. Nevertheless, eradication is impossible.
    The sea lamprey has taught resource managers some tough lessons:
    <bullet>  A single species can cause significant, permanent damage 
to the economic and ecological health of a region. Sea lampreys changed 
a way of life in the Great Lakes and even with effective control, they 
remain a permanent, destructive element of the Great Lakes fishery. 
Most--if not all--management decisions made by federal, state, tribal, 
and provincial agencies must take sea lampreys into account.
    <bullet>  Control, if it is even possible, is expensive and 
ongoing. The commission has spent more than $300 million since 1956 
controlling sea lampreys. This amount, while large, does not take into 
account the billions of dollars of revenue lost to commercial, tribal, 
and recreational fishers of the Great Lakes basin, nor does it take 
into account the billions of dollars spent by the state and federal 
governments over several decades to rehabilitate and propagate the 
fishery after the sea lamprey invasion. Moreover, this figure does not 
include the immeasurable damage to the ecology of the Great Lakes 
basin.
    <bullet>  Prevention is key; eradication is not possible. The Great 
Lakes fishery will forever contend with sea lampreys and fishery 
officials at the federal, state, tribal, and provincial levels will 
always have to factor sea lampreys into their decisions.
    <bullet>  Invasive species management programs are costly and borne 
by the taxpayers.
    If sea lampreys have taught us anything it is that prevention of 
new invaders is absolutely critical. Once a species enters an ecosystem 
and becomes established, few tools, if any, exist to manage invasive 
species let alone eradicate them. In fact, sea lampreys are the only 
aquatic invasive species in the Great Lakes that can be controlled, 
though control is ongoing and expensive.
    It is not clear whether the lessons of the sea lamprey truly have 
been absorbed. Even with all we know about the damage of invasive 
species, and even though the pathways are generally known, precious 
little has been done to prevent new introductions. Ballast legislation 
has been pending for nearly a decade; the construction of the 
electrical barrier on the Chicago Sanitary and Ship Canal, while 
progressing, has been slow and is still not fully completed after years 
of wrangling; myriad canals and artificial connections exist between 
naturally distinct watersheds, leaving the Great Lakes region 
vulnerable to invasions from other parts of the United States and, in 
turn, being a source of invaders; the sea lamprey control budget is 
constantly under assault; and a meaningful process does not exist to 
assess the risk of proposed importations of live organisms or to manage 
the harmful species that have become established.
    It is the last vector--the importation of live organisms--that is 
the subject of this testimony. The Non-native Wildlife Invasion 
Prevention Act presents us with a rare opportunity to take a major step 
toward prevention.

THE FAILURE OF THE CURRENT REGIME
    Overall, the regime governing the trade of live organisms falls far 
short of what is necessary to protect the United States and the Great 
Lakes from invasive species. A meaningful process does not exist in the 
United States to assess the risk of organisms for injuriousness prior 
to importation, to inspect importations, and to properly enforce the 
law. This lack of a regime has left the United States and the Great 
Lakes region extremely vulnerable to biological invasions.
    Importation, interstate commerce, and trade are among the most 
dangerous pathways for introduction of invasive species into the United 
States and the Great Lakes region. The transportation and sale of live 
organisms poses considerable risk to the biological integrity of the 
ecosystems they enter.
    Unfortunately, the trade of live organisms poses a significant and 
increasing risk. While a large number of organisms are imported, 
serious problems and many loopholes in the trade regime exist. Programs 
for assessing the risk of importing live organisms are inconsistent 
throughout the United States, to the extent they even exist at all. 
Indeed, while states have considerable discretion in regulating live 
aquatic species, neither an overarching strategy nor a consistent, 
robust policy exist. Most states, in fact, have lists of fish species 
that are prohibited or regulated, but those lists tend to be short 
(Alexander 2004) and not usually based on a rigorous review of 
potential injuriousness. Importers are generally free to bring in live 
organisms so long as the organisms are not listed by the U.S. Fish and 
Wildlife Service as ``injurious,'' are not endangered, do not harm 
human health or livestock, or are not governed by other federal 
agencies or laws (Alexander 2004). Also, while some organisms are 
prohibited because they pose a human health risk, carry disease, or 
harm agriculture and forests, live organisms generally are not screened 
for potential injuriousness to the economy or to ecosystems. Instead, 
the number of prohibited species is quite small, giving importers 
nearly free-reign to import a large number of species.
    Overall,
    <bullet>  existing federal, state, and local programs that address 
the trade of live organisms have evolved without coordination and are 
often reactionary;
    <bullet>  currently, the U.S. Fish and Wildlife Service charges 
only one person with the task of evaluating potentially injurious 
wildlife species (implementing the Lacey Act) while hundreds of species 
await review;
    <bullet>  federal and state law enforcement officers are stretched 
thin, making it virtually impossible for proactive enforcement to 
occur;
    <bullet>  in 2002, only 97 inspectors at the 32 United States ports 
designated for fish and wildlife importations were available to inspect 
the 223 million live fish that were imported;
    <bullet>  in the United States, when a shipment of live species 
arrives, complete inspection is nearly impossible due to the need for 
expediency; and
    <bullet>  most state requirements for licenses to sell live fish 
lack substance; typically, the payment of a fee and a documentation of 
sales are all that are required.
    The story of three species of Asian carp--the silver, bighead, and 
black carp--present a clear example of how the trade of species can 
seriously threaten the ecosystem and why a risk assessment process for 
importation of species is needed. Asian carp were imported into the 
southern United States to keep aquaculture facilities clean and to 
serve the food fish industry. Grass carp were imported into the United 
States in 1962 from Taiwan and Malaysia. Black carp, native to China, 
contaminated these shipments and were later intentionally introduced in 
the 1980s. Bighead carp were imported from China in 1972. A year later, 
in 1973, silver carp were brought into the United States from China and 
eastern Siberia. These non-native fish escaped from aquaculture 
facilities during flooding events throughout the late 1980s and early 
1990s. The floods provided extensive spawning and rearing habitat which 
facilitated high survival rates for offspring. In the early 1990s, the 
presence of these fish in the Arkansas River was reported.
    Since their escape over a decade ago, bighead and silver carp have 
besieged the Mississippi River basin and Illinois River system. Between 
1991 and 1993, the Upper Mississippi River Long Term Resource 
Monitoring Program documented a 100-fold increase in Asian carp numbers 
in an area known as Pool 26, which is on the Illinois River upstream of 
St. Louis. Commercial harvest of bighead carp in the Mississippi River 
Basin increased from 5.5 tons to 55 tons between 1994 and 1997. In the 
fall of 1999, an investigation of a fish kill in the off-channel waters 
of a National Wildlife Refuge near St. Louis documented that Asian carp 
made up 97% of the biomass. During this time period, commercial 
fisherman began reporting that they were abandoning their traditional 
fishing sites because they were unable to lift nets that were 
``loaded'' with Asian carp. Between 1999 and 2000, the Upper 
Mississippi River Long Term Resource Monitoring Problem documented a 
600-fold increase in Asian carp numbers in the LaGrange Pool, which is 
downstream of Peoria, IL. Sampling during the summer of 2000 in the 
off-channel areas and backwaters of the Mississippi River downstream 
from St. Louis documented the presence of bighead carp at a ratio of 
5:1 to native paddlefish. They continue to migrate northward at a 
steady pace.
    Asian carp are particularly troubling in that they grow to very 
large sizes by eating vast quantities of food. An Asian carp is capable 
of eating 40% of its body weight each day. Bighead and silver carp 
voraciously consume plankton, stripping the food web of the key source 
of food for small and big fish. Black carp are especially worrisome 
because they have the potential to wipe out native mussel populations 
in a relatively short period of time. According to the U.S. Geological 
Survey, a four-year-old black carp consumes an average of 3-4 pounds of 
mussels per day; older, larger black carp likely consume more mussels. 
At this rate of consumption, a single black carp could eat more than 10 
tons of native mollusks during its life. To make matters worse, 
portions of the Great Lakes are perfectly suited for Asian carp, and 
biologists are very concerned that if Asian carp find their way into 
the Great Lakes, they will make the lakes home, spread, and deprive our 
most prized species of food. Observing the path of destruction on areas 
carp have already invaded, biologists are very worried indeed. Clearly, 
these fish have the ability to establish rapidly, reproduce in large 
numbers, and become the dominant species in an ecosystem. Once 
established, there is little chance fishery managers will be able to 
control Asian carp. Like the sea lamprey, they could well become a 
permanent element of the Great Lakes if they enter the system.
    Existing federal law is inadequate to address the increasing threat 
posed by injurious species. The primary problem with the United States' 
federal program is that the Lacey Act--the primary tool the U.S. Fish 
and Wildlife Service has to regulate harmful organisms--is not focused 
specifically toward proactively assessing the risk of importations 
before they occur. Implementation of the act has not been as aggressive 
as is needed, such that only a small number of species are listed as 
injurious under the Lacey Act. In fact, despite the proliferation of 
injurious species, only three families of fishes, one species of 
crustacean, one species of mollusk, and one reptile species are listed 
under the act. Hundreds await review and the list does not include many 
species that have been banned by state governments. Furthermore, the 
process for adding to the list is cumbersome. Although the Fish and 
Wildlife Service has the authority to issue emergency regulations, it 
has generally operated through a standard notice and comment process. 
The average time it takes for the service to list a species (from the 
time it is first proposed) is nearly five years (Fowler et al. 2007). 
Species continue to spread and cause harm during that lengthy review 
process, perhaps making the final listing less meaningful. To make 
matters worse, the Lacey Act creates an almost impossible situation. To 
be listed under the act, a species must be proven to be injurious. To 
merit listing, a species must be shown to cause significant economic 
and environmental harm. The problem is, to prove such harm, the species 
must be causing damage. By the time such a determination is made, the 
species has likely spread to a point where management would be 
unfruitful. On the other hand, research has shown that of the species 
that were not in the country prior to a Lacey Act listing, none 
subsequently became established (Fowler et al. 2007). Clearly, 
proactive prevention, not an ex post facto review, is critical.
    As the implementation of the Lacey Act and the lack of an effective 
risk assessment process demonstrate, most approaches to reducing and 
eliminating the release of aquatic invasive species from pathways 
involving trade and commerce are reactive rather than preventative. The 
existing trade regime has left the waters of the United States 
extremely vulnerable. Overall, a lack of sufficient resources to 
complete the cumbersome process to list species as injurious, and the 
lack of an effective risk assessment process to evaluate proposed 
importations, promote this vulnerability.
    The current catastrophic floods in the Midwest offer another stark 
reminder of how exposed the United States remains to escapement. In 
addition to the human misery and enormous economic damage that are the 
result of these floods, the environmental harm is staggering and 
includes the spread of non-native species when aquaculture facilities 
are inundated. No fewer than 19 fish species are raised in aquaculture 
facilities in the State of Iowa alone, many in facilities near the 
Mississippi River flood plain. Some of the species raised (e.g., 
tilapia, grass carp, hybrid striped bass, blue and flathead catfish) 
are not present in the Great Lakes; some are not even indigenous to 
North America.

THE GREAT LAKES REGIONAL COLLABORATION
    Addressing the invasive species threat is a top priority for the 
Great Lakes region, Congress, and the administration. In May, 2004, 
President Bush called for the development of a comprehensive Great 
Lakes restoration plan and identified invasive species as one of eight 
focal points. The ``Great Lakes Regional Collaboration''--comprising 
representatives of government agencies at all levels, industry, the 
public, and non-government organizations--was formed to develop the 
restoration plan, which was submitted to government in December, 2005. 
Implementing the provisions contained in the restoration plan has been 
a challenge, with few major recommendations fulfilled. The Non-native 
Wildlife Prevention Act, if enacted, would address several key 
recommendations.
    The Great Lakes Fishery Commission actively participated in this 
large endeavor by co-chairing the Aquatic Invasive Species (AIS) 
Strategy Team of the regional collaboration. The AIS team had the 
responsibility of developing the invasive species portion of the 
restoration plan. More than 1000 people participated in the Great Lakes 
Regional Collaboration and more than 150 people were a part of the AIS 
Strategy Team. The recommendations were developed by consensus.
    The threat posed by the lack of a risk assessment process for the 
importation of live species was a major component of the AIS action 
plan. The complete report of the ``organisms in trade'' subcommittee of 
the AIS Strategy Team is included as an appendix to this testimony. The 
recommendations are summarized as follows:
    ``Federal and state governments must take immediate steps to 
prevent the introduction and spread of AIS through the trade and 
potential release of live organisms. Specifically governments should:
    <bullet>  implement...a federal screening process for organisms 
proposed for trade;
    <bullet>  [mandate] that the screening process...classify species 
proposed for trade into three lists--prohibited, permitted, and 
conditionally prohibited/permitted;
    <bullet>  develop a list of species of concern for the Great Lakes 
basin and an immediate moratorium by the States on the trade of species 
on that list, until the species are screened and approved for trade;
    <bullet>  develop and implement risk models for organisms in 
aquaculture.
    <bullet>  clearly state that the screening process established must 
place the burden of proof of non-injuriousness on the importer;
    <bullet>  allocate sufficient resources to heighten the number of 
species under the Lacey Act as ``injurious,'' to prevent the interstate 
transportation of harmful species; the Fish and Wildlife Service (FWS) 
should list black, bighead, and silver carps as injurious under the 
Lacey Act; and
    <bullet>  significantly increase resources for the enforcement of 
laws governing the trade of live organisms.''

THE NON-NATIVE WILDLIFE INVASION PREVENTION ACT
    A bill introduced by Chairwoman Madeleine Bordallo--H.R. 6311, the 
Non-native Wildlife Invasion Prevention Act--is welcomed legislation 
and badly needed. I commend Representatives Abercrombie, Kildee, Klein, 
Hastings, Kind, and McCollum for being original co-sponsors. As 
globalization continues to drive world trade regimes and policies, 
governments must redouble their efforts to eliminate the risk of 
dispersing harmful organisms. This legislation takes a significant step 
towards that goal. The legislation establishes a risk assessment 
process for organisms proposed for importation, closing a major vector 
for invasive species into the United States and the Great Lakes region. 
The legislation also fulfills many of the recommendations of the Great 
Lakes Regional Collaboration's AIS Strategy Team. The Great Lakes 
Fishery Commission has reviewed this legislation and supports it.
    The bill has many positive points:
    <bullet>  The bill calls upon the Secretary of Interior to 
promulgate regulations that establish a process to assess the risk of 
all non-native wildlife proposed for importation into the United States 
before the organisms are imported. The bill clearly outlines several 
factors that the secretary must consider to assess the risk of 
organisms proposed for importation. The list of factors is solid and 
protective, as it calls upon the secretary to consider such factors as 
the potential of the species to become established, the potential 
injuriousness to new ecosystems in the United States, and the 
likelihood that pathogens could accompany the imported species.
    <bullet>  The bill establishes both ``clean'' and ``dirty'' lists 
of species and only those species on the clean list can be imported. 
This is a major, positive element of the legislation, as experience has 
shown that reliance only on ``dirty'' lists alone does not provide the 
level of protection needed. For instance, a major shortcoming of the 
Lacey Act is that it is basically a ``dirty'' list; species that do not 
appear on the list are approved for importation (so long as they are 
not on other prohibited lists such as those governing endangered 
species). To make matters worse, not all imported or harmful species 
are scrutinized, only those are that have proven to be injurious and 
that have been petitioned to be added to the list (though the U.S. Fish 
and Wildlife Service can initiate a review as well). In contrast, by 
relying on a ``clean'' and a ``dirty'' list approach, this legislation 
is proactive and complete in its review of proposed importations. Only 
species that have been scrutinized and included on the ``clean'' list 
will be allowed.
    The ``grandfather clause,'' under the heading ``animals imported 
prior to prohibition,'' is reasonable, as it allows individuals to 
continue to posses (but not rear) organisms that have been imported 
legally. In theory, organisms that were imported legally, but later 
prove to be injurious, should be addressed by the Lacey Act. However, 
problems with implementing the Lacey Act have precluded effective 
management of injurious species. The process to list a species under 
the Lacey Act as injurious is cumbersome, slow, and often ineffective 
in preventing the spread of an organism. The process proposed in the 
Non-native Wildlife Invasion Prevention Act is far superior to what 
we've experienced under the Lacey Act.
    The legislation clearly states that in assessing the proposed 
species, the secretary must determine that the species is not harmful 
to the economy, the environment, or human or animal health. By 
demonstrating a lack of harm--as opposed to demonstrating harm--the 
burden of proof is stronger and more appropriately placed. History has 
demonstrated that simply expecting a species to not escape or invade an 
ecosystem is foolhardy. One must assume the worst unless proven 
otherwise.
    The legislation creates an open, transparent process whereby the 
organisms are assessed. By mandating the publication of proposals in 
the Federal Register and by requiring input from interested parties, 
this legislation gives those with pertinent information, or those 
affected by the proposed listing, an opportunity to be heard. The 
Secretary of Interior will have some discretion about how, exactly, the 
risk assessment process will be established, and, once this legislation 
is enacted, the commission urges the establishment of a robust process 
that involves peer reviews, application of the best science available, 
consultation with other government agencies and university experts, and 
periodic improvement. The commission also urges that any process that 
is established be capable of undertaking the assessments in a quick and 
efficient manner.
    The bill provides the secretary with emergency authority to act if 
a species poses a serious and imminent threat. Such authority, also 
granted under the Lacey Act, is essential and, in fact, was important 
in the response a few years ago to the escapement of snakehead.
    The legislation allows the states to be more protective of their 
ecosystems than the federal government. For most states, a strong 
federal policy is appropriate, as the federal government can oversee a 
national process to protect all of the United States. In other cases, 
however, states may wish to put in place special, unique protections 
for their ecosystems. This legislation allows states the flexibility to 
go beyond what the federal government requires, while still maintaining 
a national foundation of protection.
    I respectfully offer the following comments for improvement or 
clarification:
    <bullet>  The legislation should clarify what should happen if a 
species is assessed but not enough information is available to state 
conclusively whether the species should be on the ``clean'' or the 
``dirty'' list. While the legislation is clear that only species on the 
``clean'' list can be imported, the legislation does not provide 
direction to the secretary about how to decide on which list to place a 
species when that choice does not present itself unambiguously during 
the risk assessment process. It appears the intent of the legislation 
is that such a species not be allowed for importation, but that intent 
should be explicit. An option would be to state that the secretary 
shall place the species on the ``dirty'' list until more information is 
presented. Another option would be to create an interim list (often 
called a ``grey'' list), where such species would be prohibited, but 
placed on the list until further scrutiny can be applied. The ``grey'' 
list approach has worked in many states and in other countries and 
would dissuade the reviewer from simply placing a species on an 
approved list for expediency or lack of information.
    <bullet>  The penalties and enforcement provisions of this act rely 
on the penalty and enforcement provisions of the Lacey Act. While the 
Lacey Act is one of the strongest laws on the books with respect to 
wildlife enforcement, the stronger penalties are rarely imposed and are 
often too low to dissuade behavior. Moreover, Lacey Act penalties are 
tied to the market value of the species that were imported, not the 
potential harm to an ecosystem. For instance, a violator could be fined 
based on the value of his shipment of fish (which might be small, but 
still large enough to establish a population) rather than the impact 
the fish would have on the environment. The committee is urged to 
consider improving the law enforcement provisions to ensure that this 
act serves as an effective deterrent and that penalties are truly 
commensurate with the threat to the ecosystem.
    <bullet>  The section establishing fees to recover the costs of the 
risk assessment process is important, as it requires the recovery of 
the costs of assessing the risk of species for the ``clean'' list. 
However, the legislation does not specify that the fee should be 
collected from those who propose an importation; the bill should be 
specific as such. Moreover, the bill should be more explicit about not 
requiring fees from citizens who petition for a species to be included 
on the ``dirty'' list. Such citizens are petitioning for the public 
good and, therefore, should not be dissuaded from asking for a species 
to be evaluated.
    <bullet>  The legislation does not include enforcement as a 
recoverable cost under the fee collection system and, therefore, the 
commission assumes that the service would have to find enforcement 
funds from within its regular budget, or request funds from Congress. 
We have learned from the implementation of the Lacey Act that even a 
strong, well-intentioned law is not implemented optimally if 
enforcement is not funded adequately. While it would be overly 
optimistic to expect every shipment of live organisms to be inspected, 
additional training and enforcement will be necessary to implement this 
legislation. More law enforcement officials will be required to be 
present at points of entry, law enforcement officials will require 
training to identify different types of species, and fines will have to 
be sufficient to deter lawbreakers. The committee should consider 
adding a specific ``authorization of appropriations'' for 
implementation or to specify that the fees should be sufficient to 
cover enforcement, as well as the risk assessment process.

ADDITIONAL IMPLEMENTATION ISSUE
    The U.S. Fish and Wildlife certainly does not have to start from 
square-one when it comes to considering processes for assessing the 
risk of live organisms. Several models for risk assessment and 
management are in various stages of development. Such screening tools, 
though primarily developed for state use, would certainly support and 
complement the provisions of this legislation.
    That said, implementation will be a significant undertaking, and 
the Great Lakes Fishery Commission remains concerned that the service 
will not have adequate resources to do the job. The legislation calls 
upon the service to assess the risk of all organisms proposed for 
importation. It is expected that the initial list for review could be 
in the hundreds, if not thousands, of species. The legislation 
establishes a process to collect fees, which the commission supports, 
and urges the service, when this legislation is passed, to not let the 
potential cost of the undertaking deter the establishment of a robust, 
transparent risk assessment process.
    The commission believes it is worth considering a recommendation by 
the Ecological Society of America that risk assessment processes could 
be undertaken by ``independent organizations that are authorized to 
certify that species for sale are not likely to be invasive'' (Lodge et 
al. 2006, p. 2042). While the intent of this recommendation might have 
been to encourage industry organizations (e.g., importers) to 
proactively and voluntarily assess the risk of organisms, this 
recommendation could also be used to add additional expertise and 
capacity in implementing the large task of screening organisms.

COORDINATION WITH CANADA
    Although this legislation is limited to importations into the 
United States, other countries--primarily Canada and Mexico--will play 
a critical role in protecting connected ecosystems. Indeed, just as a 
national policy is needed because organisms spread from state to state, 
an international approach is needed to keep harmful organisms from 
migrating among contiguous countries.
    Like the current situation in the United States, federal statutory 
authority does not exist in Canada which targets invasive species 
directly or explicitly. However, also like the United States, the 
importation of certain species is prohibited into Canada for health or 
disease reasons. Legislation, Bill C-32, is pending before the Canadian 
House of Commons that would grant the Minister of Fisheries and Oceans 
additional authority to manage invasive species. The bill also 
authorizes the Governor in Council ``to make regulations for the 
conservation or protection of fish or fish habitat, including 
regulations for controlling aquatic invasive species, which in turn 
include regulations respecting the export of members of such species, 
their import, and their transport.'' While this legislation does not 
explicitly establish a risk assessment process, it does call for 
imports to be managed. The pending legislation in Canada, thus, is in 
the same spirit as the Non-native Wildlife Invasion Prevention Act and 
it is the commission's expectation that the legislation in both 
countries, together, will inspire a coordinated approach.
    Moreover, the Mississippi Panel on Invasive Species has developed a 
risk assessment/risk management process that includes a risk assessment 
tool for use by U.S. states. This tool could be useful nationally and, 
as was discussed during a recent meeting of the Trilateral Committee 
for Wildlife and Ecosystem Conservation and Management (comprising 
officials from Canada, Mexico, and the United States), North America-
wide. The hope is to develop one day a standardized protocol for risk 
assessment that could be used by all North American jurisdictions.

CONCLUSION
    The Non-native Wildlife Invasion Prevention Act is sound 
legislation and, when implemented, will do much to protect the 
ecosystems of the United States. The legislation is well-conceived, is 
designed to close a major gap in invasive species control policy, and 
is generally consistent with the recommendations of the Great Lakes 
Regional Collaboration. The commission appreciates its introduction and 
urges its enactment. Madam Chair, thank you for the opportunity to 
offer my thoughts about your bill.q

REFERENCES
Alexander, Ann. 2004. Proposed solutions and legal tools to address 
        regulatory gaps relating to commerce in exotic live fish 
        affecting the Great Lakes ecosystem. In Report to the Great 
        Lakes Fishery Commission (phases I and II). Chicago: 
        Environmental Law and Policy Center.
Fowler, Andrea J., David M. Lodge, and Jennifer F. Hsia. 2007. Failure 
        of the Lacey Act to protect U.S. ecosystems against animal 
        invasions. Front Ecol Environ 5 (7):353-359.
Glassner-Shwayder, Katherine. 2007. Testimony presented by Katherine 
        Glassner-Shwayder, Great Lakes Commission, September 27, 2007. 
        Subcommittee on Fisheries, Wildlife, and Oceans, Committee on 
        Natural Resources.
IAGLR. 2008. Research and Management Priorities for Aquatic Invasive 
        Species in the Great Lakes, at http://iaglr.org/scipolicy/ais/
        background.php: International Association for Great Lakes 
        Research. Accessed June 20, 2008.
Livengood, E.J., and F.A. Chapman. 2007. The ornamental fish trade: An 
        introduction with perspectives for responsible aquarium fish 
        ownership: University of Florida IFAS Extension.
Lodge, David M. 2007. Testimony by David M. Lodge, University of Notre 
        Dame, September 27, 2007. Subcommittee on Fisheries, Wildlife, 
        and Oceans, Committee on Natural Resources.
Lodge, David M., Susan Williams, Hugh J. MacIsaac, Keith R. Hayes, 
        Brian Leung, Sarah Reichard, Richard N. Mack, Peter B. Moyle, 
        Maggie Smith, David A. Andow, James T. Carlton, and Anthony 
        McMichael. 2006. Biological invasions: Recommendations for U.S. 
        policy and management. Ecological Applications 16 (6):2035-
        2054.
Mills, Edward L., Joseph H. Leach, James Carlton, and Carol Secor. 
        1993. Exotic species in the Great Lakes: A history of biotic 
        crises and anthropogenic introductions. Journal of Great Lakes 
        Research 19 (1):1-54.
Padilla, Dianna, and Susan Williams. 2004. Beyond ballast water: 
        Aquarium and ornamental trades as sources of invasive species 
        in aquatic ecosystems. Frontiers in Ecology and the Environment 
        2 (3):131-138.
Ricciardi, Anthony. 2001. Facilitative interactions among aquatic 
        invaders: Is an 'invasional meltdown' occurring in the Great 
        Lakes? Canadian Journal of Fisheries and Aquatic Science 
        58:2513-2525.
Sturtevant, Rochelle, David F. Reid, Anthony Ricciardi, Rebekah Kipp, 
        and Pam Fuller. 2008. Great Lakes aquatic nonindigenous species 
        list, online at http://www.glerl.noaa.gov/res/Programs/ncrais/
        great_lakes_list.html: National Center for Research on Aquatic 
        Invasive Species, National Oceanic Atmospheric Administration, 
        accessed June 23, 2008
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Gaden, for your 
careful consideration of this legislation, especially as 
related to the Great Lakes.
    Next, I would like to invite Mr. Horne to present his 
testimony.

     STATEMENT OF GEORGE HORNE, DEPUTY EXECUTIVE DIRECTOR, 
   OPERATIONS AND MAINTENANCE RESOURCES, SOUTH FLORIDA WATER 
                      MANAGEMENT DISTRICT

    Mr. Horne. Good morning, Madam Chair and Members. I am the 
Deputy Executive Director of the South Florida Water Management 
District, Operations and Maintenance Division. Thank you for 
inviting me to speak.
    The South Florida Water Management District manages one-
and-a-quarter-million acres of land for various ecosystem 
benefits. We have 2,000 miles of canals and associated levees. 
We manage for flood control, water supply, and environmental 
enhancement.
    In a time when we are concerned with national security and 
have strengthened our nation's laws to deal with outside 
threats to our country, we find ourselves in Florida being 
quickly overrun with outside threats which have very little 
regulation.
    You may ask what that is. Well, it is the spread or escape 
of released exotic animals. Research has proven that a five 
percent reduction of a species changes the ecosystem. In 
Florida, we are currently dealing with 30 percent of our 
wildlife that is exotic.
    Our canal systems and levees have become safe conduits, or 
highways, if you will, for their range extensions. The 
environmental threat that we are facing is they change the food 
web. The predator-prey relationship is changed, and, indeed, 
our predators have become the prey. They bring parasites and 
diseases.
    We have infrastructure concerns. We have sailfin catfish 
digging on the inside of reservoirs, digging burrows, and 
iguanas on the outside digging, which can cause the failure of 
those levees.
    We have had workforce impacts. We have had python inside 
our pump stations, and, indeed, chased one of our employees 
back to a vehicle when they were doing water sampling.
    There is damage to agriculture, and I think this is 
probably one of the worst things. They are consuming our 
endangered and threatened species. We know, and can confirm, 
they are eating wood rats, wood storks, burrowing owls, and 
gopher tortoises, as well as many other species that are out 
there.
    In the fishing industry, there are areas where guides are 
only taking people out to catch exotic fish because that is all 
that exists in that particular area.
    But our biggest threat of all is the python. In the past 
four months, the South Florida Water Management District, in 
the Everglades National Park, has removed 32 pythons in a five-
mile stretch in the heart of the Everglades, for a total of 
about 826 pounds of body mass.
    Professor Stephen Secor of the University of Alabama 
determined in a lab that for every 2.2 pounds of body weight in 
the python, it takes 6.6 pounds of prey to sustain that. This 
suggests that the pythons removed in that five-mile area have 
consumed 1.4 tons, one and a quarter tons, of native mammals, 
birds, and reptiles.
    The state and the Federal government are trying to protect 
those and restore the Everglades, but it is going to be an 
issue for us, particularly since one of our indicators for 
restoration is bird counts, and if they get into a rookery, 
they are going to stay there until they eat all of the birds.
    What is sobering is those snakes were about three to seven 
years old. They live to be 25 years old. So you can only 
imagine how many. The climatological map shows that these 
creatures can live across the entire southern tier of the U.S. 
and almost as far north as Washington, D.C., and there are 
probably already subpopulations that exist in other areas where 
they have been released.
    In closing, we, the South Florida Water Management 
District, encourage the passage of this legislation. We 
currently spend $25 million for the control of exotic plants, 
and we have no budget for exotic animals. These animals are not 
essential to our survival, yet they impact and overwhelm our 
nature ecosystem and eliminate species that are totally unique 
to South Florida. This is to say nothing of the countless 
migratory birds that winter in our area and pass through during 
the migration, as well as many socioeconomic impacts to sport 
fishing, to tourism, to agriculture.
    We view this as the first real control step to ensure our 
precious natural resources are not destroyed, and thank you for 
inviting me to be here.
    [The prepared statement of Mr. Horne follows:]

         Statement of George Horne, Deputy Executive Director, 
  Operations and Maintenance, South Florida Water Management District

    Madam Chairman, thank you for the opportunity to testify before 
this Committee on a matter of great importance to the South Florida 
Water Management District, specifically H.R. 6311, ``the Non-Native 
Wildlife Invasion Prevention Act.'' I am George Horne, Deputy Executive 
Director of Operations and Maintenance for the South Florida Water 
Management District. Our regional agency maintains 2,000 miles of flood 
protection and water management canals in South Florida's 16 counties 
and is actively engaged in many initiatives to protect and restore the 
South Florida ecosystem, which includes Lake Okeechobee, the second 
largest lake in the southeastern U.S. and America's Everglades. We have 
a long history of successful invasive plant management and experience, 
but only recently have we had to commit more and more resources to the 
emerging populations of non-native animals appearing across our 
landscape. If effective preventative programs were in place to limit 
introductions of non-native animals, such as the legislation now under 
consideration, these much-needed taxpayer-funded resources could be re-
directed to other important resource management efforts. Today, 
however, the negative impacts from the unlimited importation of new 
pest animals require active responses on our part. Effective prevention 
of additional introductions, as proposed in this bill, is the only path 
to prevent these costs from continually increasing.
    While Florida, California and Hawaii are currently among the states 
most impacted by introduced invasive species, every state is affected. 
Globally, exotic invasive species, including pest animals, weeds and 
pathogenic diseases are a major cause of global biodiversity decline. 
In particular, non-native animals compete for food and habitat, upset 
existing predator/prey relationship, degrade environmental quality, 
spread diseases and, in our case, may threaten the integrity of flood 
protection levees and canal banks, and electrical power delivery. 
Nationally, more than 50,000 species of introduced plants, animals and 
microbes cause more than $120 billion in damages and control costs each 
year (Pimentel 2005). Already, 192 non-native animal species are 
established in Florida, calling for the development of methods to 
forecast and respond to the potential economic loss, environmental 
damage and social stress caused by invasives whether new introductions 
or long-established organisms. Collaborative management, education, 
training and broadening public awareness along with baseline population 
analyses may provide a foundation for building effective control 
strategies and tools. Several states, including California, Hawaii and 
Idaho are currently devising non-native animal invasion prevention 
programs and/or lists. The federal initiatives included in the bill 
could serve to unify and standardize these efforts and provide a 
critical framework to evaluate current and potential problems.
Specific Support for H.R. 6311 ``The Non-Native Wildlife Invasion 
        Prevention Act''
    The South Florida Water Management District supports the underlying 
premise of the draft language. Establishing compulsory risk assessments 
and a ``clean list'' of approved species represents a needed and 
important step for regulating the flow of potentially harmful non-
native wildlife into the United States. Our specific comments on the 
draft bill include:
    <bullet>  Inclusion of a ``gray list'' of provisionally-approved 
species. Such a list could limit trade in species for which inadequate 
information exists to call for their complete prohibition. The animals 
to watch list could be used to assess their full importation risks. 
Requirements could mandate that these animals be imported and kept only 
under special containment. This action would allow fair commerce while 
not allowing unlimited importation of a potentially harmful species.
    <bullet>  The Non-Native Wildlife Invasion Prevention Fund, as 
proposed, is critical to the success of this initiative.
    <bullet>  The emergency rule provision, giving authority to 
temporarily place a species on the unapproved list, is another vital 
component of the draft legislation. This would prevent the 
establishment of potentially harmful animals while scientific and 
official processes proceed.
    <bullet>  The draft language correctly protects existing pets from 
being confiscated if that species is later prohibited from importation. 
This ``grandfathering'' clause should ease concerns of pet owners who 
legally purchased exotic animals.
Current Measures
    In 2005, Florida's Fish and Wildlife Conservation Commission 
created an invasive animals management section. One of their key 
recommendations led to a new Florida rule limiting commerce in 
``reptiles of concern'' including the world's five largest non-venomous 
snakes and the carnivorous Nile monitor. These animals were selected as 
most threatening because of their large size and extreme predatory 
natures. Now in force in Florida Administrative Code, the rule requires 
$100 annual possession permits and they must be identified via 
implanted microchip. Prior to this action, however, these species were 
already present in Florida's pet commerce and, to varying degrees, have 
been reported in Florida's wilds. In fact, Burmese pythons are now 
thoroughly established in South Florida's natural areas and already 
number from several thousands to more than 100,000. Uncertainty remains 
regarding their actual population and a comprehensive assessment of 
their numbers across the region would significantly help eradication. 
Currently, the Florida Fish and Wildlife Conservation Commission's 
exotic animals section is engaged in serious management efforts against 
species present only in isolated areas and in small populations. 
Broader management efforts would benefit from federal engagement.
Introduction Pathways--Florida's Pets on the Loose
    In Florida, the introduction of invasive pest animals has primarily 
been through the pet trade. Other pathways of introduction include 
overseas transport of ballast water which has introduced zebra and 
quagga mussels to North America. These Asian mussels imperil our 
aquatic ecosystems and clog commercial and public utility intakes and 
processes. Accidentally imported within cargo pallet wood, the Asian 
longhorn beetles now threatens North American hardwood trees. But, to 
date, Florida's most threatening vertebrate pests have come to us via 
the pet trade.
    Whether accidentally or intentionally released, when an animal 
succeeds in establishing a new population in South Florida the impacts 
may be broad and devastating or they may barely be detected. Better 
predictive methods would sufficiently gauge the risk posed by specific 
animals before they are regularly imported and bred as pets. Screening 
and risk assessment methods are imperfect, but must be developed. 
Several nations, including Australia and New Zealand, already have 
implemented pre-import screening and risk analysis systems that 
proscribe import of potentially harmful animals. Further, new economics 
research indicates that proactive screening measures can be 
economically beneficial in the long run for nations that implement 
them. These programs may provide valuable guidelines and lesson learned 
in the control of exotic animals.
    Building upon the successes of other nations, this legislation and 
related funding would enable us to better regulate imports and 
determine the appropriate levels of limitations. Practices can be 
developed without tremendous adverse impacts on the pet industry and 
yield savings to taxpayers and decreased threats to the environment.
Public Education
    Public education programs can be creative, such as the nationally-
branded Habitattitude<SUP>TM</SUP> effort led by the Aquatic Nuisance 
Species Task Force. This program advises the public at pet shops never 
to release exotic aquatic fish and plants into any U.S. waters. Yet, 
releases continue regularly as evidenced by frequent appearances of new 
species in U.S. waters.
    Sailfin catfish from South America appeared only within the past 
decade in Lake Okeechobee. Commonly sold as ``plecostomus'' as a fish 
tank ``vacuum cleaner,'' these fish dig deep burrows in sediments and 
potentially threaten the integrity of canal banks and flood protection 
levees. They are also overtaking areas of rocky lake bottom, depriving 
native fish of their preferred spawning sites. The ultimate impacts of 
the establishment of this species in South Florida are still unknown, 
but many thousands of the fish already inhabit our lakes and canals, 
disrupting commercial fishing and displacing natives.
    The actions specified in this bill would strongly influence the 
public to recognize the risk inherent in releasing exotic pets into our 
natural areas and better support the effectiveness of programs such as 
Habitattitude<SUP>TM</SUP>.
Public Health Concerns
    Invasive vertebrate pests may also harbor other threatening 
organisms such as parasites and disease. The three-pound African pouch 
rat has become established on Grassy Key in the Florida Keys and serves 
as a vector for African monkey pox virus. The first human infections 
from this virus were reported in Africa in the 1970s, arising from 
contact with monkeys and rodents. In the U.S., this virus was first 
reported infecting humans in 2003 and was traced to contact with pet 
African pouch rats. Fortunately, monkey pox is rarely a serious disease 
for humans with symptoms similar to mild chicken pox or smallpox. But, 
this disease spread to our shores directly as a result of importation 
of the African pouch rat as pets. What other species will be imported 
carrying currently unknown diseases or parasites?
Innovations Needed
    There may be creative solutions that enable trade in some otherwise 
invasive species. For instance, Asian grass carp are legal for use in 
aquatic weed control in Florida only when the fish are certified as 
triply-chromosomed, sterile varieties created by treatments of the 
eggs. Research is needed to identify how other species could be 
rendered unable to establish wild populations. Tropical species could 
be legal for sale only outside their climate tolerance range, only 
males of a species may be legal for sale, or sterile hybrids may be 
developed. It is simply too irresponsible and too dangerous to keep 
trading in pest organisms capable of unlimited spread when, with 
appropriate research, credible ways may be found to allow trade in some 
of these species.
Management Case History: Brown Tree Snake
    The Australian brown tree snake made its way to the U.S. territory 
of Guam in the late 1940s, most likely as stowaway in airplane cargo. 
This relatively small, nocturnal snake quickly spread and has 
devastated the island's native bird, lizard and flying fox populations, 
resulting in numerous extirpations of species. Also, brown tree snakes 
routinely climb across power lines leading to outages as the lines 
short circuit. There is promise for management of brown tree snakes, 
but only after decades of environmental and economic losses. 
Development of management methods has taken decades as the biology and 
susceptibilities of this snake were researched. One current management 
method involves baiting the snakes with mice treated with toxic doses 
of acetaminophen, although serious challenges remain such as how to 
place such baits in vast areas of isolated forest.
Select Invasive Species in South Florida
South American Apple Snails
    Several species of South American apple snail are established in 
South Florida waters. The largest of these is the island apple snail 
reaching tennis ball size and producing many times more eggs than the 
smaller, native Florida apple snail. In Asia, these voracious mollusks 
are known to strip rice fields and wetlands of vegetation. They are 
displacing our native Florida apple snail with sheer overwhelming 
numbers and reported predation upon the native snail. Apple snails are 
the sole food of the Federally-endangered Everglade snail kite. Lake 
Tohopekaliga, an 18,000-acre located in Central Florida, now harbors 
thousands of island apple snails. During recent years of drought, this 
lake has been a critical refuge for snail kites. Because the exotic 
snails are larger, heavier and stronger than the native snail young 
snail kites have difficulty lifting and opening them to extract their 
meat. As a result, many young kites are not surviving to maturity 
there. Also, Lake Munson in the Florida panhandle was historically 
heavily vegetated, yet today has no vegetation due to the snail's 
arrival and proliferation. Rice crops in South Florida and the vast 
wetlands of the Everglades may become fodder to this rapidly spreading, 
readily reproducing pest snail.
Monk Parakeets
    The South American monk parakeet is firmly established in South 
Florida, perhaps numbering as many as 150,000. To date, their numbers 
have doubled roughly every five years. Stable North American 
populations of the bird may also be found from Connecticut to Colorado. 
They breed rapidly and extensively damage grain, fruit and citrus crops 
in their native Argentina. As escaped pets in South Florida, they 
readily establish breeding colonies and build large colonial nests, 
often choosing power poles and niches in power substations and 
transformers. The accumulated nest materials damage power transmission 
hardware with accumulated humidity and serve as sources of ignition. 
Significant crop damages seem inevitable, but have not yet been 
documented in Florida. They are outlawed in many states, yet thousands 
are still sold annually in others. Enacting this bill will provide a 
standardized, nationwide mechanism for limiting further incursions of 
this species.
Burmese Python
    Upfront prevention of the introduction of new pests will not only 
prevent damages to natural areas but would also preclude economic loss 
stemming from an injurious species' gaining economic value in the pet 
trade only to be regulated later. For instance, the Burmese python is a 
top predator that is known to prey upon more than twenty native Florida 
species. Notable among these are the federally-listed Key Largo wood 
rat, white tailed deer, American alligator, bobcat and numerous wading 
birds common to the Everglades. Our agency is deeply committed to 
preserving and restoring South Florida's environmental health and, 
unfortunately, the Everglades ecosystem is now home to these exotic 
snakes. Attempts to manage Burmese pythons divert taxpayers' funds from 
these other urgent primary restoration and protection tasks. Yet, 
failure to do so will leave this aggressive animal as a serious 
impediment to our Everglades restoration progress. This python also 
threatens agricultural interests as small livestock are also likely 
prey. In 2008, USGS published a climate tolerance model predicting that 
this snake will likely survive throughout most Southeastern states and 
westward across the southern reaches of the country to the Pacific.
    Adverse experience already gained in Florida strongly indicates the 
need to regulate the importation and sale of this snake. The 
significant value of current sales of this snake would be affected if 
commerce in the species is regulated. Such economic loss could have 
been avoided if the Burmese python had earlier been identified as a 
serious potential pest and trade had focused on less threatening 
snakes.
Green Iguana
    Central American green iguanas already number in the hundreds of 
thousands in South Florida. They are herbivores and prefer riparian 
sites where they dig extensive burrows on slopes such as highway 
embankments, canal banks and flood protection levees. The resulting 
erosion threatens canals and levees critical for flood control and 
water management. Their burgeoning numbers in South Florida recently 
spurred Palm Beach County commissioners to petition the Florida Fish 
and Wildlife Conservation Commission to add them to the State list of 
regulated ``Reptiles of Concern.'' They are sold for as little as $5 in 
area pet stores.
Spiny-Tailed Iguana
    South American spiny-tailed iguanas are also established in Florida 
and are known to occupy the burrows of the federally-threatened gopher 
tortoise. Further, the USDA Wildlife Services has confirmed that this 
lizard preys on juvenile gopher tortoises. This is another aggressive 
predator threatening South Florida's environmental preservation and 
restoration goals.
Nile Monitor
    The African Nile monitor is now established in a 20-square-mile 
area around Cape Coral, Florida. This lizard grows to seven feet and is 
highly aquatic, climbs well and runs very quickly. It consumes a large 
variety of prey including the State-protected burrowing owl. Stomach 
content analyses also indicate that the Nile monitor is a voracious egg 
eater, raising serious alarm for many of Florida's threatened native 
animals that are egg-bearing and/or occupy burrows. Wildlife biologists 
consider the Nile monitor to be a serious threat to gopher tortoises, 
burrowing owls, Florida gopher frogs and other ground nesting species. 
According to the USFWS Law Enforcement Management Information System 
(LEMIS), there were more than 60,000 Nile monitors imported through 
Florida's ports between 2000 and 2004.
Conclusion
    While the South Florida Water Management District and other 
agencies try to contain the documented damage and growing threat of 
existing invasive animals in Florida, the flow of potentially harmful 
exotic animals into the state continues. For example, nearly 1,000 
venomous puff adders were imported through Florida's ports between 2000 
and 2005 (LEMIS data). This African viper is common in its native range 
and is considered to be one of Africa's most dangerous snakes. The 
Oriental water dragon is another popular imported species with a 
potential for establishment in south Florida. Between 2000 and 2005, 
more than 210,000 Oriental water dragons were imported through Florida 
ports (LEMIS data). More effective tools are needed to accurately 
predict if either of these reptile species will become established in 
Florida. Our state appears to offer an agreeable climate for both 
species and their broad feeding preferences suggest they are likely to 
adapt readily to our subtropical setting. Rather than wait for the next 
Burmese python or zebra mussel to become established in the United 
States, a proactive approach such as the proposed legislation being 
discussed today is urgently needed to protect our environment, economy 
and quality of life--not just in Florida but throughout the nation.
Citations
Pimentel, D., L. Lach, R. Zuniga, and D. Morrison. 2005. Update on the 
        environmental and economic costs associated with alien-invasive 
        species in the United States. Ecological Economics 52:273-288.
Rodda, G. H., et al. 2007. Climate matching as a tool for predicting 
        potential North American spread of brown treesnakes. In: Proc. 
        of managing vertebrate invasive species symposium. 7-9 august 
        2007, Ft. Collins, CO. USDA APHIS Wildlife Services, Ft. 
        Collins, CO.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Horne, especially 
for the attachment, which we have shared up here with the 
Members of the Committee, which shows the types of invasive 
species you have to manage in South Florida.
    Mr. Meyers, it is now your turn to testify, so please 
begin.

  STATEMENT OF MARSHALL MEYERS, EXECUTIVE VICE PRESIDENT AND 
      GENERAL COUNSEL, PET INDUSTRY JOINT ADVISORY COUNCIL

    Mr. Meyers. Madam Chair and Members of the Subcommittee, I 
appreciate being invited to testify, though I feel like I am 
the lone gladiator in a lion's den, being the only industry 
member here today.
    The pet industry, like other industries, is dependent on 
the importation of nonnative species. The invasive species 
issue is not new to our industry. Our involvement dates back to 
the early seventies, when the Service desired to ban all 
nonnatives until proven innocent. This bill could cause the 
same result. It places an untenable burden on the trade, as 
well as the Service, to scientifically prove the unprovable, a 
negative: the absence of harm.
    Absent a crystal ball, it is impossible to prove 
conclusively that no harm has ever occurred, nor will ever 
occur, anywhere in the United States.
    Moreover, the Service has never been provided the 
resources, human or financial, to adequately implement existing 
programs. Until that is accomplished, this approach here will 
only cripple an already faltering program.
    To provide some semblance of scale, thousands of nonnative 
species, involving hundreds and hundreds of millions of 
specimens, have been in the pet trade for decades. The 
overwhelming majority have never established feral populations. 
Even fewer have been demonstrated to have caused harm.
    If 6311 is enacted, the Service would face a managerial 
nightmare. Assuming, arguendo, that the science was available 
to enable the risk-assessment process outlined in the bill, the 
Service would not be physically capable to complete a 
sufficient number of species assessments within the mandated 
time limits and permit industry to continue operating, or even 
put the oysters in the Chesapeake Bay, in the Gulf, or in Puget 
Sound.
    Currently, it takes an average of four years to list a 
species as injurious, yet the Service is to establish multiple 
lists, possibly for thousands of species, in a scientifically 
credible and justifiable manner, within a 24-to-37-month period 
if trade is not to be crippled.
    We urge the Committee to take into consideration the 
recommendations in the Invasive Species Management Plan 
incorporating the ANSTF concepts submitted to Congress in 1994. 
A phased-in screening approach, we supported then and support 
today, consisting of Phase 1, Federal agencies working with 
stakeholders to screen species proposed for first-time imports; 
and, Phase 2, the process would broaden to include systematic 
screening of species in trade without disrupting the trade.
    This approach was proposed in several bills amending the 
National Aquatic Invasive Species Act. It called for 
establishing a catalog of organisms in trade. Species not in 
the catalog would be first-time introductions. Species in the 
catalog could still be subject to an assessment while trade 
continued. It was a clear and easy way to not disrupt trade 
while a screening went on.
    We also urge the Committee to clearly incorporate risk 
analysis into the way forward. While that may have been what 
was intended in 6311, it is clearly absent.
    Risk assessment is only one part of the process. Equally 
important is requiring the identification of measures that can 
be implemented to reduce or manage these risks, risk 
management, taking into account socioeconomic and cultural 
considerations. That means also looking at benefits, as well as 
harm, and should not be excluded from the analysis. We urge you 
to make that part of any congressionally mandated process.
    I will briefly touch on several sections in the bill that 
cause some concerns.
    Section 3 mandates specific listing factors but offers no 
direction on how those factors must be evaluated. There is a 
reasonable inference, however, that a positive finding of one 
or more of those factors is sufficient to prohibit import. Far 
greater statutory clarity is required. Would most nonnatives be 
banned if shown there is a likelihood that ``environmental 
conditions suitable for the establishment or spread exist 
anywhere in the United States''?
    Marine organisms would be banned in Kansas because they 
might become established in Hawaiian waters. A parakeet would 
be banned in Minnesota because it can survive in South Florida.
    Section 4[c] provides for adding species to the list in a 
reasonable time period. Absent inserting a prescribed timeframe 
for action, ``reasonable'' means it simply will not happen.
    Equally troublesome are the prescribed deadlines to 
implement the process. We think they are simply unrealistic. 
History has demonstrated time and again that agencies seldom 
comply with such congressionally mandated timeframes.
    The prohibition and penalties section needs to be revisited 
carefully. Clarity is required since violators face felony 
sanctions.
    The fee-based risk assessment system is fraught with 
problems which will result in rank discrimination, and small 
business just cannot compete. It is an expensive undertaking.
    A clear definition of ``wildlife'' is essential in Section 
11. Some animals, icons of the American family, such as cats, 
are technically nonnative species.
    So, in conclusion, the debate here is not whether invasives 
is a valid issue. We all agree that invasives are a very valid 
concern. The issue on the table is whether this bill provides 
an effective way forward. We need to avoid falling into a 
reactionary crisis mentality that undermines the progress made 
to date, as well as our ability to take strategic steps 
forward. Other industries need to be at this table. This is not 
simply a pet industry issue.
    We look forward to working with your Subcommittee in 
crafting legislation that will serve the public and affected 
industries alike in concert with the National Invasive Species 
Management Plan and Executive Orders calling for that plan. 
Thank you, Madam Chair.
    [The prepared statement of Mr. Meyers follows:]

      Statement of Marshall Meyers, Executive Vice President and 
          General Counsel, Pet Industry Joint Advisory Council

    Madam Chair and members of the Committee, I am Marshall Meyers, 
Executive Vice President and General Counsel of the Pet Industry Joint 
Advisory Council (PIJAC). Thank you for inviting me to submit comments 
on the Nonnative Wildlife Invasion Prevention Act (H.R. 6311).
    PIJAC is a non-profit service-oriented organization comprised of 
members who care about pets and the pet industry. As a national trade 
association, PIJAC represents all segments of the pet industry: 
companion animal importers/exporters/breeders, wholesale distributors, 
product manufacturers, retail outlets, and affiliated hobby clubs, 
aquarium societies, and other industry trade associations. Our members 
serve the 63% of the U.S. households that care for and maintain pets of 
all types, sizes and descriptions: the majority of these pets fall 
within the purview of the regulatory system contemplated in H.R. 6311.
    PIJAC's explicit mission is to:
        ``Promote responsible pet ownership and animal welfare, foster 
        environmental stewardship, and ensure the availability of 
        pets.''
    The pet industry, like several other industries, is dependent on 
the importation of non-native species, most of which are farm raised. 
Pet owners across the U.S. possess a wide variety of non-native species 
in significant numbers. This is not a new phenomenon. For generations, 
people have maintained a wide variety of non-native mammals, birds, 
reptiles, amphibians, and fish as companion animals. Unlike some 
industries dealing in nonnative species, it is not the intent of the 
pet industry or the majority of pet owners to place or release these 
animals into the natural environment.
Background
    PIJAC is well aware of the problems posed by invasive species. Our 
involvement with this issue dates back to the early 1970s when the U.S. 
Fish and Wildlife Service (USFWS) published a proposed list of ``Low 
Risk'' wildlife. Like H.R. 6311, that proposal would have banned all 
wildlife not otherwise appearing on the clean list as being 
``injurious'' (invasive) under the Lacey Act. We challenged that 
approach because (1) it failed to provide science-based support for how 
it classified ``low'' versus ``high'' risk species, and (2) it was 
premised upon broad-based conclusions that all nonnative species were 
per se injurious until proven innocent. We successfully challenged the 
proposed regulatory action by making government officials and 
stakeholders aware of the fact that it placed an untenable burden on 
the trade to ``scientifically prove'' a negative--i.e. the absence of 
harm.
    For many years, PIJAC has been providing leadership on invasive 
species issues, serving as an advisor to and collaborator with numerous 
government agencies. The PIJAC staff serves on various Aquatic Nuisance 
Species Task Force (ANSTF) committees and regional panels, the Invasive 
Species Advisory Committee (ISAC) and a number of State invasive 
species advisory committees or working groups. Additionally, PIJAC 
leads several initiatives and proactive campaigns designed to minimize 
the introduction and impact of invasive species. These campaigns 
reflect a strong collaborative effort between industry, the government, 
and other stakeholders.
    PIJAC believes that effective measures should be in place to reduce 
the risk of the adverse impacts of invasive species. We further believe 
that the appropriate directives for risk management are contained in 
the Lacey Act, the National Invasive Species Management Plan (per 
Executive Order 13112), and several ANSTF initiatives, among others. As 
we have testified previously, the requisite human and financial 
resources have yet to be made available to the relevant federal 
agencies so that they can fully and effectively implement and enforce 
existing policies and programs. Until the government is willing to 
invest in implementation and enforcement of the regulatory measures it 
has already enacted, additional regulations will serve only to cripple 
an already faltering system.
    With regard to H.R. 6311, first and foremost I note that it reckons 
back to a failed, technically flawed approach of the early 1970s. As 
previously mentioned, it imposes on persons interested in importing or 
possessing a species for commercial or non-commercial purposes the task 
of having to scientifically prove a negative--that the species will not 
cause harm or be likely to cause economic or environmental harm or harm 
to human and animal species' health. Simply on the grounds of 
``Statistics 101'' this is unworkable. Absent a crystal ball, it is 
impossible to prove conclusively that no harm has ever nor will ever 
occur at any time, anywhere in the United States.
    Thousands of non-native species have been in the pet trade for 
decades, yet the overwhelming majority of them have never established 
feral populations and even fewer have been demonstrated to have caused 
harm to the environment, economy, or human health. In rare instances 
where former pets have become invasive, the impacts have generally been 
to localized areas in urban and suburban contexts which are already 
heavily impacted by habitat loss and degradation.
    It is, thus, both unnecessary and unrealistic to conduct a risk 
assessment for every non-native species in the pet trade (e.g., more 
than 1600 freshwater fish), let alone those brought in by other 
industries as well.
    While we recognize that the Lacey Act process is inefficient in 
many ways, it is clear to us that this is largely due to the lack of 
capacity both in terms of staffing and funding. Because H.R. 6311 
mandates a far more comprehensive process than currently exists under 
the Lacey Act, it is set up for failure. If enacted as drafted, H.R. 
6311 would force the Fish and Wildlife Service into a managerial 
nightmare. It would have to:
    1.  conduct risk assessments on more than 10,000 species currently 
in trade, many of which are not even scientifically identified to the 
species level let alone extensively studied, and complete those 
assessments in time to meet the statutory deadlines set forth in 
Sections 3 and 4; or, upon failure to do so,
    2.  shut down a number of industries dependent upon nonnative 
species--such as the pet industry, food aquaculture, and sports 
fishing.
    Even if there was ample scientific information available to enable 
the risk assessment process, it is clear that the USFWS would not be 
physically able to complete a sufficient number of species assessments 
given its extremely limited staff and financial resources. It is also 
readily apparent that industries cannot exist on a handful of imported 
species for the short or long-term.
    H.R. 6311 is an overly simplistic approach to a very complex 
problem which involves much more than running a series of risk 
assessments in order to publish a list of approved species. The socio-
economic, as well as biological, issues impact hundreds of millions of 
Americans and a more reasoned approach is needed to address the 
invasive species conundrum.
    I, therefore, urge the Committee to take into careful consideration 
the findings and recommendations of the National Invasive Species 
Management Plan, as well as initiatives of the Aquatic Nuisance Species 
Task Force and numerous state agencies that are dealing with this 
issue. Initiatives under these programs already reflect stakeholder-
inclusive reviews on and recommendations to address the import of live 
organisms in the invasive species context.
    For well over a decade, government and industry have been working 
collaboratively to enhance prevention, improve early detection and 
rapid response, develop screening mechanisms applicable to different 
animal types, identify pathways and pathway related problems, and 
increase public awareness on the importance of not introducing 
nonnative species into the environment. A major component of that 
process is recognizing that screening or risk analysis must be 
carefully constructed to ensure that the analysis is science-based, 
credible, transparent, involves stakeholders, and evaluates and 
promotes viable management policies. In our opinion, H.R. 6311 has the 
potential to jeopardize and set back achievements of the past several 
years.
    For example, the 2001 National Invasive Species Management Plan 
(Plan), was developed through a transparent, science-based, 
stakeholder-inclusive process. It was intended to provide a 
constructive way forward for Federal agencies and partners to minimize 
the impact of invasive species in a manner that was timely, practical, 
and cost-effective. Plan developers concluded that a phased-in 
screening approach was the most effective way to reduce the risk of 
import of potentially invasive species. In the first phase of the 
process, relevant Federal agencies would work with stakeholders to 
screen species proposed for first-time imports into the US. Three years 
later, the second phase would broaden the approach for the systematic 
screening of species already in trade. PIJAC encourages Members of 
Congress to review the Plan, and meet with NISC Policy Liaisons and 
original members of the Invasive Species Advisory Committee (ISAC) in 
order to garner a better understanding of the process already agreed to 
by Federal agencies and stakeholders, as well as the underlying basis 
for the decisions made--such as the lack of scientific data, staff 
capacity, and economic implications.
    If Congress decides to ignore the Plan, then we urge that H.R. 6311 
be redrafted to direct a risk analysis process rather than a risk 
assessment. According to the definitions adopted under the Convention 
on Biological Diversity (and supported by the US), ``risk analysis 
refers to: (1) the assessment of the consequences of the introduction 
and of the likelihood of establishment of an alien species using 
science-based information (i.e., risk assessment), and (2) the 
identification of measures that can be implemented to reduce or manage 
these risks (i.e., risk management), taking into account socio-economic 
and cultural considerations.''
    As evidenced at several recent meetings dealing with screening 
processes and other analytical approaches, it has become abundantly 
clear that such a process is complex and that there is not agreement 
within the scientific community or other interested parties on how to 
deal with this complex problem. Screening is one part of the process; 
risk management and evaluating socio-economic issues and other benefits 
is equally important and challenging. We do not believe that this can 
simply be resolved via legislation mandating criteria that needs to be 
subject to scientific and legal scrutiny. That should be left to the 
regulators.
    Unless socio-economic and cultural considerations are adequately 
accounted for in this process, numerous domesticated animals (e.g., 
domestic cats and livestock) are likely to qualify for the ``black 
list'' as there is considerable scientific data to indicate that these 
nonnative wildlife species (as currently defined by H.R. 6311) have 
caused substantial economic harm when they become feral. Furthermore, 
there are already management measures in place for some species that 
would reduce the risk of invasiveness. For example, ferrets that are 
spayed/neutered cannot establish viable populations. Finally, in the 
current economic environment, Congress must carefully consider both the 
financial costs and benefits of imported species. The loss of certain 
high-income fish, for example, could result in the collapse of the 
entire ornamental fish industry and have significant repercussions for 
product manufacturers, distributors, and retailers throughout the 
country.
    Understanding the broad biological and socio-economic implications 
of developing lists of approved and unapproved wildlife species, 
countries such as Australia and New Zealand explicitly employ risk 
analyses. Reference materials for their programs are readily available 
on the Web.
    The following comments address key sections of H.R. 6311.
Risk Assessment Process (Section 3)
    PIJAC questions the advisability of the Congress mandating specific 
criteria that the Secretary must factor into the Department's 
assessment protocols. As evidenced by the work of the Invasive Species 
Advisory Committee and the ANSTF. The Department's scientists need 
flexibility to design analysis protocols depending on the taxa, the 
purpose of introduction, and other relevant factors. A ``one-size-fits-
all'' set of factors will not enable an effective result.
    For example, it is not technically feasible to identify some 
species in trade--including some very high volume and income species--
to the ``species level'' (Section 3(b)(1)). Many armored catfish, a 
staple of the aquaria trade, are only identified with ``L'' numbers; 
they have not been scientifically described. Nor is it clear how the 
prescribed process would deal with taxonomic name changes in cases in 
which molecular studies indicate that the classifications should either 
be ``split'' or ``grouped.'' If the scientific classification changes, 
would the risk analysis have to be repeated for the affected species? 
Furthermore, how would agency staff address the fact that some 
countries (particularly developing, exporting countries) are using 
different taxonomic names (often ``old'' versus ``new'') than others?
    Section 3(b)(2) requires information on the ``geographic source of 
the species and the conditions under which it was captured or bred.'' 
Is this section designed to identify the evolutionary origin of the 
species, the geographic location of its initial export, or the last 
country of export before entering the United States? What is the 
relevance of analyzing the ``conditions under which it [the species] 
was captured?'' Is this introducing an animal welfare element into the 
risk analysis process?
    Section 3(b)(3) incorporates terms such as ``established,'' 
``harm'' and ``spread'' without the benefit of definitions. Is the 
USFWS free to adopt its own definitions? Does ``established'' mean a 
self-sustaining reproducing population? Is an analysis as to benefit 
versus harm part of the evaluation?
    Sections 3(b)(4) through (10) incorporate the subjective, non-
scientific standard of ``likelihood'' for determining the probability 
that a species will become established, spread, do harm, or be 
accompanied by a ``pathogenic species, parasite species, or free living 
species...'' Does ``likelihood'' connote some level of probability--a 
specific statistical term--or is it merely a subjective conclusion that 
something might establish, spread, cause harm or be accompanied with 
parasites? The mere presence of parasites or other associated organisms 
is not necessarily problematic. Furthermore, an extremist could argue 
that any species has some probability of establishing somewhere in the 
U.S. given the right ecological conditions and propagule pressure. If 
that probability in scientific risk-based terms presents a negligible 
risk, how is it assessed under the ``likelihood'' doctrine? What 
methods would be used to determine or score ``likelihood?''
    Section 3 sets forth specific factors that must be taken into 
account in the USFWS's evaluation of risk but offers no direction as to 
the manner in which such factors must be evaluated. A reasonable 
inference, however, is that a positive finding of one or more of those 
factors is sufficient to prohibit import. Far greater statutory clarity 
is required. Is the USFWS compelled to list a species as prohibited in 
any case in which some combination of these factors are determined in 
the affirmative? Is the mere absence of biological data, because it 
does not exist, sufficient to compel the USFWS to ban a species that 
has been imported in the millions or farmed in this country for 30 to 
50 years absent evidence of invasiveness?
    Based on such a standard, common goldfish, many tropical fish, and 
myriad common species of birds and reptiles would be banned from the 
entire United States if it could be demonstrated that under Section 
3(b)(4) there is a likelihood that ``environmental conditions suitable 
for the establishment or spread...exist anywhere in the United 
States.'' Marine organisms would be banned in Kansas because they might 
become established in Hawaiian waters; a parakeet would be banned in 
Minnesota because it could survive in south Florida. Absent inclusion 
of some qualifying language, the factors become mandates and mandates 
become prohibitions even though a likely adverse impact is never shown.
Transparency (Section 3(d))
    Transparency is critical to the credibility of the process being 
mandated by this bill. Stakeholder involvement at all stages of the 
process is essential to attain the level of transparency recommended by 
the National Academy of Sciences' National Research Council. PIJAC 
urges that language be inserted making it abundantly clear that there 
is stakeholder involvement at all stages of the process. Furthermore, 
language should direct that the persons making the management decisions 
are not the same people conducting the risk assessment(s).
List of Approved Species (Section 4)
    The concept of assessing first-time introductions surfaced during 
the ANSTF ``Intentional Introductions Policy Review'' in the mid-1990s. 
In a report to Congress in 1994, the ANSTF focused on two main 
concerns:
    1.  ``the need to make ecologically credible decisions; and
    2.  the need to strike a balance between greater risk reduction and 
accommodating current activities and economies that depend on the use 
of nonindigenous species.''
    The ANSTF went on to conclude that:
    1.  ``to the maximum extent possible, the decisions should be based 
on ecosystem considerations; and
    2.  the recommendations should generally apply only to new 
introductions.'' (emphasis added)
    The ANSTF further recommended establishing a Federal permit system 
for first-time imports coupled with a credible, science-based review 
process, and called for improvements in implementing the Lacey Act to 
include, inter alia, expediting the injurious species listing process, 
fostering compliance through clearer listings, and initiating a review 
system for species not listed. The ANSTF also made a series of 
proactive recommendations, including adoption of good business 
practices through codes of conduct promoting ``continued commercial 
operations in a manner that is compatible with the conservation of 
natural ecosystems'' such as education and public outreach programs 
targeting invasive species issues.
    The National Invasive Species Plan incorporated that concept 
following lengthy deliberations among the Invasive Species Advisory 
Committee (ISAC) and National Invasive Species Council (NISC). The 
Plan, at page 32, specifically calls for
        ``...the development of a risk-based screening process for 
        intentionally introduced species in a series of steps or 
        phases. During the first phase a screening system for first-
        time intentional introductions will be developed...The 
        screening system will then be modified...during the second 
        phase to deal with species already in the U.S.''
    Several iterations of bills amending the National Aquatic Invasive 
Species Act (NAISA) incorporated the establishment of a ``catalog'' of 
organisms in trade. That was to be accomplished as a collaborative 
effort involving the Fish and Wildlife Service and concerned 
stakeholders. The language which subsequently appeared in at least five 
bills in the House and the Senate was agreed to by a diverse group of 
stakeholders including various nongovernmental environmental 
organizations. Any species not appearing on that list would be subject 
to a screening process as a first-time introduction. The screening 
process would evaluate the ``probability of undesirable impacts.''
    That legislation did not exempt species appearing in the catalog 
from risk assessment and possible listing under the Lacey Act. Rather, 
the catalog was to ensure that species that have been in trade with no 
apparent ill effects would not suddenly be prohibited absent a science-
based risk analysis. This was recognized as the only reasonable and 
feasible method of addressing thousands of species that have long been 
imported into the United States and for which no adverse consequences 
have been identified. Moreover, a number of species in trade have been 
captive raised within the United States for decades with no 
demonstrated detrimental impacts.
    Section 4(c) provides a mechanism to add nonnative wildlife species 
to the approved list and requires the Secretary to make a determination 
``in a reasonable period of time'' in accordance with the Section 3(b) 
factors. PIJAC urges the insertion of a specified time frame within 
which the USFWS shall make such determinations, similar to time limits 
imposed under other laws. If history is prologue, there is a high 
likelihood that few new additions will be made to the list absent a 
statutorily imposed deadline, and perhaps not even then.
    When a list is published will there be any grace period for an 
importer or person possessing listed species already in the United 
States to revamp their operation(s) and ethically dispose of animals in 
their possession or do they become violators of this Act, as well as 
the Lacey Act, overnight? The perception, alone, that this would be the 
case is likely to motivate frightened individuals to abandon animals. 
In short, it could facilitate the introduction and establishment of 
numerous non-native species.
Deadlines (Sections 3(e) and Section 4(a)(1)).
    The prescribed timeframes to implement H.R. 6311 are unrealistic. 
According to Section 3(e)(1), the proposed regulations and an initial 
list of approved species must be published within two years of 
enactment of HB 6311. The final regulations, the initial list of 
approved species and a notice of the list of prohibited species must be 
published, pursuant to Section 3(e)(2), no later than 30 days before 
the date on which the Secretary begins assessing the species. The 
assessment process must start within 37 months of H.R. 6311's enactment 
(Section 3(e)(3). Yet Section 4(a)(1) mandates that the list of 
approved species be finalized and published no later than 36 months 
following enactment. How is this possible?
    History has demonstrated that agencies are often unable to comply 
with such mandated timeframes. Will the USFWS be provided adequate 
appropriations to fund this initiative? How will the USFWS be able to 
develop regulations, publish them in the Federal Register seeking 
public comment, review and finalize the regulations, seek and obtain 
OMB clearance and publish final rules and lists within such brief 
timeframes? To date, the USFWS has required an average of four years to 
accomplish such a process for a single species proposed for injurious 
wildlife listing.
    The NISC and ANSTF approaches referenced earlier alleviate the 
USFWS' need to expend significant effort assessing species documented 
as being in trade and allowed it to concentrate on first time 
introductions as well as go back and selectively review and assess any 
of the species in the catalog. The USFWS was not subjected to a series 
of artificial time frames it could not meet. We recommend a return to 
the previously agreed upon Catalog approach as a more workable 
mechanism--a mechanism that is science-based, measurable, transparent 
and implementable.
List of Unapproved Species (Section 5)
    Section 5 calls for the Secretary to publish a list of nonnative 
wildlife species prohibited or restricted from entering the United 
States. The list would incorporate those species listed under the Lacey 
Act as well as any other species added pursuant to this Act. Is this 
intended to be an amendment to the Lacey Act?
    Since violations of the proposed Act would also constitute a 
violation of the criminal provisions of the Lacey Act, full and 
complete lists of what is legal and illegal should be published by the 
USFWS to ensure adequate notice of what constitutes a violation of law. 
Due process calls for no less. To ensure proper notice and avoid 
confusion, the approved and unapproved lists should contain every 
species in the animal kingdom to ensure that the public is aware of 
what is illegal as well as legal inasmuch as they are subject to a 
strict liability criminal statute.
Prohibitions and Penalties (Section 3(f) and Section 6(3), (5) and 
        (6)).
    Interestingly, a person already engaged in the captive propagation 
or farming of a species in the United States that does make the 
``approved list'' finds him or herself in the rather awkward position 
of being subject to conflicting provisions of the law. According to 
Section 3(f), the ``Act shall not interfere with the ability of such 
people to possess an individual animals of a species that was imported 
legally.'' Yet a close reading of the prohibitions in Section 6 raises 
significant issues which will undoubtedly compel millions of frightened 
people to kill or abandon their pets. Once a species appears on the 
``unapproved list,'' the imaginary grandfather clause of Section 3 
apparently evaporates because it would be illegal to breed, possess, 
sell, barter any nonnative species appearing on the Section 4 
prohibited list!
    The prohibition section will significantly impact not only the pet 
industry, but also food aquaculture, sport fisheries, the bait 
industry, and the livestock industry. These sections need to be 
revisited.
Fees (Section 8)
    The establishment of a fee-based risk assessment system is fraught 
with problems. Apart from trying to ascertain how the amount of the 
fee(s) will be determined, this system will result in rank 
discrimination whereby small business will no longer be able to 
compete. It places the entire financial burden on larger companies 
willing to assume the financial risk of going through a nondescript 
assessment and listing process. This becomes a significant burden if 
the importer imports hundreds or thousands of species for which there 
is sketchy biological or scientific data, yet the species has been in 
trade in extremely large numbers for many, many years absent adverse 
impacts.
    Unlike other areas of the economy where fees are assessed to seek 
government approval of a patented or proprietary drug or chemical 
product, importers of nonnative species would be funding an assessment 
not only for themselves but for all of their competitors, and even 
other industries that trade in the same species for other purposes. How 
will the USFWS determine which importer is selected to bare the costs? 
Risk assessments and risk analyses are expensive undertakings. Will the 
fees be $10,000, $25,000, $50,000 or $100,000 or more per assessment 
per organism? How will the figures be determined and consistently 
applied?
Definitions (Section 11)
    Failure to provide a clear definition of ``wildlife'' further adds 
confusion to H.R. 6311. As crafted, ``nonnative wildlife species'' 
includes ``any species that is not a native species.'' The definition 
goes on to specifically cover the entire animal kingdom including 
insects, mollusks, crustaceans, arthropods, coelenterates, and all 
other invertebrates.
    By this definition, many species of animals that are longstanding 
staples of the pet industry, food aquaculture, sports fishing, and 
livestock would have to go through the process to ascertain if they 
pose the ``likelihood'' of harming the environment or other factors set 
forth in H.R. 6311. These would include cattle, cats, dogs and numerous 
animals considered ``domesticated.'' A clear definition of ``wildlife'' 
is essential.
Conclusion
    On behalf of the Pet Industry Joint Advisory Council (PIJAC), thank 
you for providing us an opportunity to share our thoughts and concerns 
regarding H.R. 6311. Despite our reservations about H.R. 6311, we 
remain committed to working with your Subcommittee to address this 
important environmental issue.
    We believe that we have raised a number of valid issues regarding 
H.R. 6311 and its potential for shutting down several industries 
dependent on nonnative species. Additionally, it could end up 
encouraging rather than preventing the release of nonnative animals.
    We respectfully suggest that the bill as currently crafted sets the 
USFWS up for failure. Its whole approach is one that defies practical 
implementation, and demands exorbitant resources. In short, it would 
not visit upon the public the beneficial results to which it aspires. 
The measure demands the nearly impossible task of conducting thousands 
of scientifically valid risk assessments in a short time-frame, and 
presumes that all species subject to these assessments shall be 
prohibited pending a contrary finding, even though no evidence of 
adverse impact exists. Unlike a risk analysis, it does not explicitly 
account for socio-economic and cultural considerations. The bill 
assigns such an impossible task to an agency woefully bereft of 
resources for the job, and holds hostage several vital sectors of a 
challenged economy.
    We believe that there is a better way to achieve a superior result. 
To that end, we recommend that a working group comprised of various 
stakeholders be convened to offer recommendations on the most effective 
method for moving the screening process forward, as called for in the 
National Invasive Species Plan. A number of key industries need to be 
at the table. This is not simply a pet industry issue. A number of 
pathways have proven to be far more significant vectors of nonnative 
species than pets.
    We look forward to working with your Subcommittee in crafting more 
realistic legislation that will serve the public and affected industry 
alike in concert with the National Invasive Species Management Plan and 
the Executive Orders calling for such a plan.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Meyers, for your 
testimony, and, finally, our final witness, Mr. Riley. I invite 
you to present your statement.

STATEMENT OF LAWRENCE M. RILEY, DIVISION COORDINATOR, WILDLIFE 
     MANAGEMENT DIVISION, ARIZONA GAME AND FISH DEPARTMENT

    Mr. Riley. Thank you, Madam Chair. I am here on behalf of 
the Association of Fish and Wildlife Agencies. It is a quasi-
governmental organization that brings together the state 
wildlife agencies and wildlife authorities, as well as 
territorial Canadian provinces, the government of Canada, and 
the government of Mexico.
    I would like to thank you and the Committee for your 
leadership in bringing this legislation forward at this point.
    The association is supportive of H.R. 6311, and we find the 
bill to be well conceived and pretty well organized. We 
especially applaud the inclusion of language in Section 3 that 
requires consultation with the states and, in Section 10, which 
recognizes the states' authority to exercise more stringent 
regulations.
    The bill, however, could be improved in a few specific 
areas, and the association would very much like to work with 
you and the Committee to address those areas. I will touch on 
those very briefly.
    We believe, in general, that the mechanism described in 
Section 3 of the bill establishes a much-needed framework to 
determine risk in advance of importation, including process 
transparency and critical consultation with state authorities.
    Section 3 of the act requires the Secretary of the Interior 
to carefully consider the identity of organisms. This is a new 
challenge. With the advance of science, we have not only new 
tools but also new challenges in identifying organisms that are 
arising and will arise in the future. These advances should be 
considered. The act identifies things like viable eggs as items 
that can be regulated. It does not, however, address other 
gametes, such as milt or sperm, which is more readily preserved 
for transportation, storage, and later use in the creation of 
hybrids or like individuals.
    Likewise, the act does not identify or address treatment of 
hybrid wildlife, transgenetic animals, or genetically modified 
organisms. All of these should be considered in some manner.
    We believe that the considerations in Section 3, the 
``consideration factors,'' will differ greatly from within the 
contiguous United States to the island states and territories 
and to Alaska, and, thus, such risk assessment may benefit from 
regional consideration. The challenge is how to undertake that 
with a national listing process.
    We believe this highlights the importance of the 
partnership and collaboration among the states and the 
Executive Branch in preventing nonnative wildlife invasions.
    The provisions of Section 10 of the act, ensuring that the 
states can maintain and establish prohibitions stricter than 
those established in Federal regulation are critical.
    Additionally, we support the idea in Section 3 of 
evaluating the likelihood of parasites, pathogens, diseases in 
free-living organisms accompanying species proposed for 
importation.
    But the thresholds of these components of risk assessment 
must certainly be scientifically based, but they must also 
reasonably evaluate the potential transmissibility of parasites 
and disease agents to humans, resident wildlife, livestock, 
pets; must evaluate the potential for establishment of 
unplanned hitchhikers; and must fairly consider the reasonable 
mitigation of those risks in making determinations.
    The bill does consider the complexity of issues involved in 
regulating the possession of wildlife. While Section 3[f] of 
the bill addresses animals imported prior to prohibition of 
importation and allows persons to possess animals that would 
later be identified as prohibited, the details of the 
importation or acquisition are rarely held by the owners and 
may not always be traceable. So some provision should be 
provided to allow folks to disclose or declare their pet at the 
time or at the time period before an animal being listed is 
unapproved.
    Section 8 of the act sets forth a system where proponents 
would reasonably be assessed the cost of determination, but 
there are challenges in this financing strategy. While we 
generally favor user-pay programs, please consider these three 
challenges.
    First is the challenge of program establishment during the 
first 37 months of operation, the second is the challenge of 
long-term program sufficiently, and perhaps a third, less 
immediately apparent, challenge, but a critically important 
one, is inspection and enforcement. The Department of the 
Interior and other Federal agencies are already stretched, and 
this bill will place further demands upon the departments to 
inspect and enforce.
    We believe the best way to implement this framework 
envisioned by the bill is to be unified across jurisdictions. 
Assessing risk and regulating importation and possession of 
wildlife is a role that the states hold in common with the 
Federal government, and the two systems must work in concert.
    H.R. 6311 ensures collaborative law enforcement by allowing 
state peace officers to take into possession unapproved 
animals, but consideration should be given to protecting those 
officers enforcing both this act, as well as state 
prohibitions, and to protect those employees, contractors, 
agents, or designees that may hold and care for those animals 
under a chain of evidence or custody until final disposition of 
the animal can be determined.
    I appreciate the opportunity to provide you with these 
thoughts.
    [The prepared statement of Mr. Riley follows:]

           Statement of Lawrence M. Riley, on behalf of the 
               Association of Fish and Wildlife Agencies

    Thank you, Madam Chair. I am Lawrence Riley, Wildlife Management 
Division Coordinator of the Arizona Game and Fish Department, and Vice 
Chair of the Invasive Species Committee for the Association of Fish and 
Wildlife Agencies (Association). I appreciate the opportunity to share 
with you the Association's perspectives on H.R. 6311, the Nonnative 
Wildlife Invasion Prevention Act. The Association was founded in 1902 
as a quasi-governmental organization of public agencies charged with 
the protection and management of North America's fish and wildlife 
resources. The Association's governmental members include the fish and 
wildlife agencies of the 50 United States and U.S. Territories, 
Canadian Provinces, and federal governments of the U.S., Canada, and 
Mexico. All 50 states are members. The Association has been a key 
organization in promoting sound resource management and strengthening 
federal, state, and private cooperation in protecting and managing fish 
and wildlife and their habitats in the public interest. The cross 
jurisdictional nature and North American perspective of the Association 
is of particular relevance in that nonnative wildlife, introduced 
either intentionally or accidentally, respect no boundaries and are an 
issue of local, State, regional, national, and international concern.
    The State fish and wildlife agencies have broad statutory authority 
and responsibility for the conservation of fish and wildlife resources 
within their borders, both native and nonnative. Because of our 
responsibility for and interest in the conservation of fish and 
wildlife resources, state fish and wildlife agencies have vested 
concerns in the prevention and control of unwanted and unplanned 
introductions of nonnative species that can cause damage to our 
wildlife resources, ecosystems, the economies of our states and the 
nation, or pose risks to animal or human health. To that end, the 
Association maintains a standing committee on Invasive Species and has 
been active with the Aquatic Nuisance Species Task Force (ANSTF) 
virtually since its inception as an ex officio member, and is also 
represented on the Invasive Species Advisory Committee.
    Madam Chair, on behalf of the Association, I would like to thank 
you for your leadership in bringing forward this important legislation. 
As a result of the Association's roles and involvement in planning for 
Invasive Species, we are supportive of H.R. 6311. We find the bill to 
be well-conceived and well-organized. It is consistent with our 
Invasive Species Committee's principles for federal legislation and is 
aligned with strategies of the Aquatic Nuisance Species Task Force and 
the Invasive Species Advisory Committee. We especially applaud the 
inclusion of language in Section 3 (c) that requires consultation with 
the States as well as with the ANSTF and the National Invasive Species 
Council, and in Section 10 (a-b) which recognizes States' authority to 
exercise more stringent regulations. In addition, we are supportive of 
the establishment of fees to create a Nonnative Wildlife Invasion 
Prevention Fund to manage the costs of assessing risk. Still, the 
Association believes that the bill could be strengthened in a few 
specific areas; we would be glad to work with you and your staff to do 
so. We present here suggestions for your consideration.
Risk Assessment Considerations
    The application of a Risk Assessment process for importation of 
nonnative wildlife into the United States, if conducted in a fair, 
equitable, and transparent manner, is a key element of managing the 
challenges that Invasive Species pose to wildlife, ecosystems, 
economies, and human and animal health. The Association recognizes that 
some nonnative species can be valued assets as a component of wildlife 
resources, as economic assets for agriculture or forestry, as subjects 
of educational displays and scientific research, and in some 
circumstances as pets. In a number of cases, State wildlife agencies 
manage introduced species as components of a State's wildlife 
resources. We believe that the mechanism described in Section 3 of H.R. 
6311 establishes the much-needed framework to determine risk in advance 
of importation, including process transparency and critical 
consultation with the State authority, and provides promise of making 
reasoned determinations that consider and balance potential risks and 
benefits from import.
    Section 3 (b) (1) of the Act requires the Secretary of the Interior 
to carefully consider ``the identity of the organism to the species 
level, including to the extent possible more specific information on 
its subspecies and genetic identity.'' This is an important provision, 
as the subspecific and genetic characteristics of species can greatly 
contribute to the invasive (or non-invasive) nature of an organism. 
That said, with the advance of science, new challenges in identifying 
organisms are arising and will arise in the future. To the extent 
possible, these advances should be considered in regulations that 
emerge from this Act. The Act identifies viable eggs as items that can 
be regulated. It does not identify gametes other than eggs, such as 
milt or sperm--which is more readily preserved for transportation and 
storage. Likewise, the Act does not identify or address treatment of 
hybrid wildlife, transgenic animals, or genetically modified organisms. 
While it may not be necessary to address them specifically in 
legislation, the manner in which such organisms would be addressed 
should be considered as part of the development of plans to implement 
resulting regulations.
    We also believe that the considerations in Section 3 (b) (4-9) will 
differ greatly from within the contiguous United States to island 
States and Territories and to Alaska; and thus such risk assessment may 
benefit from regional considerations. The variety and breadth of 
ecosystems within the United States presents a large spectrum of 
vulnerabilities. This highlights the importance of the partnership 
among the States and the Executive Branch in preventing nonnative 
wildlife invasions. The provisions of Section 10 of the Act, ensuring 
that States can maintain and establish prohibitions stricter than those 
established in federal regulation, are critical. Specifically, ensuring 
that a species otherwise ``Approved'' for importation into the United 
States under federal regulation can still be prohibited from 
importation into a particular State based upon that State's laws and 
regulations, is a an essential companion to federal regulations 
resulting from this bill.
    In addition, we support the idea in Section 3 (b) (10) of 
evaluating the likelihood of parasites, pathogens, diseases, and free-
living organisms accompanying species proposed for importation as part 
of risk assessment. Realistically, most wild animals are likely to 
carry some parasites or pathogens, and almost any shipping strategy may 
pose a risks with regard to free-living hitchhikers. The threshholds of 
these components of risk assessment must be scientifcally-based; must 
reasonably evaluate the potential transmissibility of parasites or 
disease agents to humans, resident wildlife, livestock, and pets; must 
evaluate the potential for establishment of unplanned hitchhikers; and 
must fairly consider the reasonable mitigation of those risks through 
handling and shipping procedures.
    H.R. 6311 appropriately considers the complexity of issues involved 
in regulating the possession of wildlife, particularly in Section 6. 
However, while Section 3 (f), Animals Imported Prior to Prohibition of 
Importation, allows persons to possess animals that were ``imported 
legally even if such species is later prohibited'' from importation, 
however, the details of importation or acquisition may not always be 
traceable in the case of nonnative wildlife kept legally (per 
individual State and/or local statutes and regulations) as pets in the 
United States. Thus it may be important to include considerations for 
pet owners to declare their pet at or during a period before the time 
of listing as ``Unapproved'' and thus maintain posession of nonnative 
pets (if legal in their state of residence) even following prohibition, 
with the understanding that the provisions regarding eggs or progeny 
stated in Section 6 (a) (1) will apply to that animal. Because State 
Law Enforcement personnel are often involved in the regulation of 
wildlife kept as pets, such a provision could reduce the law 
enforcement burden for the States.
Financing Nonnative Wildlife Invasion Prevention
    Section 8 of H.R. 6311 sets forth a system where proponents for an 
importation would be reasonably assessed the costs of risk assessment 
and public process for making determinations. State wildlife agencies 
have long relied upon user-pay, user-benefit approaches to wildlife 
conservation. It is a tried and true strategy. However, there are 
challenges that the Subcommittee should consider in adopting this 
strategy for this program.
    The first challenge is program establishment during the first 37 
months of its operation. The legislation does not address 
appropriations to initiate program development and risk assessment. 
Therefore, if federal agencies are intended to reallocate resources to 
initiate this program, the Association would like to work with you and 
your staff to ensure that such a reallocation would add to, rather than 
replace, existing federal activities or missions critical to the 
States.
    The second challenge is program sufficiency. At this point of 
development, it is unclear what federal cost would be for a user 
requesting evaluation of a species for listing, either as an 
``Approved'' or and ``Unapproved'' species. We assume that the cost 
would not be trivial. While these factors will certainly be weighed 
during the process of regulation development as a result of this bill, 
having an understanding of potential costs and reasonable charges to 
requestors would help us gauge the potential sufficiency of the program 
envisioned by this Act. A less immediately apparent federal cost, but a 
critically important one, is inspection and enforcement. We believe 
that the Department of Interior's capacity is already stretched to 
inspect incoming deliveries of live wildlife, and the process 
improvements described by this bill will place further demands upon the 
Department to inspect and enforce. Workforce needs for inspection and 
enforcement should be considered as Congress develops a financing 
strategy for this effort.
    Prevention is, of course, always the most cost-effective method of 
addressing potentially invasive species, and this bill is an excellent 
step in the right direction. This bill should be viewed as one step in 
development of a comprehensive approach that will included provisions 
for, and funding toward, Early Detection and Rapid Response if 
``Unapproved'' species are detected in the early stages of 
establishment in the wild. Further, a comprehensive approach would 
enlist the assistance of States through implementation of their 
existing Aquatic/Terrestrial Invasive Species management plans and 
parther with State Wildlife Law Enforcement to extend the effectiveness 
of federal enforcement.
Building Unified Lines of Defense
    H.R. 6311 provides a framework to address incursions of potentially 
invasive species so that their importation can be rationally controlled 
and losses to our natural resources and economies can be avoided. The 
best way to implement this framework is to be unified across 
jurisdictions. The proposed legislation to utilize scientifically 
credible and defensible risk assessment to identify animals 
``Approved'' for importation into the United States is a reasonable 
approach to regulating the risks posed by animals that can, once 
introduced, directly affect the ecosystems in the United States.
    Assessing risk and regulating importation and possession of 
wildlife is a role that the States hold in common with the Federal 
Government. The Federal role is focused on our national boundaries and 
importation into the United States, while the States regulate the 
possession, sale or exchange of wildlife resources into and within 
their borders. The two systems must work in concert. Because our roles 
are allied and intertwined, close consultation and coordination among 
the States and between the State and Federal approaches is essential. 
Recognizing the role of the States in Section 3 of the bill is a key 
provision to ensure coordination and collaboration, while Section 10 
appropriately recognizes the role of States in establishing laws and 
regulations and does not preempt the States' authority to be more 
restrictive.
    H.R. 6311 ensures collaborative law enforcement between federal and 
state jurisdictions in Section 6(c) by allowing State peace officers to 
take into possession any ``Unapproved'' animals. However, consideration 
should be given to protecting those officers enforcing this act as well 
as State prohibitions, and to protecting those employees, contractors, 
agents, or designees that may hold and care for those animals under a 
chain of evidence or custody until final disposition of the animals can 
be determined.
    Finally, it is important to remember that the United States shares 
borders with neighbor nations, thus building our lines of defense in 
collaboration with our neighbors is a prudent strategy. The 
Association, whose membership includes the Canadian Provinces and 
federal government of both Canada and Mexico, is committed to working 
through our members to continue to align our approaches. This Act would 
provide a strong foundation for a North American strategy to reduce the 
occurrences of unwanted and unplanned invasions of nonnative wildlife.
Concluding Remarks
    Madam Chair, the Association believes that H.R. 6311 as introduced 
is an excellent start in providing a mechanism for risk assessment of 
nonnative wildlife species proposed for importation, and in turn 
reducing opportunities for such species to become problematic or 
invasive. We applaud you for your efforts to raise this important 
legislation. However, given the attention to this issue, and the 
management burden of nonnative wildlife invasions in the States, the 
bill as currently drafted could be strengthened to be more 
comprehensive in its treatment of preventing nonnative wildlife 
invasions. Again, the Association would very much like to work with 
your staff, the Subcommittee, and the Executive Branch as this bill is 
refined and moves toward implementation by federal wildlife authorities 
in the Department of the Interior.
    Again, thank you for providing us with the opportunity to testify 
on this legislation.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Riley, for your 
support of the legislation, and I want to thank all of the 
witnesses.
    We will begin. I have a few questions here, and, hopefully, 
my colleagues will return from voting and will join me also 
with a few questions.
    The most important question I have is to Mr. Cravalho. Are 
there any brown tree snakes in Hawaii?
    Mr. Cravalho. Other than the eight finds that we have had 
since 1984, we are unaware of any brown tree snakes in Hawaii.
    Ms. Bordallo. When you say ``eight finds,'' is that a 
single snake?
    Mr. Cravalho. We have had, over a period from 1984 to 1998, 
eight finds of brown tree snakes. It would entail not only live 
specimens but dead specimens as well.
    Ms. Bordallo. So when you say a ``find,'' is that a single 
snake, or is it a colony?
    Mr. Cravalho. A single find.
    Ms. Bordallo. A single find. You are very fortunate. I do 
know that a lot of the funding that goes to Hawaii for 
eradication, it is the eradication of the snakes. Isn't that 
correct?
    Mr. Cravalho. Currently, the funding that I am aware of 
that we obtain from the Office of Insular Affairs under U.S. 
DOI is about $210,000. That money is utilized by our Detector 
Dog program, monitoring at least 98 percent of commercial 
flights that come in from Guam, as well as maritime ships, and 
about 96 percent of our military flights that arrive into 
Hawaii are also monitored by our dog program.
    Ms. Bordallo. So how about DoD? Is there any funding from 
there?
    Mr. Cravalho. I am unaware of any DoD funding that is 
forwarded to the State of Hawaii.
    Ms. Bordallo. Another I have is, Section 10[a] of my bill 
allows stricter approaches by states and territories to 
nonnative wildlife imports. Why would you say this provision is 
important to Hawaii?
    Mr. Cravalho. It is very important to the State of Hawaii. 
For example, being an island state, as Guam is as well, we have 
natural barriers that prevent things from coming into the area, 
and, as such, we need to ensure that what can come into our 
part of the world is not going to be a problem to Hawaii.
    It may not be a problem for the continental U.S. and the 
State of Alaska, but Hawaii has a very unique situation, being 
in the middle of the Pacific, and, as such, we would like the 
opportunity to have the potential of being much more stricter.
    For example, snakes in the pet trade could be done here in 
the U.S. mainland. In Hawaii, all snakes are strictly 
prohibited from entry into the state, except for two males, 
nonvenomous snakes that are allowed for the zoo for exhibition, 
as well as for the State of Hawaii bringing in four sterile, 
male brown tree snakes, which our Detector Dog program can use 
as a target to ensure that they are finding snakes.
    So it is essential that states can reserve the right to be 
a lot stricter than existing law under 6311.
    Ms. Bordallo. Thank you. Another question is, what is the 
average length of time it takes to list a species in Hawaii 
once a permit application is received?
    Mr. Cravalho. Once a permit is received, it is reviewed for 
completeness. Upon acceptance of the permit, it may take 
anywhere from six months to one to two years to get an animal 
listed. You have to imagine that the listing process is an 
ongoing process throughout the year, and we try to incorporate 
all of these changes throughout the year, with one rule 
revision on an annual basis.
    Ms. Bordallo. And then I have a final question. Can you 
give an example of an animal on the list of restricted animals 
that requires a permit for both import into the States and 
possession, and explain why it is given that listing?
    Mr. Cravalho. OK. The restricted listed animals are allowed 
into the state for import, as well as possession. A good 
example for that would be grass carp. Grass carp is allowed 
into the State of Hawaii for algae control, as well as 
aquaculture production for food. It is a requirement for a 
permit to be issued that the facility that is holding this 
animal is biosecure. In other words, the animal cannot escape 
into natural environs and will not pose a problem or introduce 
any parasites or pathogens with the introduction.
    So prescreening processes from the source would be a 
requirement prior to entry, and anyone touching that animal in 
the State of Hawaii would then require a permit for possession 
as well.
    So, for example, I, as the aquaculture producer that brings 
the animal into the state initially, would need an import 
permit, and then if I was to sell that product as a live 
product to another facility for usage, then that facility would 
require the same inspection requirements for a biosecurity 
facility, and then a permit would be issued by the Department.
    Ms. Bordallo. Thank you very much.
    Dr. Gaden, are the factors to be considered in a risk-
assessment process listed in Section 3[b] appropriate to 
evaluate nonnative wildlife species? Would you say that?
    Mr. Gaden. I would say so, and it is a good list. As I 
stressed in the spoken statement, the list does include factors 
that you should consider. Is it going to be harmful to an 
ecosystem potentially in the United States? Has it caused harm 
in other places?
    What I particularly like on the list, as well as the 
pathogen question, ``Is it likely to bring in a pathogen?'' 
because the sort of new frontier of invasive species problems 
in the Great Lakes Basin seems to be, among other things, 
viruses and pathogens, and, as far as I know, this is the first 
piece of legislation that explicitly includes that, though 
there are entities looking at whether ballast water brings in 
pathogens and transports them around.
    So, yes, I think this list is appropriate. I also 
understand that there has been considerable input on these 
types of factors on the appropriateness of them from outside 
entities who have reviewed them and discussed this at length 
over the years.
    We are not starting from square one here. There has been 
quite a bit of discussion about these kinds of factors that you 
would use to evaluate it.
    I also think that, while we have considerable faith in the 
Fish and Wildlife Service, as they would develop the regime to 
assess the organisms, to actually establish a suitable process 
that would take these factors into account and have it be 
transparent, peer reviewed, and all of the things, 
scientifically based, that need to occur for it to be a 
meaningful process.
    Ms. Bordallo. I have another question. Why do species in 
trade need to be evaluated under a risk-assessment process?
    Mr. Gaden. The problem on the most basic level right now is 
that we do not do it. There are problems when species enter new 
ecosystems. They do not have predators. They sometimes can find 
the ecosystems to be very suitable. Not every species or 
critter that gets into a new ecosystem will take hold, will 
reproduce or spread and cause harm, but the small percentages 
that do can cause enormous damage, and I use the sea lamprey as 
an example.
    This is a species that came in, not through trade but 
through canals, but the single species alone has cost the 
taxpayers of the United States and Canada more than $300 
million over 50 years to control, and that is one species.
    So we need to be deliberate about what we do when it comes 
to the movement of species, the importation and the trade of 
those species, and we have to be very clear, in our minds, is 
this species going to be a problem? Is it likely to invade, and 
is it likely to cause harm?
    If you are not deliberate about that, and if you do not 
think about that ahead of time, you are taking enormous 
chances. You cannot predict often what that species will do, 
and I would suggest to the Committee that it is far better to 
think about these things ahead of time than to try and, as 
somebody said earlier, close the barn door after the horse has 
left, because you will not be able to control the species, in 
all likelihood.
    In the Great Lakes region, for example, the sea lamprey is 
the only aquatic species that we can control out of hundreds 
that are nonnative species in the basin. So prevention is what 
needs to occur, above everything else.
    Ms. Bordallo. I certainly agree with that. Given the 
devastating floods in the Midwest, is the Great Lakes Fishery 
Commission worried about the escapement of invasive species 
from aquaculture facilities, and could this maybe have been 
prevented?
    Mr. Gaden. In answer to the first question, absolutely. One 
of the species that is causing the region enormous headaches 
right now is Asian carp, actually three species of Asian carp--
black, silver, and bighead carp--which escaped when there were 
devastating floods back in the nineties from the southern 
United States.
    These carp, after they escaped, spread throughout the 
Mississippi River system. They became, in some places, 97 
percent of the biomass found; put commercial fishermen out of 
business. Their nets are chocked full of these Asian carp. They 
grow to enormous sizes, and if they get into the Great Lakes, 
which is connected artificially to the Mississippi system 
through the Chicago Sanitary and Ship Canal, we expect similar 
results in the Great Lakes and certainly in some parts of the 
lakes, which are well-suited to Asian carp.
    So that gives us a very real example of why aquaculture is 
a vector that we are very concerned about. We have to assume, 
once brought into North America, that a species will escape and 
will spread and could cause harm.
    The Asian carp were reared in aquaculture facilities. They 
were enclosed facilities, but when they were inundated with 
flood waters, they were allowed to escape and have been 
spreading since.
    The current floods that are taking place in Iowa and other 
parts of that region certainly do cause us concern because 
there are, I believe, somewhere around 16 or 20 species that 
are raised in aquaculture facilities in Iowa alone, many of 
which are currently not in the Great Lakes and many of which 
are not even native to North America. We know, from history, 
that floods like this are a vector for the spread of these 
species. So, yes, we are very concerned about it.
    Could it have been prevented? I think, if there had been a 
meaningful screening process 20 years ago or more, 30 years 
ago, we would have had a chance to consider some of these 
issues before the species that were raised in aquaculture would 
have been allowed entry into North America.
    Ms. Bordallo. Thank you. Thank you very much.
    Mr. Horne, Section 10[b] of my bill encourages the 
voluntary surrender of invasive, nonnative wildlife species. 
Can you speak to the effectiveness of Florida's amnesty days 
and why this is an important provision in the bill?
    Mr. Horne. Yes, I can. It has been effective. With time, I 
guess we will tell truly how effective it has been, but the 
first one that we did, the last one, we collected 220 animals. 
There were actually some of the injurious species that were in 
there that were actually microchipped and licensed and put back 
out because we allowed them to be readopted.
    So I think, with time, that is going to be a proven entity, 
especially if it is extended to where reptiles, in particular, 
and other invasive species can be surrendered to Animal 
Control, but, as of right now, most will not take reptiles, in 
particular, so that would be something that would certainly 
help in the future, or even something that the industry could 
to help assist in surrendering animals that people no longer 
wanted.
    Ms. Bordallo. Another one is your Governor, Governor 
Christ, recently announced the agreement between the U.S. Sugar 
Corporation and the State of Florida that would work toward 
Everglades restoration. Will preventing the import of invasive, 
nonnative, wildlife species also contribute to the ecosystem 
health of the Everglades?
    Mr. Horne. Well, it will not contribute to the restoration 
because one of the things that we are finding with particularly 
pythons, tegos, now monitors, is they are eating a lot of the 
species that we are actually looking for restoration counts. 
One of the things we have to do is bird counts, which is 
critical to the restoration efforts. It is one of our key 
indicators, and, of course, we know, from the ones that we have 
captured and did necropsies on their stomachs, most of the 
contents in there are birds and native wildlife.
    So it will be hard for us to determine truly what is 
restoration, particularly as these creatures move further and 
further north, and there are certainly indicators that they are 
not just in the Everglades. We have actually captured pythons 
enough to say that they are there in the Melbourne area, which 
is midway the state, and as food depletes, they will move to 
find additional food.
    Ms. Bordallo. Thank you very much.
    I have a question also for Mr. Meyers. Given the inadequate 
authority, under the Lacey Act, to ban the species on a pre-
import basis, inadequate authority that PIJAC pointed out in 
its October 2007 testimony, what new steps would PIJAC propose 
to reduce the risk of harm from imported animals?
    Mr. Meyers. There are two aspects to that. Number one, I 
would go back to the 1994 recommendation of coming up with a 
catalog of species in trade so it is clear, any species not on 
that catalog must go through some form of a risk analysis 
before it would be allowed to come into the country. That is 
number one.
    Number two, on some species that are in trade, we think 
that more work could be done with CDC and others on what type 
of screening should be done to make sure there is screening for 
health issues and things of that nature.
    Had health certificates been required, or some screening or 
testing prior to the importation of the Gambian pouch rat, or 
whatever the animals were that brought the monkeypox in, that 
would have been prevented. We would like to work with getting 
those things put into place.
    Ms. Bordallo. Very good. I have another question. Your 
testimony states that the H.R. 6311 places an untenable burden 
on the trade to scientifically prove a negative; example, the 
absence of harm.
    Now, isn't it true that Federal laws require similar 
efforts by other industries? For example, those who want to 
introduce new pharmaceuticals, new food additives, new food 
contact materials, medical devices, and so on; they all have to 
go through a similar process of demonstrating their products 
are not harmful before introducing them into commerce.
    So why can't the pet industry, then, meet this burden for 
its products, as other industries already do?
    Mr. Meyers. Well, because if you look at the harm that you 
go through on approving a drug, it is a lot different than 
trying to meet all of the criteria of harm that are listed 
here. That is why the risk-management aspect, I think, is very 
important to put in juxtaposition because risk assessment is 
only part of that, proving the harm or not providing the harm.
    We think it has to be part of a risk-analysis process to 
where you can take into account and make some of those types of 
judgmental factors because the science is not as clear on 
proving harm to my body with a drug or a chemical as it may be 
to the introduction of some animals where some of the science 
may be a little nebulous, and also all of the different 
factors.
    I happen to have been on the black carp assessment protocol 
that we did to try to test the system, and I will tell you, had 
the catalog system been in effect, and that risk assessment had 
been done prior to its coming in, I suspect that the black carp 
would not have been allowed in the United States, and that is 
why we support the first-time-introduction approach because I 
think there are different criteria, both in terms of looking at 
the risk assessment, looking at harm or potential, as well as 
the management that can go with it.
    Ms. Bordallo. Thank you. I have a question for Mr. Riley.
    Section 3[c] requires consultation with the United States, 
as well as other stakeholders, and 3[d] requires transparency. 
Now, why are these provisions important to fish and wildlife 
agencies?
    Mr. Riley. Madam Chair, the states have broad authority 
within their own boundaries to regulate the possession and 
importation, the exchange, sale, barter of resident wildlife, 
both native and nonnative. These are key provisions, and a bit 
of that discussion came up when Dr. Frazer talked a little bit 
about the long-arm provisions of the Lacey Act. Those state 
authorities work in concert with Federal authorities.
    One thing to consider, in terms of enforcement, was if we 
are going to do this, we probably ought to enforce it as well. 
There are probably, at least in my state, about 15 times the 
number of wildlife enforcement officers at the state level as 
there are with the Fish and Wildlife Service. In many 
instances, it is the state wildlife officer that is the one 
that makes contact with an individual with regard to either 
permitting or an enforcement contact with regard to illegal 
possession of an animal.
    The complementary roles and the collaborative roles between 
the state and the Federal authorities are crucial in terms of 
making a system like this work.
    Ms. Bordallo. Another question I have. In a hearing we had 
earlier this week, Mr. Wittman asked a question to the Director 
of the Virginia Department of Game and Inland Fisheries about 
the exasperated effect of invasive species in the face of 
climate change. With increasing temperatures in Southwestern 
lands and rivers, is this an additional reason to control the 
import of invasive, nonnative wildlife species?
    Mr. Riley. Madam Chair, it certainly is. As climate change 
progresses, however it manifests itself, habitats will change. 
Habitats that are already stressed are those that are most 
likely to be susceptible to wildlife invasions. So maintaining 
the health of habitats and restoring habitats, so that they can 
be resilient is a key strategy in maintaining their protection 
against invasions.
    We may also find ourselves in the position of making 
interesting and difficult decisions in the future where, 
because of the species complement changes, we may need to 
consider, is there a nonnative that will provide a service, an 
ecological service, to replace something that is perhaps not 
savable? Those will be very, very difficult decisions, and so 
part of our emphasis within our states certainly has to be on 
restoration and maintaining the resilience of ecosystems.
    Ms. Bordallo. Thank you.
    Mr. Meyers, I will go back to you again, just to clarify 
for the Committee here, for first-time introductions, you want 
a screening process similar to my bill, and for species in 
trade, you recommended a phased-in approach, just to clarify.
    Mr. Meyers. Thank you, Madam Chair. I think, for first-time 
introductions, while the management plan calls for a screen, 
there is a lot of discussion as to what is a screen versus a 
risk assessment? A risk analysis should be done on a first-time 
introduction to screen it, determine whether or not there is a 
potential problem, and to deal with the risk-management aspect.
    For species in trade, we are not opposed to their having a 
screening process, an expedited screening process, or something 
that is clearly not going to happen under the current injurious 
wildlife structure. But any species in trade should still be 
able to be subject to an analysis to determine whether or not 
it ought to go on a prohibited list, but to have a de facto 
prohibition because it cannot be done within the timeframe 
prescribed under a statute just puts a lot of species out of 
trade that may be of absolutely no harm whatsoever.
    We are not opposed to having species in trade looked at, 
reviewed, and having certain types of controls. Again, by 
letting the states have stricter domestic measures, or stricter 
measures, that also allows them to control more vigilantly what 
may come into their state that they do not want that may be 
allowed somewhere else in the country.
    You must remember, a person knowingly bringing that in has 
a Lacey Act violation, which has very serious consequences. So 
the stricter state authority is very critical.
    Ms. Bordallo. Just one final question to you, Mr. Meyers. 
To the extent data are limited in understanding the scope of 
the potential issue with the pet trade, would PIJAC or its 
partners be willing to make available to the Committee and/or 
independent scientists the available records on which species 
have been imported, when, and how many individuals?
    Mr. Meyers. We had already started that process in 
anticipation that the catalog would have gone through in the 
earlier legislation for the ornamental fish trade, and we are 
pulling together because, unfortunately, the LIMAS database 
quite often just puts down ``tropical fish,'' and they do not 
have the species data.
    So we had asked the major importers in the United States to 
provide to us the lists of all of the species that they have 
imported over, while the earlier drafts said ``as long as 15 
years,'' we asked them for the last five years or 10 years. I 
do not remember exactly. We have compiled that list. It has 
been reviewed. It will probably be published in some type of a 
journal.
    We have no problem making that available, and we will work 
through all segments of the industry to gather that data, work 
with the agency and other stakeholders, environmental 
organizations, to verify that these are legitimately species in 
trade, and one way to do it is going back to the lists of 
people that are licensed to commercially import.
    Ms. Bordallo. What would be the timetable on this? Could 
you give us some idea?
    Mr. Meyers. It took us, to develop the freshwater fish list 
by using biologist interns, probably about eight or nine 
months, and I believe one of those papers may be actually 
published by that student as part of her thesis work.
    I would say that it could probably be done, and I may be 
overly optimistic, within an 18-month time period.
    Ms. Bordallo. Very good. Thank you very much, Mr. Meyers.
    The Subcommittee now welcomes our guest from Florida, The 
Honorable Congressman Klein, and I ask unanimous consent that 
Mr. Klein from Florida be allowed to join the Subcommittee on 
the dais to participate in the hearing. Hearing no objection, 
so ordered.
    I would like to ask you, Mr. Klein, to ask the questions 
that you wish to.
    Mr. Klein. Thank you, Madam Chair. I really appreciate the 
democracy in action here at this Committee. Thank you very much 
for holding this hearing, a very important issue, and thank you 
to the guests on the panels that have been with us today to 
talk about this and find ways to work with the Chair and other 
Members of the Congress to make a more efficient and 
streamlined process to deal with what many of us around the 
country are concerned with, in terms of nonnative wildlife and 
the impact it is having on our states.
    One of the main reasons that I have taken an interest in 
combatting this, invasive nonnative species, relates to the 
Florida Everglades. The Florida Everglades are a big part of 
the State of Florida. As many of us know in the Congress, there 
has been a tremendous effort, at the state and Federal level, 
and one of the largest combined efforts in U.S. history to work 
together as state and Federal governments to the Corps and 
other agencies to protect what we know as the ``River of 
Grass.''
    Because there are so much of the resources that are being 
invested in this, there is a great stake of making sure that 
the plans are working, that the water is restored in many ways 
to sheet flow, and that the impact to the ecology and the 
environment of the area and the entire state is restored as 
much as possible.
    The issue of nonnative wildlife is a big issue, and, for 
number of reasons, there are a lot of different types of 
wildlife that have gotten into the Everglades in the wild and 
have created a very, very significant problem, which are 
changing, in many cases, the impact of the native species and 
impacting the Everglades themselves.
    The Burmese python is something that has been mentioned by 
Mr. Horne and others, and this is something that we know, in 
our area, is a big issue. If it is OK with the Chair, my good 
friend, Alcee Hastings, Congressman Hastings, from Florida, was 
unable--he has got a competing scheduling item today, but he 
has a written statement, and if I could submit it, with your 
consideration, to be admitted to the record, I would appreciate 
that.
    Ms. Bordallo. No objection, so ordered.
    Mr. Klein. Thank you.
    [The prepared statement of Mr. Alcee Hastings follows:]

   Statement of The Honorable Alcee L. Hastings, a Representative in 
                   Congress from the State of Florida

    Thank you, Chairwoman Bordallo, for introducing the Non-Native 
Wildlife Invasion Prevention Act and for holding this extremely 
important hearing on this legislation today.
    First, I would like to thank our distinguished panel of witnesses 
for attending the hearing. In particular, I appreciate the presence of 
Mr. George Horne, Deputy Executive Director of the South Florida Water 
Management District.
    The introduction of non-native species can often be effectively 
managed. But sometimes, as is evident now in Florida, invasive species 
pose a major threat to the health of the native species and humans 
alike and harms our environment and economy.
    The Lacey Act's injurious wildlife provision is the main regulatory 
safeguard from invasive animal species introductions in the United 
States. It is my belief that the Act, last amended in 1988, does not 
comprehensively address the challenges of today's world, as it does not 
take into account the increasing flow of commerce and globalization and 
the growing emergence of non-native species.
    Specifically, the Lacey Act only lists a limited amount of species 
as injurious and the average time between initiation and final actions 
of listing reviews has increased to over four years in the last decade. 
Further, the Act only evaluates species after they have caused 
widespread damage to the environment and to human and animal species' 
health.
    In my judgement, we need a fresh approach to confronting the 
threats posed by non-native species. The increasing emergence of non-
native species can strain our management resources and cause long-term 
damage to our environment. We need more effective preventive measures 
to limit intentional importation of invasive species. This bill seeks 
to accomplish just this by evaluating the risk of such species before 
it is imported and established.
    My interest in this issue initially arose because of the impact of 
Burmese pythons on Florida's Everglades. The Burmese python preys on 
more than twenty species native to Florida. Their presence threatens 
the endangered species and plants of the Everglades' unique ecosystem 
and hinders Everglades restoration efforts. Further, it has the serious 
potential to cause harm to the people visiting and living in the 
Everglades and surrounding communities.
    This problem is not merely relegated to Florida. A 2008 United 
States Geological Survey model predicted that the Burmese python may 
snake its way up the Southeast and even toward the Pacific states.
    Last September, Congressman Ron Klein (D-FL) and I wrote to the 
Director of the United States Fish and Wildlife Service (27 January 
2009USFWS) expressing concern over the sharp rise of wild Burmese 
pythons in and around Everglades National Park. We urged USFWS to fast 
track the injurious wildlife review of this harmful invasive species. 
We also called on USFWS to establish a task force to its internal 
injurious listing process to ensure that the Lacey Act is implemented 
commensurate with the contemporary challenges we face with invasive 
species.
    State agencies, including the Florida Fish and Wildlife 
Conservation Commission, have developed and implemented python control 
programs in Florida to prevent the species from becoming more 
widespread. However, our state lacks sufficient resources to continue 
to effectively manage this species.
    Florida isn't alone. States across the nation are increasingly 
attempting to tackle the same threats. If we are to successfully 
address this issue in the long-term then we need to comprehensively 
address non-native species introduction and importation.
    I strongly support the provisions in this bill that assist with the 
regulation of potentially harmful non-native wildlife into the United 
States. Our nation would benefit from federal policies that enhance the 
screening process and increase management, control, and enforcement 
measures of these species. This bill puts us on the path toward finally 
doing just that.
                                 ______
                                 
    Mr. Klein. Senator Nelson and Congressman Hastings have 
been taking a lead on dealing with the Burmese python, and, 
again, it is just one example of a number of various species, 
but that one, in particular, I am highlighting because I know 
the water management district has petitioned the Fish and 
Wildlife Service to list the Burmese python as an injurious 
species, and this has, unfortunately, been going on for quite 
some time, and it does not seem like we are where we need to 
be, and it just seems to be taking an inordinate amount of 
time.
    If I can direct a question to Mr. Horne, in what ways have 
these types of delays hampered the efforts to prevent the 
spread of the Burmese python in the Everglades, and if you 
could explain to us what you believe the impact of that is?
    Mr. Horne. Well, there is very little effort going on out 
there except for the fact that there is some assistance from 
Everglades National Park. They have licensed one of our 
employees. He carries a weapon. In his daily runs, he takes 
pythons. Last month, I believe he had taken seven in one day. 
You can go down the same levee every single day and pick up a 
python.
    They are eating the wildlife at enormous rates. In some 
areas where you used to see lots of rabbits and birds, you see 
nothing, but you find pythons every time you go there.
    As I stated earlier, one of our key indicators in 
restoration is bird counts, and if we are successful, we have 
reestablished those rookeries in the 'Glades, and the fact that 
the pythons are there and that they are establishing themselves 
in and around rookeries means that the bird counts are going to 
go down, and some of the species which are not in threat now 
will be because they are going to eat them, and every time you 
find one, you know, they typically always have a bird in it.
    So it is going to really hurt our ability, or our measures 
for restoration are going to have to change, but I think birds 
are one of the critical things that truly attract people to the 
Everglades and have made it what it is today, and they may not 
be there if we do not have, you know, a concerted effort to 
extinguish these animals.
    They need to disappear. The mere fact that there are 
anywhere between five to 40,000 animals out there, according to 
estimates from biologists, that means we are probably never 
going to get them under control. In other species that are 
going to spread--the Nile monitor, we already know they have a 
20-square-mile area they have established, and tegos are in 
Everglades National Park, and we have captured one of those 
recently in cages that our staff helped manufacture.
    So they are there. They are not going to go away. We need a 
concerted effort to eliminate them, and this provision 
certainly helps control new things coming in, and maybe go back 
and look at some of the other animals that are there to limit 
their spread.
    Mr. Klein. May I follow up, Madam Chair?
    Ms. Bordallo. You have as much time as you wish to consume.
    Mr. Klein. Thank you very much, Madam Chair.
    Thank you for that explanation. The reason I brought up the 
python is because that is a very significant identified issue, 
but there are others. I think the concern that we have with the 
Everglades, and, again, similar to other parts of the country, 
is that many of these are in an earlier stage, and, if not 
stopped now, we will continue to have a proliferation of the 
types of nonnative animals that will impact the ecology and the 
various other types of wildlife in the Everglades, which will 
have a damaging effect on the Everglades itself.
    As a follow up to this, obviously, the Everglades are a 
very large area, but it is also surrounded by a very vibrant 
agriculture business in Florida, and the other concern that we 
have, of course, is that these pythons do not necessarily know 
borders or what is public land and what is private land, and 
there is a concern also in the agriculture industry that these 
could migrate into other areas and consume livestock and do 
other things which would impact the agriculture industry. Any 
sense of the threat of that?
    Mr. Horne. Well, indeed, some of that has happened already. 
One of the snakes that was being tracked had actually eaten a 
farmer's goose, which is adjacent to the Everglades.
    Mr. Klein. Did the goose have a name?
    Mr. Horne. I am sure it probably did, and it probably 
squawked quite loudly for a moment, but they have spread out, 
and, of course, there are lots of chicken farms and other 
things that are in the 'Glades. If they get there, they will 
get in, they will eat the livestock, and, of course, the 
critical thing with the python: They can eat 80 percent of 
their body mass, and they can weigh up to in excess of 200 
pounds. So there are not many things that it cannot eat, so 
they are an absolute threat.
    Mr. Klein. Thank you for that information as well. Again, I 
think this is a very significant issue, and, again, the python 
is the example because of the size and the proliferation and 
its ability to consume large animals, large quantities as well. 
But, again, I am very concerned about the overall impact in the 
agricultural community and the wild.
    A lot of people are not necessarily familiar, even in 
Florida, of the fact that when you have a large area like the 
Everglades, there is a responsibility to maintain. It is not 
just letting wild be wild. We have an invasive species of plant 
life that is creating problems, which the water management 
district is working on, as well as the animals.
    A second question: I know there has been some activity in 
Florida, and maybe some other states that you can comment on, 
to try to creatively deal with invasive species, and I 
understand the Chairwoman has been very interested in this as 
well, and I appreciate that. But maybe you can talk to us 
regarding some of their ideas about amnesty and other ways they 
are trying to get the public to participate in the elimination.
    We know that, unfortunately, many animals get into the 
wildlife based on dumping of snakes and things like that into 
that area, and then they grow very rapidly, but can you share 
with us some ideas and programs that are out there that the 
public can work with us on, and we can encourage as well?
    Mr. Horne. We have actually started an amnesty day in 
Florida where you can come in and surrender your pets, and, of 
course, they put them back out for readoption. If they are an 
injurious animal, they will have microchips placed in them and 
licensed. The pythons, for instance, you have to pay a license 
now. You have to register. You have to pay a $100 fee to own 
the python, and, of course, report its loss or transfer, if you 
are going to get rid of it.
    Our agency has printed cards so we can have, like, a first 
responder. If you see a python, we have a number for our 
employee. You can call, and he will come and take it out or 
contact the Park Service in Everglades National Park, and they 
will come out and assist with that as well.
    So we have some programs started, but it needs to be far 
expanded to take care of all animals, and, particularly, not 
just an amnesty day. It needs to be where you can surrender 
these animals at any time because my biggest concern is what 
happens the week after you have an amnesty day, and someone 
decides they want to get rid of their large reptile? So we need 
to expand that program, but I think it is going to work well. 
There just needs to be more of it.
    Mr. Klein. And, Madam Chair, as we work through this issue, 
obviously, ideas from around the country would be helpful in 
working with our agencies and the state and Federal government, 
in terms of coming up with ideas.
    Clearly, the piece of legislation that is being considered, 
I think, goes a long way in moving in the right direction. 
Obviously, there is an interest of pet owners to own pets and 
have the enjoyment of that, but there is also a major public 
policy concern that impacts cost of operations and maintenance 
of large areas like the Everglades or other park systems or 
water systems, as well as the impact that it has on the local 
communities.
    So the balance of interests is there, but, at the same 
time, I think we would all agree that something that is against 
the law should not be allowed in the country, and something 
that should be considered a threat; there needs to be a process 
to, using science and the best science available, to make 
decisions expeditiously and appropriately, with everybody at 
the table, and then when that happens, we have the resources 
available, through our various levels of government, to enforce 
and to work with local communities to make sure that we do not 
have problems that get out of control.
    So, Madam Chair, thank you for allowing me to participate 
today, and I look forward to working with you on this 
legislation.
    Ms. Bordallo. I thank the gentleman from Florida, Mr. 
Klein, for his input. He may have problems in his state, but we 
have problems in our territory, and that is the brown tree 
snake, Mr. Klein. You have the pythons; we have the brown tree 
snake.
    I want to thank all of the witnesses for their 
participation in the hearing today, and Members of the 
Subcommittee may have some additional questions for the 
witnesses. We were interrupted with the votes, and some of them 
wanted to come back. So we will ask you to respond to these in 
writing. The hearing record will be held open for 10 days for 
these responses.
    If there is no further business before the Subcommittee, 
the Chairwoman again thanks the Members of the Subcommittee and 
our witnesses, and the Subcommittee now stands adjourned.
    [Whereupon, at 12:25 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
